<html>
<title> - LOAN GUARANTEE PROGRAM</title>
<body><pre>[Senate Hearing 111-11]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-11

                         LOAN GUARANTEE PROGRAM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

RECEIVE TESTIMONY ON THE CURRENT STATE OF THE DEPARTMENT OF ENERGY LOAN 
                  GUARANTEE PROGRAM, AUTHORIZED UNDER 
  TITLE 17 OF THE ENERGY POLICY ACT OF 2005, AND HOW THE DELIVERY OF 
 SERVICES TO SUPPORT THE DEPLOYMENT OF CLEAN ENERGY TECHNOLOGIES MIGHT 
                              BE IMPROVED

                               __________

                           FEBRUARY 12, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources











                  U.S. GOVERNMENT PRINTING OFFICE
48-618                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel








                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Asselstine, James K., Managing Director, Barclays Capital........    23
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Book, Kevin, Senior Vice President, Energy Policy, Oil & 
  Alternative Energy, Friedman, Billings, Ramsey & Company, Inc..    18
Frantz, David G., Director, Loan Guarantee Program, Department of 
  Energy.........................................................     4
Karsner, Andy, Distinguished Fellow, Council on Competitiveness, 
  Former Assistant Secretary of Energy Efficiency and Renewable 
  Energy, Department of Energy...................................    10
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    51

                              Appendix II

Additional material submitted for the record.....................    61

 
                         LOAN GUARANTEE PROGRAM

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Ok, why don't we get started with the 
hearing? Thank you all for being here. The purpose of this 
hearing is to focus on the Department of Energy's Loan 
Guarantee Program.
    This is an exceptionally busy time for all of you. I 
appreciate you making the effort to be here and help us 
understand the challenges we face in getting these critical 
energy related technologies deployed and the role that the Loan 
Guarantee Program may play in that effort. Particularly I'd 
like to thank David Frantz for coming here today and to give us 
the views from the Department, particularly as those views have 
shifted in the last month or two.
    It's a bit unfair to ask the new administration to address 
the implementation problems of this program since they 
obviously just came to town and took charge in the last month. 
But I believe this is a powerful tool for meeting our energy 
security needs. I think it would be a mistake for us to 
postpone making needed adjustments any longer than necessary.
    Senator Murkowski and I had a chance to speak with 
Secretary Chu yesterday. I believe he shares that view. He 
indicated that the Department is going to do all it can to move 
ahead with a generation of green jobs and beginning the re-
orienting of the economy to fit our national needs as they see 
it better. This program is vital to that.
    It was an encouraging meeting. I'm satisfied that the 
Secretary understands the difficult task ahead and the urgency 
that will be required to address it. So we look forward to a 
constructive partnership between this committee and the 
Department of Energy in getting some of these problems 
resolved.
    There are a lot of different challenges that we face 
related to our energy needs. Putting a price on CO<INF>2</INF> 
will help. I believe policy such as renewable electricity 
standard will help. But we need to explore every possible 
option. Clearly putting in place an effective Loan Guarantee 
Program is part of that.
    We have many professionals in the Department of Energy who 
have seen any number of potentially world changing technologies 
both within our laboratories and other affiliated research 
institutions. The gap that seems to exist is in navigating 
those technologies through the so called Valley of Death to 
widespread commercial deployment. The Loan Guarantee Program we 
put in law in 2005 was designed to deal squarely with that 
problem. But somewhere along the way the guiding principle of 
speed and scale were lost.
    I believe the President and Secretary Chu are bringing the 
necessary will and sense of urgency to the problem that I 
would. I think we need to still ask ourselves if the structure 
of the program is what it should be in order for it to succeed. 
Can the Department take the necessary risks? The risks that the 
private sector is unwilling to take or unable to effectively 
price in order to enable these technologies to get over these 
initial hurdles and become commercially useful in our economy.
    Will they be able to act in a sufficient scale to reduce 
the deployment costs that keep these technologies from 
effectively competing with entrenched current technologies? So 
that's the challenge before us. I think it's an issue we want 
to address. If we're able to do an energy bill here in the next 
couple months in the Senate we clearly want to be sure that we 
are doing everything we can identify to do to make this a 
viable part of the solution.
    So let me turn to Senator Murkowski for her comments.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I had 
envisioned a standing room only crowd this morning on the topic 
of the Loan Guarantee Program. Everywhere I go people want to 
talk about it. They all have their opinions. I think you and I 
would agree that most of those opinions are not exactly 
favorable in terms of what has been happening.
    We recognize the importance of this program. It certainly 
received a great deal of attention over this past year from the 
standpoint of global climate change. The Loan Guarantee Program 
is an excellent example of the do everything approach. It's 
going to help us develop the 21st century energy system that I 
think we all recognize our country needs.
    The Loan Guarantee Program has been dismissed by some as 
merely a Loan Guarantee Program for the nuclear industry. But I 
don't believe that is the case. The title 17 program provides 
support for a broad portfolio of clean energy technologies, 
everything from energy efficiency, to renewables, to pollution 
control, vehicle technology, advanced nuclear and carbon 
capture projects, truly the whole gamut.
    The Loan Guarantee Program was established 4 years ago. But 
I think we can see the benefits today as we are trying to 
rebuild our battered economy. This program supports the 
projects that promise stable, high paying energy sector jobs. 
Will help rebuild core infrastructure upon which our future 
prosperity depends.
    I would state that we are not risking taxpayer dollars with 
this program. Instead the fees that are paid by loan guarantee 
recipients are designed to cover the costs of potential project 
defaults. The energy sector obviously needs this program as 
evidenced by just the voluminous number of requests that have 
been submitted to the Department of Energy.
    We have got a limitation of $42 billion for the program. 
Yet DOE has received more than $120 billion in applications. 
The solicitations that have been closed so far have been 
oversubscribed by two to five times. I think that speaks to the 
interest to the demand.
    I am hopeful that the renewable energy solicitation will 
receive similar interest. I think we have good reason to 
believe that it will. Certainly the financial crisis that is 
facing the country at this time will only increase the demand 
for credit access under this program.
    We are here today to discuss the deployment of the Loan 
Guarantee Program along with the possible ways to improve upon 
it. As the chairman mentioned in our conversation yesterday 
with Secretary Chu, when the question was asked, ``What would 
you like to hear from the Loan Guarantee hearing?'' He wants to 
hear the suggestions from the consuming perspective out there.
    Secretary Chu wants to know what it is that we can do 
better. This is our opportunity. I would hope that the 
witnesses who have been asked to testify here today will be 
free with your comments and your suggestions and your 
criticisms as well. We should let this be a constructive use of 
everyone's time here.
    I think there are two points that we need to keep in mind 
as we move forward.
    First, as I mentioned there is an urgent need for these 
services, particularly in light of the credit crisis as we 
face. We should ensure that the current programs proceed as 
expeditiously as possible. If there are road blocks present, we 
need to remove them.
    Where the rules are ambiguous we need to clarify them. If 
there is a desire to broaden the current program to provide 
additional services or achieve policy objectives than it should 
be done in a way that does not cause delays in the disposition 
of the current applications. We have much invested in the 
pipeline. If we're going to be looking to something else, we 
should not cause further delay for those that have already 
applied.
    Second, we have to ensure equitable treatment of the entire 
portfolio of clean energy technologies. We shouldn't be sitting 
here now determining who the winners and the losers are. We all 
have our personal visions of the future and preconception of 
what is possible. But it's the complex interaction of market 
forces and research and innovation that will determine the 
details of our energy future. Our job is to encourage the 
pursuit of the greatest diversity of options that are out 
there.
    Again, Mr. Chairman I want to thank you for calling this 
hearing this morning. I look forward to the comments from the 
witnesses.
    I know that Mr. Asselstine has given testimony before this 
committee before. I thank you for that.
    Mr. Book and certainly Mr. Karsner have been frequent 
guests before the committee. We welcome you back.
    Mr. Frantz, it's kind of surprising that this is just your 
first testimony before the committee. But I welcome you as well 
and look forward to your comments and suggestions as we move 
forward. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Let me just briefly 
introduce again the panelists. Then we'll take six or 8 minutes 
and have each of you summarize the main points you think we 
need to understand. Then we'll have questions.
    David Frantz is the Director of the Loan Guarantee Program 
at the Department of Energy. He will lead off.
    Andy Karsner is beside him. He's now a distinguished fellow 
with the Council on Competitiveness. But formerly was Assistant 
Secretary of Energy for Efficiency and Renewable Energy and a 
frequent testifier at our committee which we appreciate.
    Kevin Book is Senior Vice President and Senior Analyst on 
energy policy issues with Friedman Billings Ramsey and Company 
in Arlington, Virginia.
    James Asselstine is the Managing Director of Barclays 
Capital in New York.
    Thank you all very much for being here. David, why don't 
you just go ahead and start. We'll just go across the table 
there.

STATEMENT OF DAVID G. FRANTZ, DIRECTOR, LOAN GUARANTEE PROGRAM, 
                      DEPARTMENT OF ENERGY

    Mr. Frantz. Thank you very much, Mr. Chairman and members 
of the committee for inviting us here today to speak to you and 
bring you up to date on the current status of the title 17 Loan 
Guarantee Program of the Department of Energy.
    Mr. Chairman, before I start I would like to extend to you 
a personal thanks for your continued involvement and 
constructive suggestions as well as the other members of the 
committee. Your help has been very instrumental as we have 
mobilized and worked to stand up this exciting program for the 
U.S. Government. I also would like to just mention 
parenthetically that I'll devote my oral comments principally 
to bringing you up to date on the program. I would be happy to 
discuss specific suggestions for improvement or changes in the 
question and answer period to be more responsive and direct to 
your interests.
    I do want to ensure you, this program is an urgent priority 
for Secretary Chu, as you know from your meeting yesterday, as 
we face an unprecedented economic crisis that demands 
unprecedented action. Secretary Chu is personally reviewing the 
program, and has committed to giving this program the 
attention, departmental resources and oversight it needs to 
succeed.
    The Loan Guarantee Program has made progress over this past 
year. Nevertheless, Secretary Chu has directed us to accelerate 
the process significantly. One immediate priority for Secretary 
Chu is simplifying and streamlining the existing application 
and evaluation systems. There is every reason to believe we can 
do so in order to process loans in less time while still 
insisting on a high standard of accountability and protecting 
the taxpayers interests.
    To make this transformation, Secretary Chu has tasked us to 
draw on the experience and success of the private sector as 
well as other similar agencies in the U.S. Government who have 
administered similar programs. As you well know, the Department 
of Energy Loan Guarantee Program can be divided into five parts 
representing the five issued solicitations. I'll review those 
just very briefly for you here.
    The 2006 Mixed Technologies Solicitation closed on November 
19, 2008, and we are currently evaluating 11 projects. Getting 
these loans funded quickly represents the No. 1 priority of our 
program.
    The Front-End Nuclear Power Facilities Solicitation closed 
on December 2, 2008, with the receipt of two applications.
    The Nuclear Power Facilities Solicitation closed on 
December 19, 2008, and we are currently evaluating 15 
applications for ten specific projects in this area.
    The Part One applications for the Fossil Energy 
Solicitation were due on December 22, 2008. We received eight 
applications under that solicitation. We have, just as of 
yesterday, completed our first consultations with each of those 
eight applicants.
    Finally, the Part One applications for the Advanced 
Renewable Solicitation are due on February 26, 2009. Senator 
Murkowski referred to that in her comments. We are yet to see 
the results of that. I can comment on what we do know at this 
stage. But the applications are not in. So that will be of 
great interest to us when we close at the end of this month.
    I would like to briefly comment on the status of the FY 
2006 solicitation because they are our highest priority, and to 
hopefully clarify some misinformation that has been in the 
public domain.
    The LGPO issued a solicitation in August 2006 for pre-
applications only, not full applications. The solicitation was 
issued under total loan authority for $4 billion which remains 
available until used, essentially for us no year funding. This 
was done to determine market interest, although the program had 
not yet received an appropriation for standing up the program 
office.
    In April 2007, administrative funds were appropriated, and 
I was hired shortly thereafter from the Overseas Private 
Investment Corporation. In October 2007, we issued the final 
rulemaking and selected 16 projects deemed financially and 
technically qualified from a field of 143 pre-applicants. We 
invited those 16 to submit full applications in accordance with 
our Final Rule which was published in October of 2007. 
Consultations were conducted with each of these applicants to 
assist in the application requirements and as well to introduce 
them to our policies and procedures for going forward.
    Applications from this group of 16 were not immediately 
forthcoming. Therefore, the Loan Guarantee Program was 
compelled to establish a closing date of November 19, 2008, for 
submitting completed applications. As of the closing date we 
have received 11 applications out of the 16 that were invited 
to apply. So for us essentially, the program went live on 
November 19, 2008.
    To date, these applications have been reviewed for 
completeness, including National Environmental Policy Act (NEPA 
compliance issues, and priority due diligence has commenced on 
several of these projects identified as our potential early 
movers. The LGP is placing the highest priority on these 
projects through the due diligence and decision process to 
issue loan guarantees this year. The remaining projects require 
Environmental Impact Statements, and I think as everyone in the 
room is aware, that is going to take a considerable amount of 
time. So we are looking for those projects to be closing some 
time during the year of 2010.
    In the interest of time, I will not go into further 
discussion of the FY 2008 Solicitations as I would prefer to 
answer or respond to questions that the committee may have with 
respect to those specific solicitations and your interest in 
each of those.
    I would like now to turn very briefly to the staffing 
because I think this is a great concern and interest to the 
committee. As of today, a cadre of seasoned professionals with 
extensive energy experience, principally in project finance, 
have been hired. Currently, we have 18 full-time equivalent 
Federal employees on board and they are augmented by a seasoned 
group of 11 contractors for a total of 29 people. As of 
yesterday, a graduate engineer joined us from within the 
Department of Energy. So we are fully now at 30 people on the 
permanent staff. The Loan Guarantee Program is continuing to 
recruit and hire qualified personnel of the highest caliber, as 
expeditiously as possible. I might note that while operating 
under the terms and conditions of the FY 2009 Continuing 
Resolution, the Loan Guarantee Program is constrained in its 
ability to achieve the necessary staffing requirements to 
complete the due diligence and credit underwriting for those 
applicants that we are currently working on. We are hopeful 
that the requested funding will be appropriated by March so 
that we can avoid any delay in our activities.
    I am very proud of the staff as it has accomplished a 
prodigious amount of work in a relatively short period of time 
while certainly keeping within the ``best practices'' of our 
industry. I would also emphasize, as in any organization, we 
have learned much and desire to increasingly do better.
    We know the industry is anxious for us to approve the 
initial loan guarantees. We are committed to an effort that 
produces quality loan guarantees while being mindful of 
responsible due diligence efforts throughout the vetting 
process. We are particularly mindful of the earlier experience 
of the Department of Energy's Loan Guarantee Program in the 
latter 1970s and to learn from those experiences. Then as now, 
the economic uncertainty requires us to be very diligent and 
careful in our credit underwriting activities.
    In conclusion, we will move as quickly as possible to 
implement the program understanding the importance of 
scrupulously following the plan established by Congress. While 
the Loan Guarantee Program faced significant challenges in the 
first few years, clearly today we are facing new circumstances 
with a new administration. There certainly is a new sense of 
urgency to make these investments.
    We are profoundly aware that we are in a position to make 
an immediate contribution to assist in the current economic 
crisis.
    Thank you very much for this opportunity to appear before 
you. I will defer to answer questions as appropriate.
    [The prepared statement of Mr. Frantz follows:]
    Prepared Statement of David G. Frantz, Director, Loan Guarantee 
                     Program, Department of Energy
    Mr. Chairman and members of the Committee, thank you for this 
opportunity to be before you today to discuss the Department of 
Energy's Title XVII Loan Guarantee Program and to provide you with the 
current status of the program and the progress we have made to date.
    First, I would like extend my appreciation to you Mr. Chairman and 
the other members of the Committee for your continued support and 
interest in the effective development of the Title XVII Loan Guarantee 
Program.
                         introductory statement
    This program is an urgent priority for Secretary Chu as we face an 
unprecedented economic crisis that demands action. Secretary Chu is 
personally reviewing the program, and has committed to giving this 
program the attention, departmental resources and oversight it needs to 
succeed while ensuring that taxpayer interests are protected.
    This is consistent with President Obama's commitment to acting 
boldly and urgently to put Americans back to work and reinvest in our 
economy. With more than 600,000 workers losing their jobs last month 
alone, Secretary Chu is committed to making this program work better 
and faster for the American people. And he is determined to move just 
as quickly to implement the important new energy investments included 
in the President's economic recovery plan.
    The Loan Guarantee Program (LGP) has made progress over this past 
year. Nevertheless, Secretary Chu has directed us to accelerate the 
process significantly while maintaining appropriate evaluation and due 
diligence to protect taxpayer interests. We are moving to significantly 
shorten the cycle time from application to loan guarantee to ensure 
good projects get funded quickly. We also want to increase the 
transparency in the process to attract more good projects and to ensure 
the American people that the federal loan guarantees create jobs and 
contribute to long-term economic growth and competitiveness.
    One immediate priority for Secretary Chu is automating, simplifying 
and streamlining the existing application and evaluation systems. There 
is every reason to believe we can so that we can process loans in less 
time while still insisting on a high standard of accountability, and 
protecting taxpayer interests. To make this transformation, Secretary 
Chu has tasked us to draw on the experience and success of the private 
sector and other agencies who have administered similar loan 
guarantees.
    Let me quickly review with you the current status of the loan 
programs. DOE will provide additional information as warranted as we 
implement the program.
    As you well know, the DOE Title XVII Loan Guarantee Program can be 
divided into five competitive solicitations. The 2006 mixed 
technologies solicitation closed in November 2008. We are currently 
evaluating 11 projects for $4.0 billion in loan authority. Determining 
which of these projects represents a good federal investment and moving 
forward to closing on those good projects quickly represents our number 
one priority. The front-end nuclear power facilities solicitation 
closed in December 2008. We are currently evaluating two proposals for 
$2 billion in loan authority. The first nuclear power facilities 
solicitation also closed in December 2008. Here we are evaluating 15 
proposals for $18.5 billion in loan guarantee authority. The fossil 
energy advanced technologies solicitation Part I applications were due 
on December 22, 2008. We are evaluating eight projects for $8 billion 
in loan guarantee authority. The advanced renewables solicitation 
currently has $10B in loan guarantee authority and is scheduled to 
close in February 2009 with the exception of the large scale renewable 
projects which will close in April 2009. We are putting in place 
processes to evaluate and fund acceptable projects on an expedited 
basis, while ensuring that taxpayer interests are protected. To 
expedite these loans, we are working expeditiously on the credit self-
pay process, to reduce the paper work required, to automate the 
application process. The LGP is also working to expedite the NEPA 
review for these projects by coordinating with the applicants early in 
the process to ensure they submit the necessary information which 
allows for early determinations regarding the level of NEPA review 
required. We are also dependent on the continuing resolution to fund 
project evaluation, so we will monitor the upcoming 2009 appropriation 
action closely.
           status of fy 2006 solicitation (de-ps01-06lg00001)
    The LGP issued a solicitation in August 2006 for pre-applications 
only. The solicitation was issued under a total loan authority for $4.0 
billion which remains available until used. This was done to determine 
market interest although the program had not yet received an 
appropriation for standing up the program office or appropriation 
authority to issue loan guarantees. On February 15, 2007, the 
Continuing Appropriations Act for 2007 was signed into law. This law 
provided the final necessary authority, under the Federal Credit Reform 
Act, for DOE to implement the Program (including administrative expense 
funding). In this Act, Congress also prohibited DOE from entering into 
any loan guarantee agreements before program regulations had been 
published. I was hired shortly thereafter from the Overseas Private 
Investment Corporation. Two months after I arrived, we issued the final 
rulemaking and selected 16 projects deemed financially and technically 
qualified from 143 pre-applicants and invited those 16 to submit full 
applications in accordance with the Final Rule. Consultations were 
conducted with each applicant to assist in the application requirements 
as well as policies and procedures to be followed.
    Applications from this group of 16 were not immediately 
forthcoming. Therefore, the LGP was compelled to establish a closing 
date of November 19, 2008, for submitting completed applications. As of 
the closing date, the LGP received 11 applications out of the 16 that 
were invited to apply. These applications represent projects using 
renewable energy, fossil energy, and energy efficiency and reliability 
technologies.
    To date, the applications have been reviewed for completeness, 
including NEPA compliance issues, and priority due diligence has 
commenced on a total of seven projects identified as potential early 
movers. The LGP is placing the highest priority on these projects 
through the due diligence and decision process for an ultimate 
recommendation to the Secretary on these applications this year. Due to 
the size, complexity, and likelihood of significant environmental 
effects, the remaining projects require Environmental Impact Statements 
(EIS) which means the projects would not reach a final decision until 
2010.
                         fy 2008 solicitations
    Pursuant to the requirements of the Consolidated Appropriations 
Act, 2008, the LGP submitted a ``FY 2008 Implementation Plan'' to the 
Congressional Appropriations Committees in April 2008, allocating $38.5 
billion loan guarantee authorization consistent with Congress's 
explanatory statement in report language accompanying the Act and with 
the President's FY 2009 Budget. This authorization presently expires on 
September 30, 2009. When the mandated 45 day Congressional review 
period ended, the LGP issued three solicitations on June 30, 2008 
covering (1) nuclear facilities for the ``front-end'' of the nuclear 
fuel cycle, (2) nuclear power facilities, and (3) energy efficiency, 
renewable energy, and advanced transmission and distribution 
technologies. On September 22, 2008, the LGP issued a subsequent 
solicitation for advanced fossil energy technologies. Given the 
complexity of the solicitations, a two part application process was 
followed to assist clients' responsiveness to the full application 
requirement as directed in the LGP Final Rule.
    Let me briefly review the status of each of these solicitations and 
applications received to date.
    front-end nuclear power facilities solicitation (de-foa-0000007)
    As of the Part II submission deadline of December 2, 2008 for 
applications supporting Front-End Nuclear Facility projects, the LGP 
has received two Part II applications to support two different Front-
End Nuclear Facility Projects. The LGP is in the process of completing 
its due diligence on both projects with the expectation of having a 
final determination in the near future.
         nuclear power facilities solicitation (de-foa-0000006)
    As of the Part II submission deadline of December 19, 2008 for 
applications supporting Nuclear Power Facilities, the LGP has received 
15 Part II applications for 10 specific projects for federal loan 
guarantees.
    In processing the Nuclear Power Facilities applications, DOE has 
applied a ``self-determinant'' system largely predicated upon each 
applicant's ``readiness to proceed'' as well as the overall financial 
strength of the candidates. Throughout the process, we have been in 
communication with the applicants, sharing their strengths and 
weaknesses as well as identifying a relative ranking compared to other 
applicants. After two ranking reviews we are focusing our efforts among 
those applicants most qualified to proceed. We are initiating full due 
diligence among a selected number of the applications.
    It is important to note that we cannot enter into loan guarantee 
agreements relative to any of the projects until the Nuclear Regulatory 
Commission has issued the Construction and Operating Licenses (COL) 
which are expected to begin being issued in 2011.
   fossil energy advanced technologies solicitation (de-foa-0000008)
    As of the application submission deadline of December 22, 2008 for 
fossil energy advanced technologies, the LGP received eight Part I 
applications supporting eight different projects. Two of the projects 
are advanced coal based power generation and the balance are industrial 
gasification projects focusing on coal to liquids, petcoke to liquids, 
petcoke to synthetic natural gas (SNG) and coal to SNG.
    Part II application submissions are due March 23, 2009. In the 
meantime, the LGP is in active consultations with the applicants to 
determine overall credit worthiness, ``readiness to proceed'', and 
environmental benefits.
  energy efficiency, renewable energy, and advanced transmission and 
        distribution technologies solicitation (de-foa-0000005)
    The application deadline submission date for the energy efficiency, 
renewable energy and advanced transmission and distribution 
technologies solicitation is February 26, 2009. The deadline for Part 
II applications for large-scale integrated renewable projects is April 
30, 2009. The LGP is fully prepared to move expeditiously as possible 
yet in a careful deliberate fashion to bring those projects identified 
as early movers to the due diligence and approval process.
                                staffing
    As of today, a cadre of seasoned professionals with extensive 
energy experience, principally in project finance, have been hired. 
Currently, 18 full-time equivalent employees are on board and they are 
augmented by 11 contractors for a total of 29 people. The LGP is 
continuing to recruit and hire qualified personnel of the highest 
caliber, as expeditiously as possible, to complete the project 
evaluation, environmental compliance with a focus on NEPA, due 
diligence, credit underwriting and monitoring and oversight activities. 
I might note that while operating under the terms and conditions of the 
FY 2009 Continuing Resolution, the Loan Guarantee Program is 
constrained in its ability to achieve the necessary staffing 
requirements to complete the due diligence and credit underwriting for 
those applicants from the 2008 solicitations. We are hopeful that the 
requested funding will be appropriated by March so that we can avoid 
delaying the evaluation efforts.
    I am very proud of the staff as it has accomplished a prodigious 
amount of work in a relatively short period of time while certainly 
keeping within the ``best practices'' of our industry.
    I would like to emphasize to the Committee that we represent 
entirely new skill sets, including project financing, credit 
underwriting and risk analysis to the Department's personnel force. We 
have striven to assimilate ourselves efficiently within the Department. 
In addition, we have aggressively reached out to establish interagency 
working relationships as we have broken new ground in the 
implementation of this important program.
    As in any new organization, we have learned much and desire to 
increasingly do better. We know the industry is anxious for us to 
approve the initial loan guarantees. We are committed to an effort that 
produces quality loan guarantees while being mindful of responsible due 
diligence efforts throughout the vetting process. We are particularly 
mindful of the earlier experience of the Department's Loan Guarantee 
Program in the latter 1970's and to learn from those experiences. Then 
as now, the economic uncertainty and the significant risk to taxpayers 
require us to be very diligent and careful in our credit underwriting 
activities.
    Since the receipt of completed applications in November 2008, the 
LGP staff has focused on expediting necessary and essential processes 
with the objective of issuing well structured loan guarantees to 
technically and financially sound projects.
                               conclusion
    In conclusion, we recognize the sense of urgency and will move as 
quickly as possible to implement the program while ensuring that the 
taxpayer's interests are protected. We also understand the importance 
of following the Congressional report language in the Consolidated 
Appropriations Act of 2008 requiring an Implementation Plan as well as 
the conduct of an open and transparent competitive process for the 
solicited sectors.
    I appreciate the opportunity to appear before you to present these 
comments. I will be happy to take any questions that the members of the 
Committee may have.

    The Chairman. Thank you very much.
    Mr. Karsner, go right ahead.

  STATEMENT OF ANDY KARSNER, DISTINGUISHED FELLOW, COUNCIL ON 
     COMPETITIVENESS, FORMER ASSISTANT SECRETARY OF ENERGY 
     EFFICIENCY AND RENEWABLE ENERGY, DEPARTMENT OF ENERGY

    Mr. Karsner. Thank you, Mr. Chairman, Senator Murkowski, 
distinguished members of the committee. It's a privilege to 
have the opportunity to appear before you today to discuss the 
critical need to rationalize Federal Government support for 
deployment of clean energy technologies. As a former Assistant 
Secretary of Energy I had the honor of appearing before this 
committee on numerous occasions and working closely with the 
members and their staff to craft meaningful and enduring 
bipartisan legislation. So I'm especially pleased and honored 
to return to testify on this important matter.
    Mr. Chairman, the intent of the hearing is to examine the 
progress of DOE's Loan Program. My former colleagues at DOE 
including this fine gentleman who just testified, Director 
David Frantz, are dedicated, patriotic, public servants who've 
invested very long hours away from their families and friends. 
Are sincerely and personally committed to standing up this 
program under enormous constraints and very long odds.
    I believe that the painfully slow and unacceptable rate of 
progress in issuing the loan guarantees substantially reflects 
institutional barriers, organizational intransigence and 
interagency, bureaucratic dysfunction that can only be overcome 
by a new entity that permanently leaves behind the existing 
legacy management systems. However even as the new and 
important energy title begins to take shape this year I would 
strongly encourage Congress to do whatever is necessary to 
immediately jump start the existing program. Give Secretary Chu 
and Director Frantz the necessary tools to strengthen their 
hand in reforming the rules of implementation and the statute 
if necessary.
    Such reforms would immediately include eliminating the 
upfront fees, lifting the arbitrary deadlines of application 
submissions and addressing regulatory barriers to project 
development. Loan guarantees should be offered through an open 
window with rolling applications based upon available capacity 
to fund on a timely basis.
    Second, the fees placed upon renewable energy projects, in 
particular, are artificially high, disproportionate and 
unreasonable. The title 17 program was elegantly written to 
allow either appropriations to cover the credit subsidy cost or 
for applicants to self pay their own cost in relation to the 
project. Conventionally to encourage competition amongst the 
larger pool of applicants and to stimulate greater interest in 
the energy industry and the participants these fees would be 
collectable upon closing of the transactions and simply rolled 
into the project cost. The present method of asking applicants 
to pay exorbitant sums for the privilege of filing applications 
that empirically linger for years with no predictable pathway 
or time table to a financial closing is unacceptable at best 
and attracts the wrong applicants at worst.
    Finally, in order for clean energy projects to be 
successfully brought online in a timeframe that supports the 
President's stated goals. DOE will need policy and expanded 
statutory tools to expedite citing, permitting and grid 
integration that is deemed to be in the national interest. Even 
if we are able to disperse financing from Federal loan 
guarantees on a timely basis, we will likely fall short of our 
national objectives if we fail to substantially reform Federal 
eminent domain authority and establish environmental review 
waivers over transmission and clean energy generating 
facilities that enable the reduction of greenhouse gas 
emissions under the terms of the statute.
    All of the effort to undertake and accelerate the Loan 
Guarantee Program may be rendered mute if we fail to 
comprehensively deal with the protracted and litigious citing 
and permitting obstacle courses that these projects face. 
Ultimately undermine America's best interest. Even if it 
requires modification of the existing statute itself or FICRA, 
DOE must be empowered to rectify on an emergency basis the 
obvious deficiencies that are barriers to disbursement funds 
and new construction even as a clean energy bank is established 
in parallel.
    Mr. Chairman, in the last Congress you introduced 
legislation to address this issue. I applaud your strong, 
bipartisan leadership along with that of Senator Murkowski in 
identifying the need for systemic change and making it a 
priority for this committee and this Congress. In addition I 
also want to thank Senators Dorgan and Bennett who've been at 
the forefront, working hard to expand an enhanced loan 
guarantees in the current stimulus package.
    Despite the continued bureaucratic obstacles placed in 
front of the program and the good people that run it, it 
undoubtedly remains one of the most transformative, cost 
effective and immediate ways to stimulate domestic, clean 
energy development. This committee's bipartisan leadership on 
the matter is deeply appreciated by all those in the clean 
energy community. I look forward to continue to support these 
efforts as drafts are promulgated.
    In September the Council on Competitiveness explicitly 
endorsed the creation of a clean energy bank to provide debt 
financing and drive private investment in the development of 
sustainable energy solutions and their supporting 
infrastructure. Then Secretary Chu was a council member and was 
a key voice in putting forward these recommendations. I should 
also note that while serving as Assistant Secretary I met with 
many groups across the political spectrum who are pursuing 
institutional reform of DOE's outdated capacities through a 
clean energy bank.
    Prominently amongst these are the Center for American 
Progress, led by John Deutsch and John Podesta.
    The MIT Energy Task Force, led by Dr. Ernie Moniz and 
Melanie Kenderline.
    The United States Chamber of Commerce, led by now National 
Security Advisor General James Jones and my former colleague 
Assistant Secretary Karen Harbert.
    The Secure America's Future Energy Group, led by CEO of 
FedEx Fred Smith and General P.X. Kelley.
    It's notable that all these individuals have served in 
appointed positions directly impacting energy technology and 
national security.
    I am here testifying today before the committee because of 
my strong belief that our current energy institutions are not 
sufficiently agile or equipped with the capability to 
promulgate. To deploy solutions at a pace or a scale 
commensurate with the magnitude of the challenges that we 
currently face. Let me be perfectly clear. The United States 
Department of Energy, under its present constraints in its 
present form, is inadequate to satisfy the mission of national 
security for which it originated and for which we now aspire it 
to perform.
    The proposal of a quasi-governmental agency focused on 
clean energy financing rather than clean energy research and 
development would be a transformational change. But it is not a 
novel one across the U.S. Government. Indeed our government is 
already doing this for other priorities that we have be it 
export, trade, student loans or development of the Third World.
    As many of you know before entering government service I 
was in energy infrastructure developer, as I am now, then 
specializing in emerging markets project finance. I can tell 
you from personal experience, as Director Frantz can from his 
background at OPEC. That if I wanted to build a renewable 
project using the balance sheet of the Federal Government that 
the taxpayer is already on the hook, on a revolving basis for 
any of the technologies under the portfolio that I recently 
managed.
    Meaning that if I wanted to go into the EX-IM bank on any 
day of the week and get a loan guarantee up to 105 percent to 
project finance a biomass project, for example in North Africa, 
I could do that, or if I wanted to co-fund or arrange equity 
with David, when he was at OPEC or a direct loan, I could do 
that. If I wanted walking around money for a feasibility study 
up to $500,000 I could go to the Trade Development Agency and 
do that. All for the same technology projects with the one 
caveat, that they not be built within the borders of the United 
States of America.
    We have got to align our priorities. Reorganize our 
institutions to face down these problems. Because our problems 
are not merely qualitative, they are quantitative. We have to 
establish credible metrics and milestones to move forward and 
heighten the probability of achieving these goals.
    This administration's plan to double renewable energy in 
the next 36 months, for example, is ambitious. But I believe it 
is achievable. I would go further and say it is doable. It is 
desirable if we move with urgency in orienting the government's 
nexus with the private sector in a manner that can catalyze 
unprecedented, continuous, consistent, capital formation.
    This concludes my comments, Mr. Chairman. I'd be pleased to 
answer any questions you may have.
    [The prepared statement of Mr. Karsner follows:]
 Prepared Statement of Andy Karsner, Distinguished Fellow, Council on 
 Competitiveness, Former Assistant Secretary of Energy Efficiency and 
                 Renewable Energy, Department of Energy
    Mr. Chairman, Senator Murkowski, and Members of the Committee, it 
is a privilege to have the opportunity to appear before you this 
morning to discuss the critical need for rational federal government 
support for the deployment of clean energy technologies. As the former 
Assistant Secretary of Energy Efficiency and Renewable Energy at the 
Department of Energy, I had the honor of appearing before this 
committee on numerous occasions and working closely with members and 
their staffs to craft meaningful bipartisan legislation. I am pleased 
and honored to be returning to testify on this important matter.
    Since leaving government service, I have been named a Distinguished 
Fellow for the Council on Competitiveness. The Council is the only 
place where CEO's, labor leaders, National Laboratory directors, and 
university presidents are working together to ensure that Americans 
prosper in an increasingly challenging global economy. Because energy 
transformation is fundamental to the mission of economic development 
and competitveness, the Council has launched an Energy Security, 
Innovation & Sustainability Initiative (ESISI) designed to enhance the 
business case for sustainable energy solutions, and ultimately harness 
market forces to transform our nation's energy production and use.
    Mr. Chairman, the intent of this hearing is to examine the progress 
of DOE's loan guarantee program. I would venture a guess that the 
examination is not a lengthy one. Despite the need for a bridge between 
private capital and public priorities, despite the importance of 
accelerating market penetration for clean energy technologies, despite 
the clear emphasis that Congress has placed on loan guarantees, very 
little progress has been made since the Energy Policy Act was signed 
into law in almost four years ago. Not a penny of the more than $42 
billion in authority has been used. It is not my intent to name names, 
or to blame individuals. My former colleagues at DOE are dedicated 
public servants who have invested long hours and are sincerely 
committed to standing up this program. Rather, I believe that the 
painfully slow and unacceptable rate of progress on loan guarantees 
substantially reflects institutional barriers, organizational 
intransigence, and bureaucratic dysfunction. The present artificial and 
unfortunate barriers to successfully administering the program in a 
predictable, transparent, objective, and timely manner, as Congress and 
this Committee had originally intended when it authored Title XVII into 
law, are a direct result of these deficiencies, but they are 
correctable. Accordingly, even as a new and important Energy Title 
begins to take shape this year and looks to create a Clean Energy Bank 
reporting to the Energy Secretary to succeed and supplant the present 
program, I would strongly encourage Congress to do what is necessary 
immediately to jump start the existing program and give Secretary Chu 
necessary tools that strengthen his hand in reforming the rules of 
implementation.
    Such reform would immediately include eliminating the upfront fees 
and lifting the arbitrary deadlines of application submissions. A loan 
guarantee program that is conducted through random, discrete 
solicitations in no way correlates to the ongoing development of 
technology. Rather, the federal financing mechanisms for explicit 
policy purposes should be offered through an open window with rolling 
applications based upon available capacity to fund on a timely basis. 
The fees placed upon renewable energy projects are artificially high 
and unreasonable, and are unduly high hurdles that prevent the good 
projects from coming forward. The statute was elegantly written to 
allow either appropriations to cover credit subsidy costs or for 
applicants to self-pay the costs in relation to their project. 
Conventionally, were DOE operating in a user-friendly mode, seeking to 
encourage competition among a larger pool of applicants with greater 
interest in the energy industry, these fees would be collectible upon 
closing of the transactions and rolled into the project costs. The 
present method of asking applicants to pay exorbitant sums for the 
privilege of filing applications that empirically linger for years with 
no predictable pathway or timetable to closing is unacceptable at best 
and attracts the wrong applicants at worst.
    In order for clean energy projects to be funded, constructed and 
successfully brought online in a timeframe that supports the 
President's stated goals, DOE will need new policy and expanded 
statutory tools to expedite siting, permitting and grid integration 
that is deemed to be in the national interest. Even if we are able to 
disburse financing from federal loan guarantees on a timely basis, we 
will likely fall short of our national objectives if we fail to 
substantially reform federal eminent domain authority and establish 
environmental review waivers over transmission and clean energy 
generating facilities that enable reductions in greenhouse gas 
emissions under the terms of the statue.
    All of the efforts undertaken to accelerate the loan guarantee 
program may be rendered moot if we fail to comprehensive deal with the 
protracted and litigious sitting and permitting obstacle course that 
undermine American com in modernizing its national grid aspirations for 
a robust clean energy marketplace. The sighting and permitting process 
for new, greenfield projects of any kind in the United States, and 
particularly for large scale clean energy projects, presently and 
unattractively inhibits the development process beyond norms seen 
anywhere in the world. DOE must be empowered to rectify, on an 
emergency basis, the obvious deficiencies that are barriers to 
disbursement of funds and new construction even as institutional and 
organizational changes enable the establishment of a Clean Energy Bank 
in parallel.
    It is my view, having worked meticulously in support of every 
effort to successfully stand up and make effective the DOE Loan 
Guarantee Program, that this mission can only be solved by modernizing 
and reorienting the government's energy financing efforts to interact 
with private markets using successful quasi-governmental models already 
deployed by the federal government with great impact and positive 
effect. Tinkering around the edges and incremental reforms may only 
prolong the inevitable and ultimately risk politicizing the 
administration of such large volumes of capital, meant to be directed 
towards technology diffusion. I recognize that prioritizing the 
enablement of private sector investment is not necessarily the center 
of Congress' immediate focus, but as I have testified on many 
occasions, the fact remains that achieving transformational change in 
the way we solve our energy and environmental dilemmas will require the 
involvement of both the public and private sector, if we are going to 
attain our goals in the near-term.
    Although no single technology solution exists to address our 
nation's energy security and environmental responsibilities, all 
elements of the solution share a common basis: increased market 
penetration, diffusion of clean energy technology, and accelerated, 
continuous and consistent capital formation.
    While the private sector is the appropriate and most efficient 
means of delivering the solutions to the market at scale, only the 
government can play the indispensable role of availing the federal 
balance sheet and bridging market inefficiencies and imperfections. I 
believe that an independent, non-partisan, quasi-governmental entity, 
like a clean energy bank, should play an essential role of helping to 
achieve our national energy goals and fulfill the national security 
mission of DOE.
    Mr. Chairman, in the last Congress, you introduced legislation to 
address this issue, and I applaud your strong bipartisan leadership, 
along with that of Sen. Murkowski, in identifying the need for systemic 
change and making it a priority for this Committee and Congress. As you 
know, this is a matter the Department of Energy fully embraced and 
sought to push forward in the course of the last Administration, though 
unfortunately we were unable to convince others in the interagency 
process of its urgency. I am hopeful that legislation establishing a 
new, nimble Clean Energy Bank will be enacted this year, with a broad 
grant of authority that allows clean energy financing transactions to 
take place as a regularized and routine course of business. Ideally, 
this would be an entity that is net-positive to the Treasury, or at 
least be self-sustaining.
    In addition, I also want to thank of Senators Dorgan and Bennett, 
working to expand and enhance loan guarantees in the stimulus package. 
Despite the continued bureaucratic obstacles placed in front of the 
program, it undoubtedly remains one of the most cost-effective and 
immediate ways to stimulate domestic clean energy development. Their 
leadership on this matter, and many similar issues of paramount 
importance to our energy future, is deeply appreciated by the clean 
energy community and I look forward to continuing to support these 
efforts.
    In September, the Council on Competitiveness explicitly endorsed 
the creation of a Clean Energy Bank to provide debt financing and drive 
private investment in the development of sustainable energy solutions 
and supporting infrastructure. The Council recommended that it be 
modeled on the U.S. Export-Import Bank and Overseas Private Investment 
Corporation, to provide long-term financing--including loan guarantees, 
lines of credit, equity investments and insurance--for the market 
deployment of breakthrough energy efficiency and clean energy products, 
technologies, services and projects that reduce, avoid or sequester 
carbon. This recommendation was part of the Council's 100-Day Energy 
Action plan, which I strongly endorse and would ask for its inclusion 
in the record. I should also note that then-Council Member, Secretary 
Steven Chu, was instrumental participant and leader in guiding the 
Council's recommendations.
    Additionally, I have also been advising Securing America's Future 
Energy and its Energy Security Leadership Council--a distinguished 
group of business executives and national security leaders led by 
General P.X. Kelley (Ret.), 28th Commandant of the Marine Corps, and 
Frederick W. Smith, Chairman, President and CEO of FedEx Corporation--
as they advocate a comprehensive solution to our nation's energy 
security challenges.
    The Council's recommendations include a wide range of policies to 
fundamentally reform and expand both public and private research, 
development, and deployment. Included in those recommendations is the 
establishment of an Energy Technology Authority, or ETA, of the United 
States: a market-driven source of private financing and public-private 
partnering for the most promising energy technology innovations, 
similar to quasi-governmental investment organizations such as the 
Overseas Private Investment Corporation and U.S. Export-Import Bank. 
The ETA is fundamentally similar to the Clean Energy Investment Bank 
under discussion here today. It would possess the full backing of the 
United States government, but would be managed and organized like a 
private corporation. After an initial capitalization, the corporation 
would be self-sustaining, generating revenue through projects, 
interest, and fees, thereby minimizing future appropriations. The ETA's 
core mission would be to accelerate and scale capital formation for 
clean and renewable energy production and distribution.
    I should also note that, while serving as Assistant Secretary, I 
met with many groups who are pursuing institutional reform of DOE's 
capacities to accelerate and scale the diffusion and immersion of clean 
energy technology. Prominently among these are the Center for American 
Progress, led by John Deutsch; the MIT Energy Task Force, led by Dr. 
Ernie Moniz and Melanie Kenderdine. It is notable that all of these 
individuals have served in senior appointed positions directly 
impacting energy technology. Given that at all these credible voices 
are all saying that a different structure for clean energy diffusion at 
scale is necessary, the time for action is here.
    For the past 30 years, DOE has successfully decreased the price of 
clean energy through research and development, but these national 
energy goals inherently demand accelerated market penetration and 
significant capital formation and growth in a new and risky technology 
arena. Meeting these ambitious goals will require tremendous investment 
in emerging technologies. A Booz Allen Hamilton analysis concluded that 
approximately $1.4 trillion of capital investment is needed through 
2030 for clean energy to meet our goals. This is based on reaching pre-
stimulus government goals in the areas of electric generation, 
transmission, renewable fuels, and alternative fuel vehicles. The 
International Energy Agency estimates this number to be $1.5 trillion, 
McKinsey Global Institute is $1.1 billion, net of savings from 
efficiency, and American Society of Civil Engineers estimate is $1.6 
trillion. Some estimates indicate that achieving the President's stated 
objectives of doubling renewable energy in the next 36 months, $134 
billion of new capital investment will be required by 2011, and $217 
billion by 2012. No matter which estimate one uses, there's little 
argument that it will take an unprecedented amount of capital to 
address our national energy goals.
    Additionally, while the need for clean energy investment is on the 
order of $80 billion per year between now and 2030, 2007 the U.S. only 
saw $15 billion in clean energy asset investment according to New 
Energy Finance. Clearly, a significant gap exists. These numbers 
underscore the need for every public dollar appropriated to have a 
multiplier of private investment.
    Congress has sought to incentivize deployment of clean energy 
technologies through tax incentives, which is an important, but 
limited, lever to influence financial decisions. Tax incentives can 
only be used by entities with regular tax liability, reducing the 
number of players who can participate. Many financial institutions and 
utilities have limited capacity to use tax incentives. While tax policy 
continues to play an essential, if outsized, role in encouraging 
domestic clean energy development, a wholly different approach is be 
needed to ensure that vital investments are made now, and in the coming 
months, to significantly accelerate the rate and scale of clean energy 
project development, enabling critical policy goals and the President's 
stated objectives to be met.
    Of course, clean energy development may persist at the present 
growth rates in the United States in a business as usual scenario. The 
key issue for this Committee, and the Congress, is realizing the 
benefits of timeframe. How quickly does the United States want to build 
up and solidify clean energy development? How soon do we want those 
jobs and that manufacturing here, in America? How quickly do we want to 
start avoiding greenhouse gas emissions and changing the profile of 
energy generation in the U.S.? I believe the answer to those questions 
is: Now. We can not wait any longer, and we should avoid a paradigm in 
which investment happens only because the cost of energy is so 
exorbitantly high. We know that we, as a nation, want cleaner energy 
and the economic growth that comes with those new industries. The 
private sector is ready to invest, if those investments can be 
rationalized, replicated, and scaled. The Federal government can 
provide the vital bridge between public policy and private capital, if 
it is properly organized and empowered to conduct business in a 
substantially different way.
    Real change only comes with systemic change. Our institutions, and 
DOE in particular, have a mid-20th Century Cold War posture--all of its 
systems are focused on fighting the last war, overcoming the last 
energy crisis, and short-term firefighting, rather than a managed 
transition that develops domestic energy in a sustainable manner, while 
ensuring our national security. Our current energy institutions are not 
sufficiently agile or equipped with the capability to promulgate and 
deploy solutions at a pace or scale commensurate with magnitude of the 
challenges we face. This is true of energy security and it certainly 
true of economic development and environmental mitigation. Let me 
underscore the point. The Department of Energy is inadequate in its 
present form to satisfy the mission of energy security for which we 
aspire for it to perform.
    The proposal of a quasi-government agency focused on clean energy 
financing, rather than energy research and development, would be a 
transformational change--but not a novel one. Indeed, our government is 
already doing this. Before entering government service, as many of you 
know, I was an energy infrastructure developer in the private sector, 
specializing in emerging markets project finance. I can tell you, from 
personal experience, that if I wanted to build a renewable energy 
project using any of the technologies that emerged from my portfolio at 
DOE, the United States Government already has a basket of tools to 
assist me, and the taxpayer is already on the hook to extend the full 
faith and credit of the Treasury in support of my project. For example, 
it has been my experience that if I want government-backed loan 
guarantees, insurance, or even funding for feasibility and siting 
studies necessary to build a commercial scale clean energy project, I 
could do so through multiple institutions with a constantly open door 
across Washington--with one condition. I must build that project 
outside the borders of our country. Right now, the Federal balance 
sheet is available to support project development all over the world, 
but not within our own borders. I say that not to criticize the Export-
Import Bank or the Overseas Private Development Corporation. Rather, 
those entities are models that demonstrate the opportunity to 
significantly alter the government's ability to accelerate the rate and 
scale of clean energy investment in the U.S., bringing those jobs and 
those benefits to our citizenry.
    Traditional federal agencies, however, are not designed to 
effectively manage complex financial transactions involving such large 
sums of money, particularly on a fixed timetable. However, by reducing 
investment risk and lowering the cost of capital, the Federal 
Government can leverage private capital to multiply its impact and 
achieve our national goals. A clean energy quasi-governmental entity 
fills these gaps by offering professional risk management of debt and 
securitization products, and potentially a full suite of financial 
services, in support of a robust national energy policy based upon 
national security, environmental stewardship, and global economic 
competitiveness.
    Our problems are not merely qualitative, they are quantitative, and 
we must establish credible metrics and milestones to heighten the 
probability of achieving our goals. The Administration's plans to 
double renewable energy, for example, are ambitious, but they are 
achievable, if we move with urgency in orienting the government's nexus 
with the private sector in a manner that can catalyze unprecedented, 
continuous, consistent capital formation. In order to understand the 
need for such a quasi-governmental entity focused on clean energy 
development, I'd like to discuss the unique obstacles that clean energy 
technologies face in securing private financing, as well as the 
particular role that a Clean Energy Bank could fulfill.
                   clean energy investment challenges
    Before achieving any impact on our national energy goals, an 
advanced energy technology must evolve from a laboratory experiment, to 
a technology venture, to an infrastructure development project. The 
transitions between these stages present unique challenges that the 
private sector often struggles to overcome. Incremental research and 
development funding improves the quantity and quality of technologies 
coming off the lab bench, but does not address the economic, political 
and technological risks between a technology venture and a large-scale 
infrastructure project.
    On the positive side, however, free access to abundant sun, wind, 
hydro, biomass, and geothermal heat has a fundamental economic 
advantage over traditional energy sources. While clean energy assets 
currently cost more per unit of production capacity, the larger future 
profits realized by lower operating and production costs and zero 
exposure to fuel price volatility economically justify the investment 
if appropriate financing is readily available. On the security front, 
clean energy--with the exception of biofuels imports--is generated from 
domestic resources which reduces geopolitical leverage surrounding 
strategic energy commodities and shields the U.S. economy from the 
detrimental impact of global commodity price volatility and 
accumulating trade deficits.
    Large-scale development of energy infrastructure of any type is a 
capital intensive business to begin with, requiring debt and stable or 
predictable cash flows. As indicated earlier, clean energy solutions 
bear significant risks unique to the infancy of the industry. 
Overcoming these risks is critical to access to the finance markets. 
Financial mechanisms are in place to accelerate research and 
development and project implementation for established technologies, 
but financing for commercialization of new technologies often falls 
short based upon risk perception. Many of these risks may be resolved 
by time, but the urgency of our energy challenges does not grant us the 
luxury to wait and see.
        why a clean energy quasi-governmental entity makes sense
    Familiarity with the magnitude and complexity of the challenges 
associated with emerging energy technologies is needed to devise an 
appropriate investment strategy. While investment in clean energy 
technologies is wholly consistent with DOE's mission, the strictures of 
federal agencies inhibit the flexibility and acquisition of skills 
necessary to effectively manage the complex financial transactions 
involved in accelerating capital formation at such a large scale and in 
a consequential timeframe. An independent, quasi-governmental agency 
would be able to more effectively administer financial services, and 
would avoid the improbable task of reforming an existing Federal 
entity.
    Existing quasi-governmental agencies possess sophisticated capital 
risk management expertise, and have established a strong track record 
for an entity of this type furthering national goals. However, existing 
administrative entities would need substantial changes to their 
charters to accommodate the task of domestic energy investment and lack 
the deep domain expertise for managing energy security. A new quasi-
governmental agency modeled after successful examples could combine a 
domestic energy focus with capital formation skills and investment 
flexibility allowing the Federal Government to work effectively with 
the financial community to develop profitable investment-grade projects 
that further U.S. energy goals.
  potential roles and activities of a clean energy quasi-governmental 
                                 entity
    The venture capital community invests relatively small amounts of 
money (almost exclusively specialized in early stage equity) into 
companies in anticipation of where the market is headed. Private equity 
and capital markets (both equity and debt) investors fund much larger 
projects where the market is presently active. Through a Clean Energy 
Bank, the Federal Government would be able to accelerate the transition 
from venture capital funding to large-scale private and public equity 
by managing the early-stage and scale-up risks on a macro basis, and 
thus lowering the cost of capital. By seeking to catalyze investment 
rather than maximize profit on a micro basis, the entity could 
dramatically accelerate the market penetration of clean energy 
technologies.
    A clean energy quasi-governmental entity could accomplish three 
main policy goals: 1) consistently, continuously and transparently 
accelerate and scale capital formation for clean, domestic energy 
projects; 2) provide management stability, flexibility, agility, 
expertise, and experience to ensure maximum efficiency and leveraging 
of taxpayer investments; and 3) rationalize the Federal portfolio by 
availing time tested tools to today's critical national need for clean 
energy.
    To fulfill its capital formation role, such an entity would 
mitigate risks facing investors in the production and distribution of 
clean energy, and increase the amount and rate of private capital 
deployed in a time frame that is consequential to addressing climate 
change and our overdependence on foreign oil.
    In the area of management agility and experience, the entity could 
provide the effective capital risk management--largely unavailable in 
Federal Agencies--necessary for rapid commercialization of clean energy 
technologies.
    Finally, the entity's activities would rationalize the Federal 
portfolio by applying to clean energy development the policy priorities 
and tools presently used to support robust US exports, third world 
development goals and student loans.
    A quasi-governmental entity could invest in the full breadth of 
clean energy technologies, including both renewable generation and 
energy efficient technologies. These include but are not limited to 
biofuels, solar (photovoltaic and concentrating solar power), wind, 
geothermal, nuclear, clean coal, hydrogen, and energy efficient 
technologies for vehicles, industry, and buildings. Different from 
DOE's historical focus on lowering the cost of energy technology, the 
entity could focus on increased market penetration and driving 
economies of scale in the private sector. To this end, the entity could 
offer a variety of debt and risk management products, potentially 
including direct loans, loan guarantees, working capital loans, lines 
of credit, delayed payment project financing, insurance, 
securitization, and innovative financial products designed to 
accurately capture life-cycle costs. The portfolio of financial 
services could extend across a number of market segments, to meet the 
specific needs of power generation, alternative fuels, distributed 
generation, transmission, and manufacturing, among others.
    The market has begun to respond to the need for clean energy 
capital investment, with worldwide investment more than doubling in 
recent years, but the baseline is small and unprecedented growth is 
required. A clean energy quasi-governmental entity could offer 
mechanisms aimed at catalyzing the private markets and thus accelerate 
the maturity of the clean energy industry to achieve these goals. The 
impact of the earlier investment would be similar to the growth effect 
of compound interest with far greater paybacks for the nation. 
Considering that all of this can be achieved in a manner that is 
consistently net positive revenue to Treasury, rather than an 
annualized cost sink, it is important to commence the effort to 
organize, even a preliminary pilot running in parallel to DOE's Loan 
Guarantee Program Office to hedge our efforts to efficiently stimulate 
the economy.
                               conclusion
    National security, environmental stewardship, and economic growth 
goals form the basis of robust U.S. energy policy. National security is 
enhanced through diversifying our energy mix and reducing dependence on 
petroleum. Environmental stewardship is maintained through the 
mitigation of greenhouse gas emissions and other negative environmental 
impacts. Achieving global economic competitiveness entails creating a 
more flexible, more reliable, and higher capacity national energy 
infrastructure, as well as improving the energy productivity of the 
U.S. economy and industry.
    Independent, quasi-governmental agencies have furthered national 
priorities in the past and successfully carried out important roles 
that traditional Federal Agencies are not designed to fulfill. The 
urgency and scale of energy security and greenhouse gas reduction 
requires full access to the federal policy portfolio to accelerate the 
immense clean energy investment necessary to meet our nation's goals. A 
clean energy quasi-governmental entity combines a domestic energy 
mission with capital formation skills to bring emerging clean energy 
technologies to market much faster than would occur under traditional 
market conditions and put us on track to achieve these objectives.
    I look forward to supporting the bipartisan and seasoned leadership 
of this Committee in organizing and modernizing our governmental 
approaches to our energy challenges in such a way as to reverse decades 
of failed expectations and realistically maximize the probability that 
America's succeeds in realizing our national aspirations.

    The Chairman. Thank you very much for that excellent 
testimony.
    Mr. Book, go right ahead.

STATEMENT OF KEVIN BOOK, SENIOR VICE PRESIDENT, ENERGY POLICY, 
OIL & ALTERNATIVE ENERGY, FRIEDMAN, BILLINGS, RAMSEY & COMPANY, 
                              INC.

    Mr. Book. Thank you, Chairman Bingaman, Ranking Member 
Murkowski and distinguished members of this committee for the 
privilege of contributing to the discussion today. The views I 
present are my own. Do not necessarily represent those of my 
employer.
    I'd actually like to start with sort of a bold statement. I 
think that this being number 17 in a list of things in the 
Energy Policy Act of 2005 either suggests that there were 16 
really, really visionary ideas or maybe there's something lucky 
about the number 17. Because I think this is the most visionary 
energy policy proposal I've seen in a long time and I look at 
them professionally.
    What I think is most important about this is actually 
written in two very elegant lines of the statute which I'd like 
to read. You're offering incentives to:
    One, avoid reduced or sequester air pollutants or at the 
anthropogenic emissions of greenhouse gases.
    Two, employ new or significantly improved technologies as 
compared to the commercial technologies in service in the 
United States at the time the guarantee is issued.
    This perfectly summarizes thousands of pages of research I 
forced my clients to read over the years. This is the energy 
and environmental challenge the United States faces. I'd like 
to suggest that considering a diversity of fuels as this 
committee has done in providing a list of ten clean fuels in 
title 17 is also very sensible, very visionary solution. 
Because it looks not just at what's not just in existence 
anywhere today, but what's not commercially in existence here.
    Finally, there is actually something going on here that 
sounds an awful lot like economic stimulus. You think about it 
for what it is. Because effectively if what you're doing is 
innovating to make better use of our natural resources 
including process efficiency and end user behavior efficiency 
gains than you're making much better use of essentially every 
input. You're delivering more output at each input unit. The 
more efficiently and expanding the economy can fuel its 
vehicles, power its factories and heat and cool its buildings, 
the more competitive that economy will be in a global market.
    Now what's interesting is why this is such an important 
policy tool. A lot of the time I think the Federal Government 
gets accused of being in a position of picking winners. This is 
much more about making winning picks and giving the people who 
implement technologies the opportunity to make a winning pick 
and in fact, to make that pick, win.
    I'll explain that in a little bit of detail in as simple 
terms as I can. Going off my script in avoiding the economist 
talk seems to be a very useful tool. So I'm going to do that.
    If you give a rebate or a subsidy you're generally 
affecting something in sort of the numerator. You're talking 
about how much something costs. You're making it cheaper.
    If you change the interest rate that you charge for a big 
investment and these are enormous investments in many cases, 
what you're doing is you're changing the pro rata per unit 
cost, the fixed cost of that investment over its equipment 
life. This is actually very, very important when it comes right 
down to what energy is. Let's go back to the script so I don't 
make a mistake.
    This has a lot to do with the fact that energy is a 
commodity. No matter what technology one employs to convert raw 
materials into electrons or finished fuels, the prices buyers 
pay for the resulting products are almost always the same or 
very close to competitive prices. Prices are typically set by 
broader markets rather than any individual project sponsor.
    My clients, the financial sponsors who buy equity and debt 
in these projects, they don't tend to reward people who come up 
with very expensive ways to sell commodities. So what can you 
do? Well if you make the interest rate lower, you make the 
fixed cost of generation cheaper. You've just given a project a 
chance to succeed.
    You haven't yet picked a winner because you've got a 
diversity of different options. You've set yourself in the 
place where you actually can go through a variety of other 
incentives. On top of this, as needed, to accelerate or 
decelerate as some countries have seen, the pace of adoption.
    Why debt? Why interest rate? I think there's a couple 
things that are probably worth noting here too.
    These are enormously expensive projects. At sort of the 
high end of the range, we're talking about nuclear and clean 
coal technology projects that there's only a couple of 
companies in the world right now who are in a position to fund 
this out of their cash. Very few who can do it on the equity on 
their balance sheet.
    So you have to go to the debt market. Therefore this 
interest rate self fulfilling prophesy operates. Actually 
perhaps the most important thing that I can offer today is that 
this is a low cost mechanism for the government provided that 
there is, of course, good through diligence done. But maybe not 
overly exhaustive diligence because the first word, I believe, 
in the description of these technologies is innovative.
    Innovation requires an appetite for risk which accepts 
failure. It accepts that if you swing for the fences every time 
and you get one home run, you have a home run on the board. But 
if you strike out looking each time, well, you probably don't 
have anything to show for it.
    This innovation, this incentive is the very essence of how 
we've run our energy industry essentially since it began. I 
mean, the oil industry is 150 years old today. We still don't 
have a national oil company.
    We give private companies incentives to do correct economic 
choices, to make rational economic choices. So at the end of 
the day, delays are a hindrance. Time is money, after all.
    I think it's probably fair. Senator Murkowski, you 
mentioned that there have been some strong opinions given about 
this program since its inception. I've certainly heard them 
from my clients.
    I think it's fair to say that this is a very challenging 
task. I'll go back on the script again to make sure that I'm 
appropriately delicate here. But a Department of Energy that is 
a preeminent source of research science has a $24 billion 
annual budget for everything including the world's best 
national laboratories.
    Is expected to give out between now and September 30, $38.5 
billion of appropriated funds which add up to about $48 billion 
in net project value. That's a very, very, difficult 
responsibility. They have shown at a disposition to weight risk 
and credit worthiness differently in their different 
solicitations.
    I think it's very important to see that if you're a more 
mature technology, credit worthiness is 50 percent of the 
solicitation's initial assessment goals. Then if you're a newer 
technology or a riskier technology, perhaps you're not as 
mature a company. Therefore a 30 percent weight makes a great 
deal of sense.
    But I think the question we should probably ask is really 
whether or not the world's preeminent research science agency 
is the best position to become the world's preeminent loan 
administration and credit assurance agency. At the end of the 
day it may be prudent to allocate the responsibilities for 
execution and portfolio strategy to a new agency or differently 
structured entity where lending and risk assessment are already 
core competencies. Since I'm an analyst and since analyzing is 
sort of what I do, I want just offer a moment of analysis.
    I just listened to these two gentlemen. Both of whom I 
respect very highly, very gifted public servants who just said 
two very different things about the exact same program that 
everyone here believes is very important. I apparently believe 
is mostimportant.
    One of them said, and forgive me for paraphrasing, we are 
going to be diligent. We're going to use a rigorous 
methodology. We're going to remember what happened in the 
1970s.
    The other one said, I can walk into the export bank on any 
day of the week. So there's solicitation dates and any day of 
the week. There's prudence and caution. There's the necessary 
disposition for risk and innovation.
    Balance here is obviously very important. I don't think you 
want government dollars going all the way one way at a time 
when energy is such an important national issue. You probably 
don't want them going all the way the other way.
    So having gone totally off script, probably to the 
detriment of my career to the improvement of this audience's 
attention span, I will now look forward to any further 
questions. Thank you.
    [The prepared statement of Mr. Book follows:]
Prepared Statement of Kevin Book, Senior Vice President, Energy Policy, 
  Oil & Alternative Energy, Friedman, Billings, Ramsey & Company, Inc.
    Thank you, Chairman Bingaman, Ranking Member Murkowski, and 
distinguished members of this Committee for the privilege of 
contributing to your discussion concerning loan guarantees for 
innovative energy technologies.
    As a macro-level energy analyst for an investment bank, I interpret 
domestic and global economic and policy trends for institutional 
investors, including crude oil prices, alternative energy economics, 
climate mitigation costs, and the energy policy decisions taken by 
governments. My testimony today reflects lessons learned in this 
capacity, as well as observations drawn from ongoing discussions with 
industry contacts and financial investors. The views I will present 
today, however, are my own and do not necessarily represent those of my 
employer.
                              a big vision
    Let me begin, if I might, with a bold statement. I would suggest 
that the innovative energy technology loan incentive program created by 
Title XVII of the Energy Policy Act of 2005 (EPAct05) could be the 
greatest energy policy achievement in modern American history since the 
creation of the Strategic Petroleum Reserve within the Energy Policy 
and Conservation Act of 1975 (EPCA).
    As this Committee is well aware, Title XVII charges the U.S. 
Department of Energy with administration of an incentives program for 
10 classes of what are commonly referred to as ``clean'' energy 
projects, defined in section 1703 of EPAct05 as projects that:

          (1) avoid, reduce, or sequester air pollutants or 
        anthropogenic emissions of greenhouse gases; and
          (2) employ new or significantly improved technologies as 
        compared to commercial technologies in service in the United 
        States at the time the guarantee is issued.
                                   Source: U.S. Library of Congress

    These two introductory lines of the statute perfectly summarize, in 
my view, the long-run strategic challenge that confronts the United 
States and all industrial (and industrializing) economies: the 
imperative to develop secure, affordable sources of environmentally 
friendly power and transportation fuels.
    Moreover, I would suggest that this Committee has shown great 
vision in outlining a diversity of potential technology solutions and 
fuel sources--inclusive of those already in existence, but not yet 
commercially viable within the U.S.--as this reflects the ways in which 
global trade flows and overseas innovation clusters can enable new 
investment opportunities that benefit energy use and resource 
management goals here at home.
    Last, I would suggest that the chartered goals of Title XVII 
reflect not just an energy or environmental policy so much as a 
strategy for sustainable, long-term economic growth. Innovations that 
enable us to make better use of available natural resources, including 
those that improve our process efficiency and facilitate end-user 
efficiency behaviors, are the very definition of economic stimulus, 
because they will increase economic output per unit of input. The more 
efficiently an expanding economy can fuel its vehicles, power its 
factories, and heat and cool its buildings, the more competitive that 
economy will be in a global market.
                              big numbers
    This government prosecutes its energy policy largely through market 
mechanisms that encourage private investment, including direct 
subsidies, tax credits, cost-sharing, and rebates. All of these can be 
successful in encouraging adoption and commercialization of clean 
energy technologies, but the daunting scale of energy investments 
requires most project sponsors to raise money to expand their 
operations. New projects require funding for infrastructure, legal and 
permitting costs and, in some cases, advance purchases of fuel. Even 
when credit markets are functioning properly, this may not be as easy 
as it sounds.
    This has a lot to do with the fact that energy is a commodity. No 
matter what technology one employs to convert raw materials into 
electrons or finished fuels, the prices buyers pay for the resulting 
products are almost always the same, or very close to competitive 
prices. These prices are typically set by broader markets, rather than 
any individual project sponsor. As a result, the financial investors 
who purchase debt and equity in energy projects are not typically eager 
to provide financing to entrepreneurs who propose expensive ways to 
manufacture commodities. It can be especially difficult for project 
sponsors to convince the men and women who manage other people's money 
to invest in risky, expensive ways to manufacture commodities.
    The energy industry is a world of big numbers where a single unit 
of infrastructure can carry an eye-popping price tag. Consider nuclear 
power. We will not have hard data until a new nuclear power plant is 
actually built in this country, but recent applications to local 
regulators for new reactors have presented project cost estimates that 
range between $7,000 and $10,000 per kilowatt of capacity. For a 1,000 
megawatt plant, that comes to between $7 and $10 billion. There aren't 
very many companies in the world that have enough cash on their balance 
sheets to sponsor multi-billion-dollar projects. Quite frankly, there 
aren't that many companies in the world with public equity valuations 
sufficient to finance projects at this scale by issuing new or 
repurchased shares of stock. Moreover, even when equity valuations 
might be sufficient to cover project costs, it is not always 
financially efficient for mature or diversified businesses to cede 
disproportionate shares of equity ownership or to fund operations 
without the tax shield conferred by debt. Project sponsors tend, as a 
result, to rely on debt financing for energy infrastructure.
    Reliance on debt financing creates an unfortunate irony: interest 
rates can be self-fulfilling prophesies. Commercial lenders typically 
demand higher rates of return for projects that are less creditworthy 
or characterized by higher-than-average technology and execution risks. 
But high interest rates increase an innovative project's fixed cost 
burden, diminishing its competitiveness relative to incumbent 
technologies on a per-unit basis.
    Figure 1, below, offers a simple representation of the difference 
in the fixed cost component of clean energy production that results for 
interest rate differentials. (In the interest of simplicity, Figure 1 
does not take into account debt tax shields, depreciation, 
amortization, and consolidated enterprise impacts.) 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Although a real-world generation cost model would also consider 
variable costs like rent, operations, maintenance, fuel, and insurance, 
the foregoing example should be adequate to illustrate how a 5% 
interest rate differential can mushroom into a 23% competitive 
disadvantage over a 25-year operating life, even when variable costs 
are exactly the same. High debt costs may prove particularly burdensome 
to the competitive viability of clean energy technologies that do not 
require significant variable cost inputs, either because they rely on 
renewable sources (like wind and sun) or employ high-efficiency 
technologies that minimize the proportional impact of fuel and 
environmental compliance costs.
               time is money, but this is a lot of money
    Loan guarantees offer the federal government a low-cost mechanism 
for giving incentives to clean energy technology projects at the same 
time that the government improves those projects' chances of successful 
competition with incumbent infrastructure and processes, but this 
theoretically low execution cost profile carries with it a daunting 
obligation: adequate due diligence to minimize the risk that a project 
fails and the debt burden falls on the U.S. taxpayer.
    Time, as the saying goes, is money for project developers who have 
already undertaken debt obligations but require further financing to 
reach the point of commercial execution. Injecting a three-year delay 
into the simple example above increases the fixed cost of generation by 
between 3% and 6%. Unsurprisingly, some would-be project sponsors have 
expressed their frustration with the latency associated with a process 
that began with the August 2005 passage of EPAct05, continued with an 
initial solicitation in August 2006, followed by invitations in October 
2007 and further solicitations in June, September, and October of 2008, 
but has yet to provide assurance for a single commercial loan to a 
clean energy project sponsor.
    On the other hand, it seems reasonable that an agency like the 
Department of Energy, which operates on a $24 billion annual budget, 
might be cautious about awarding $38.5 billion in taxpayer-backed debt 
obligations for projects that theoretically cost an aggregated $48.2 
billion (assuming 80% debt financing), particularly when annual funding 
for the entire USDA Business & Industry Guaranteed Loan Program, the 
largest comparable program operated within a nonfinancial government 
agency, totals $1 billion per year. It may not actually be feasible to 
expect the Department of Energy, the world's preeminent source for 
precompetitive research science, to deliver comparable excellence in 
administering loans and credit assurance at the scale required by clean 
energy projects.
    More importantly, despite a clear recognition by the Department 
that some innovations require risk (as evidenced by solicitations that 
assign greater weighting to project sponsors' creditworthiness for 
technologies that are more mature), it may be difficult for any 
responsible steward of appropriations-based spending to properly 
structure a portfolio of investments that balances execution risk with 
innovation rewards by accepting a minimum failure rate. This suggests 
that it may be prudent to allocate the responsibility for execution and 
portfolio strategy to an agency or a new entity where lending and risk 
assessment are already a core competency.
    Mr. Chairman, this concludes my prepared testimony. I will look 
forward to any questions at the appropriate time.

    The Chairman. Thank you very much.
    Mr. Asselstine, please go right ahead.

 STATEMENT OF JAMES K. ASSELSTINE, MANAGING DIRECTOR, BARCLAYS 
                            CAPITAL

    Mr. Asselstine. Chairman Bingaman, Ranking Member 
Murkowski, members of the committee, thank you for the 
opportunity to appear before you today.
    Mr. Chairman, in my view the U.S. electric power sector 
faces three major imperatives.
    First, it must reduce the growth in electricity demand by 
improving efficiency and by promoting conservation and demand 
side management.
    Second, it must reduce its carbon footprint by developing 
and deploying low carbon and zero carbon technologies.
    Third, it must build significant amounts of new generating 
capacity to meet the growth in electricity demand and to 
replace older, less efficient generating capacity as well as 
new transmission to bring that electricity particularly from 
intermittent renewable resources to market.
    Meeting these three imperatives will likely require a broad 
based portfolio of technologies. The portfolio should include, 
in my view, aggressive energy efficiency programs, major 
expansion of zero carbon renewable and nuclear generating 
capacity, widespread deployment of carbon capture and storage 
technologies when they are available, improvements in the 
efficiency of existing coal fired power plants, large scale use 
of plug in hybrid electric vehicles, development and use of 
SMART transmission and distribution technologies and expanded 
use of smaller scale distributed power generation. In my view 
no single technology provides a complete solution to the 
challenges that we face, rather all the elements in the 
portfolio are needed given the inherent risks, challenges and 
uncertainties with the individual technologies.
    Developing and deploying this portfolio of technologies 
will require a sustained capital investment over at least the 
next 20 years on a level that is unprecedented for the electric 
power industry. One study estimates that approximately $1.5 to 
$2 trillion in new investment will be required by 2030 for new 
generating capacity, new transmission and distribution, 
efficiency programs and environmental controls on operating 
plants. To place this estimate in perspective, the current book 
value of the entire U.S. electric supply system built up over 
approximately the last 60 years is only $750 billion.
    The electric power industry will be challenged to manage 
investment on this scale, particularly in today's more 
constrained and difficult credit markets. The electric sector 
is already showing some signs of stress. The investor owned 
utilities have already reduced capital spending for 2009 by 
about 10 percent on average.
    There is also downward pressure on equity returns, largely 
because rate increases have not kept pace with rising costs. 
Bond spreads are also wider, in some cases significantly wider. 
Although all in debt costs are not dramatically higher today 
because yields on treasury securities are so low, the cost of 
debt will likely be significantly higher tha historical norms 
when treasury yields recover if bond spreads remain at their 
current levels.
    Industry leverage is also beginning to rise. Not to the 
level seen in 2003 when debt represented about 61 percent of 
the investor owned utilities capital structure. But it has 
increased somewhat over the last 3 years. Debt now represents 
about 56 percent of the industry's capital structure.
    This of course exerts downward pressure on credit ratings. 
Only about 40 percent of credit rating actions last year by the 
three major agencies were upgrades. The first year since 2004 
that credit rating downgrades exceeded or outpaced the rate of 
upgrades.
    In summary the electric power sector is in the early stages 
of a major 20 year capital investment program. Is not as well 
positioned for these capital expenditures as it was in the 
1970s and 1980s when it last undertook a major capital 
expansion. At that time the average electric utility had a 
solid single A credit rating. Today the average electric 
utility credit rating is in the triple B range.
    It seems clear therefore that there is a critical need for 
an effective, long term financing platform to ensure deployment 
of clean energy technologies and the numbers required and to 
accelerate the flow of private capital to achieve a sound 
energy and environmental policy. It also seems clear that this 
financing authority whether it resides within the Department of 
Energy or is constituted as a separate entity must have an 
array of tools at its disposal given that the different 
technologies present very different financing challenges and 
have very different needs.
    The Loan Guarantee Program authorized by the 2005 Energy 
Policy Act was an important step in the right direction. Loan 
Guarantees are a powerful tool and a highly efficient way to 
expand the availability of private capital. I believe that an 
efficient, timely, workable and appropriately funded Loan 
Guarantee Program is essential.
    In that regard, Mr. Chairman, my written testimony includes 
some suggestions to help improve the effectiveness of the 
existing Loan Guarantee Program. In addition, I support the 
efforts in the Stimulus Bill to increase funding for the Loan 
Guarantee Program to better match the available resources to 
the financing demand. But an effective financing platform may 
also need the authority to make direct loans, to take an equity 
position, to provide insurance against certain project or 
technology risks and to provide financing to bridge the gap 
between small scale technology demonstration and large scale 
technology deployment.
    Members of this committee deserve great credit for having 
already recognized this need for a broader financing platform. 
In 2008, Mr. Chairman, you introduced legislation to create a 
21st century energy deployment corporation. Senator Domenici, 
formerly the ranking minority member of this committee, 
introduced legislation to create a clean energy bank.
    Both proposals, in my view, have considerable merit and 
address various aspects of the financing challenges facing the 
United States and its electric power industry. The two 
proposals certainly serve as a good starting point to create 
the institutional capability needed to facilitate the financing 
of our new electricity infrastructure. Thank you, Mr. Chairman, 
that completes my testimony.
    [The prepared statement of Mr. Asselstine follows:]
     Prepared Statement of James K. Asselstine, Managing Director, 
                            Barclays Capital
    Chairman Bingaman, Ranking Member Murkowski, and members of the 
committee, thank you for the opportunity to appear before you today.
    My name is Jim Asselstine. I am a Managing Director at Barclays 
Capital, where I serve as the senior fixed income research analyst 
responsible for covering the U.S. electric utility and independent 
power sector. In that capacity, I provide fixed income research 
coverage for more than 100 U.S. electric utility companies, independent 
power producers, and power projects. I also work closely with the large 
institutional investors who have traditionally been a principal source 
of debt financing for the power industry.
    Mr. Chairman, I appreciate your invitation to testify at today's 
hearing to discuss the current state of the Department of Energy loan 
guarantee program, authorized under Title XVII of the Energy Policy Act 
of 2005, and how the delivery of services to support the deployment of 
clean energy technologies might be improved.
    My testimony will provide a financial community perspective on 
three topics:

          1. the scope of the challenge facing the United States in 
        building and modernizing its electricity supply and delivery 
        infrastructure to meet future electricity needs, sustain 
        economic growth, and reduce the environmental impact--
        particularly the carbon footprint--of electric power 
        production;
          2. the scale of the investment required to rebuild and 
        modernize America's electric power infrastructure, and the 
        associated financing challenges this investment poses for the 
        industry; and
          3. how the DOE loan guarantee program might be enhanced to 
        help the industry meet these financing challenges.

    Mr. Chairman, in my view, the U.S. electric power sector faces 
three major imperatives. It must reduce the growth in electricity 
demand by improving efficiency and by promoting conservation and demand 
side management. It must reduce its carbon footprint by developing and 
deploying low-carbon and zero-carbon technologies. And, it must build 
significant amounts of new generating capacity--to meet growth in 
electricity demand and to replace older, less efficient generating 
capacity--as well as new transmission to bring that electricity, 
particularly from intermittent renewable sources, to market.
    Meeting these three imperatives will likely require a broad-based 
portfolio of technologies. The portfolio should include: aggressive 
energy efficiency programs; major expansion of zero-carbon renewable 
and nuclear generating capacity; widespread deployment of carbon 
capture and storage technologies, when they are available; improvements 
in the efficiency of existing coal-fired power plants; large-scale use 
of plug-in hybrid electric vehicles; development and use of ``smart'' 
transmission and distribution technologies, and expanded use of smaller 
scale, distributed power generation. In my view, no single technology 
provides a complete solution to the challenges that we face. Rather, 
all the elements in the portfolio are needed given the inherent risks, 
challenges and uncertainties with the individual technologies.
    Developing and deploying this portfolio of technologies will 
require a sustained capital investment over at least the next 20 years 
on a level that is unprecedented for the electric power industry. 
Complying with state or federal requirements to reduce carbon emissions 
and mandate renewable portfolio standards will require that we address 
the major investment challenge facing the electric power sector. An 
enhanced and stable financing framework is essential both to conduct 
research, development and demonstration of the technologies in the 
portfolio, and to enable large-scale deployment of the new technologies 
when they have been developed and demonstrated.
    Mr. Chairman, as I discuss more fully below, I do not believe that 
our traditional financing tools, techniques, and resources will be 
sufficient in themselves to expand reliance on renewables and zero-
carbon technologies and to achieve the necessary reductions in carbon 
emissions. The scale of the needed capital investment will require a 
joint and coordinated effort by industry, the federal government and 
state governments to enhance and expand our existing sources of 
financing, including an efficient, timely, workable, and appropriately 
funded loan guarantee program.
          the challenge facing the u.s. electric power sector
    Current Situation.--The U.S. electric grid consists of 
approximately one million megawatts of electric generating capacity. 
Approximately 45 percent of that capacity is more than 30 years old, 
and 20 percent is more than 40 years old.
    Of the current one million megawatts (MW) of generation, about 
315,000 MW is coal-fired capacity. Two-thirds of that coal-fired 
capacity is 30 years old or older; one-third is 40 years old or older. 
Approximately 125,000 MW of U.S. generating capacity consists of oil-
and gas-fired power plants, many of which were built in the 1960s and 
1970s, and that are inefficient by today's standards.\1\ Much of this 
older fossil-fueled generating capacity is not equipped with modern 
environmental control technology. Continuing to rely on older, less 
efficient generation, which represents one-quarter to one-third of U.S. 
generating capacity, frustrates our ability to achieve cleaner air and 
reduce carbon emissions.
---------------------------------------------------------------------------
    \1\ Power plant efficiency is measured by heat rate--the amount of 
heat input required to produce a kilowatt-hour (kWh) of electricity. 
Older oil-and gas-fired plants typically have heat rates as high as 
11,000-12,000 Btu/kWh. New gas-fired combined cycle plants have heat 
rates in the range of 7,000 Btu/kWh. In other words, the older plants 
burn almost twice as much fuel (and produce almost twice the emissions) 
as the newer, high-efficiency plants.
---------------------------------------------------------------------------
    This dependence on older, less efficient generating capacity 
reflects the fact that the United States has deferred investment in 
new, more efficient, cleaner high-capital-cost renewable, nuclear, and 
coal-fired baseload power plants. The core problem--inadequate 
investment--extends beyond generating capacity. Transmission investment 
started to decline in the late-1970s. By the mid-1990s, the United 
States was investing about one-half what it was investing in the 
1970s--even though electricity demand and the strain on transmission 
capacity increased substantially during that time. Transmission 
investment has increased in the last several years (due to tax 
treatment changes in the Energy Policy Act of 2005 and higher returns 
allowed by the Federal Energy Regulatory Commission), and is now 
approaching $8-9 billion a year, as the electric utilities work to 
catch up with the demands being placed on the electric grid.
    Since the early 1990s, the United States has built a relatively 
small amount--approximately 11,000-12,000 megawatts--of new baseload 
coal-fired and nuclear generating capacity, and a very large amount of 
new gas-fired capacity--approximately 300,000 megawatts. The industry 
built gas-fired plants because they represented the lowest investment 
risk at a time of major uncertainty in the power business, brought on 
by restructuring and deregulation, and at a time in which natural gas 
prices were relatively low and stable. However, coal-fired and nuclear 
power plants still represent about 70 percent of U.S. electricity 
supply and provide the greatest forward price stability. Gas-fired 
power plants, on the other hand, have exposed consumers periodically to 
higher volatility in electricity prices.
    Future Outlook.--In its annual forecast of U.S. energy supply and 
demand trends, the U.S. Energy Information Administration (EIA) 
forecasts a need for approximately 263,000 MW of new generating 
capacity by 2030 to meet growth in electricity demand and to replace 
older power plants that are no longer economic. EIA's 2008 Annual 
Energy Outlook incorporates the energy efficiency and demand-side 
impacts of the Energy Independence and Security Act of 2007. (For 
example, EIA's 2008 outlook projects electric demand growth of 1.05% 
per year through 2030, a reduction from the 1.5% per year demand growth 
forecasted in their 2007 outlook. For reference, growth in electricity 
demand between 1998 and 2007 averaged 1.8%/year.)
    Even with more aggressive efficiency programs and lower growth 
rates in electricity demand than forecast by EIA, the United States 
will likely need substantial new generating capacity. In a recent 
analysis for the Edison Foundation,\2\ The Brattle Group forecast a 
need for 133,000 megawatts of new capacity by 2030 assuming no 
mandatory controls on carbon emissions, and 216,000 megawatts by 2030 
with carbon limits. (The Brattle Group analysis assumes 0.7 percent per 
year growth in peak load, which determines the amount of generating 
capacity required. For reference, the Energy Information 
Administration's forecast to 2030 is 1.5 percent annual growth in peak 
load. Even this is a large drop from historical performance: Annual 
growth in peak load between 1996 and 2006 was 2.1 percent.\3\) With the 
introduction of carbon controls, the need for new generating capacity 
will likely increase: Companies must build more new capacity to meet 
demand growth and to replace older coal-, oil-and gas-fired steam 
capacity that will be shut down because it will not survive the 
transition to a carbon-constrained world.
---------------------------------------------------------------------------
    \2\ Transforming America's Electric Power Industry: The Investment 
Challenge 2010-2030, The Brattle Group, November 2008. http://
www.brattle.com/_documents/UploadLibrary/Upload725.pdf.
    \3\ Recent analysis demonstrates that electricity demand growth can 
be reduced significantly from historical levels. In a recent analysis 
(Assessment of Achievable Potential from Energy Efficiency and Demand 
Response Programs in the U.S. 2010--2030), the Electric Power Research 
Institute estimates that energy efficiency and demand response programs 
could reduce growth in peak load to 0.83 percent per year. Under 
conditions ideally conducive to energy efficiency and demand response 
programs, this growth rate might be reduced to as low as 0.53 percent 
per year. The same analysis estimates that growth in electricity 
consumption could be realistically reduced to 0.83 percent per year 
through 2030. Under conditions ideally conducive to energy efficiency 
programs, this growth rate might be reduced 0.68 percent per year. This 
report is available on the EPRI website at www.epri.com
---------------------------------------------------------------------------
    Assessments of how to reduce U.S. electric sector carbon emissions 
show that there is no single technology that can, by itself, slow and 
reverse increases in carbon emissions. Rather, as a recent analysis\4\ 
by the Electric Power Research Institute (EPRI) shows, a portfolio of 
technologies and approaches will likely be required. The EPRI analysis 
starts with the EIA forecast of electric sector carbon emissions in 
2030 (2.9 billion tons), then assembles a portfolio of technologies and 
approaches that could reduce the sector's carbon emissions to 1990 
levels (1.8 billion tons) by 2030.
---------------------------------------------------------------------------
    \4\ The Power to Reduce CO<INF>2</INF> Emissions: the Full 
Portfolio--2008 Economic Sensitivity Studies, available on the EPRI 
website at www.epri.com
---------------------------------------------------------------------------
    The portfolio necessary to achieve the 1990 level of carbon 
emissions includes:

          1. aggressive efficiency programs to reduce electricity 
        demand growth from 1.05 percent per year to 0.75 percent per 
        year;
          2. 100,000 MW of new renewable energy capacity (instead of 
        the 55,000 MW in EIA's reference case);
          3. 64,000 MW of new nuclear generating capacity, in addition 
        to the 100,000 MW now operating;
          4. significant improvements in the efficiency of existing 
        coal-fired power plants and widespread deployment of carbon 
        capture and storage beyond 2020;
          5. significant penetration of plug-in hybrid electric 
        vehicles,\5\ and
---------------------------------------------------------------------------
    \5\ The transportation sector represents 31 percent (1.9 billion 
tons/year) of U.S. carbon emissions. Increased deployment of plug-in 
hybrid electric vehicles would reduce the transportation sector's 
carbon footprint and U.S. oil demand, but would increase electricity 
requirements. In terms of carbon policy, this strategy would make sense 
only if the additional electricity were supplied from carbon-free 
sources. Otherwise, PHEVs would reduce the transportation sector's 
carbon footprint but increase carbon emissions from the electric 
sector.
---------------------------------------------------------------------------
          6. increased use of smaller scale, distributed generation, in 
        place of large central station power plants.

    Each of the elements in the portfolio represents maximum feasible 
deployment, so failure to develop and deploy the full portfolio would 
place unsustainable stress on the other technologies in the portfolio.
         investment requirements in the electric power industry
    Although each technology has its own challenges, the largest single 
challenge across all technologies is financing. Sufficient financing is 
an essential enabling requirement, both to conduct research, 
development and demonstration of the technologies in the portfolio, and 
to finance large-scale deployment of the new technologies when they 
have been developed and demonstrated.
    Research, Development and Demonstration (R,D&D).--Substantial 
increases in energy R,D&D investment will be needed in the years ahead 
to create a sustainable electric supply infrastructure. Unfortunately, 
recent trends are in the opposite direction. In a February 2007 
analysis, the Government Accountability Office found that DOE's budget 
authority for renewable, fossil and nuclear energy R&D declined by over 
85 percent (in inflation-adjusted terms) from 1978 through 2005. The 
need for new technologies to address critical energy needs has not 
diminished over the same time period, however, nor have the energy and 
environmental imperatives facing the United States become any less 
urgent.
    EPRI has estimated that the United States must increase investment 
in energy R,D&D by $1.4 billion annually between now and 2030 to 
develop and demonstrate the technology portfolio necessary to bring 
electric sector carbon emissions back to 1990 levels by 2030. That 
additional cumulative investment of approximately $32 billion in R,D&D 
would reduce by $1 trillion the cost to the U.S. economy of bringing 
electric sector emissions back to 1990 levels, according to EPRI's 
analysis.
    Technology Deployment.--America's electric power industry faces a 
daunting investment challenge. Approximately $1.5-2.0 trillion\6\ in 
new investment will be required by 2030 for new generating capacity, 
new transmission and distribution, efficiency programs, and 
environmental controls on operating plants. To place this estimate in 
perspective, the current book value of the entire U.S. electricity 
supply system, built up over approximately the last 60 years, is only 
$750 billion. The electric power industry will be challenged to manage 
investment on this scale, particularly in today's more constrained and 
challenging credit markets.
---------------------------------------------------------------------------
    \6\ The Brattle Group, Transforming America's Power Industry: The 
Investment Challenge, 2010-2030, November 2008.
---------------------------------------------------------------------------
    The electric sector is already showing some signs of stress. The 
investor-owned utilities have already cut capital spending for 2009 by 
approximately 10 percent, on average. There is also downward pressure 
on equity returns, largely because rate increases have not kept pace 
with rising costs. Bond spreads are also wider (in some cases, 
significantly wider) and, although all-in debt costs are not 
dramatically higher because yields on Treasuries are so low, the cost 
of debt will be significantly higher than historical norms when 
Treasury yields recover if bond spreads remain at current levels. 
Industry leverage is beginning to rise--not to the levels seen in 2003, 
when debt represented about 61 percent of the investor-owned utilities' 
capital structure--but it has increased somewhat over the last three 
years and debt now represents about 56 percent of industry capital 
structure. This, of course, exerts downward pressure on credit ratings. 
Only about 40 percent of rating actions by the three rating agencies 
last year were upgrades--the first year since 2004 that downgrades 
outpaced upgrades.
    In summary, the electric power sector is in the early stages of a 
major, 20-year capital investment program, and is not as well-
positioned for these capital expenditures as it was in the 1970s and 
1980s when it last undertook a major capital expansion program. At that 
time, the average electric utility had a solid A credit rating. Today, 
the average electric utility credit rating is BBB.
                  addressing the investment challenge
    Addressing this investment challenge will require innovative 
approaches to financing. Meeting these investment needs will require a 
partnership between the private sector and the public sector, combining 
all the financing capabilities and tools available to the private 
sector, the federal government and state governments.
    The financing challenges differ somewhat from technology to 
technology, depending on the nature of the risk being managed, the size 
of the financings, the maturity of the technology, and other factors.
    For renewable energy resources, including wind and solar energy 
projects, financing challenges include the availability of both debt 
and equity financing to support large-scale project development. In 
addition, financial returns are heavily influenced by the availability 
of tax benefits in the form of Production Tax Credits, Investment Tax 
Credits, and accelerated depreciation. Because many of the renewable 
project developers are smaller companies or European utilities, the 
ability of these companies to use the tax credits being generated by 
the projects is constrained. In addition, the availability of 
Production Tax Credits is limited to entities who are owners and 
producers of the project and its power output. As a consequence of 
these limitations, renewable project developers have increasingly 
utilized structured tax partnerships or lease structures, which allow 
developers to raise capital from one or more financial partners who 
have the capacity to use the tax benefits. The market for these 
financing structures has grown rapidly over the past three to four 
years, from about $2 billion per year initially, to about $4-5 billion 
last year. During this period, a core group of about 10-20 large 
financial investors, which include large banks, insurance companies, 
and structured finance investors, has developed a detailed 
understanding of the technology, structure, and analysis of these 
transactions. Unfortunately, as a result of the credit crisis, most of 
these financial investors no longer have the capacity to use the tax 
benefits from these projects at present. This lack of ``tax equity'' in 
the current environment provides a significant constraint on the 
ability to finance new renewable energy projects or to refinance 
existing projects where construction is nearing completion. Certain 
changes being considered in the stimulus bill, such as extending the 
availability of tax credits for renewables, allowing a wind project 
developer to claim an Investment Tax Credit instead of a Production Tax 
Credit, and allowing a five-year carry-back for tax benefits, would be 
helpful, as would a provision allowing a renewable project developer to 
apply for an equivalent grant from the government in lieu of the tax 
benefits. In addition, a principal source of debt financing for these 
projects has been several of the large European banks that have 
developed expertise in renewable energy project financing, and the 
lending capacity of these banks is also somewhat constrained in the 
current environment.
    The electric utilities and utility holding companies are much 
larger entities, and therefore have greater capacity to make use of the 
tax credits generated by renewable energy projects. In addition, recent 
changes to the tax laws have given the electric utilities greater 
flexibility to make use of the Production Tax Credits from renewable 
energy projects. These factors, together with the growth of renewable 
portfolio standards, are likely to lead to further expansion in 
renewable energy development by the utilities, although these projects 
will add to the utilities' burden to raise debt and equity financing to 
meet their growing capital expenditure needs. The DOE loan guarantee 
program can help provide the debt financing needed for these renewable 
energy projects, and expanding the available funding under the loan 
guarantee program for renewable energy projects, as is being considered 
in the stimulus bill, would be useful.
    For advanced, high-efficiency coal-based technologies, like 
integrated gasification combined cycle (IGCC), which appear to offer 
the greatest potential for carbon capture, the risk is largely 
technological: The question that most project developers and investors 
are considering is, ``will the plant meet performance targets for 
reliable commercial operation and, if so, how long will it take to 
reach them?'' IGCC plants include a gasifier, a clean-up train, a gas 
turbine and a steam turbine. All four technologies must be integrated 
and operate together, including the ability to follow load, at high 
levels of reliability. Smaller-scale IGCC plants have demonstrated that 
the technology can operate at these performance levels, but broad 
commercial deployment has yet to occur. Continued federal funding for 
research, development and demonstration is likely necessary, and 
federal loan guarantees may be necessary to offset the technology risk, 
which investors may be unwilling to take.
    For advanced nuclear power plants, the financing challenge is not 
technology. The advanced light water reactors now being licensed are 
evolutionary improvements on today's light water reactors, which have 
operated on a sustained basis at high levels of reliability (e.g., 
capacity factors in the 90 percent range) for the last decade. Rather, 
the challenge for new nuclear plant financing is one of scale: these 
are large capital investments--likely $6-8 billion for a new reactor--
being built by relatively small companies.\7\ The U.S. electric power 
sector consists of many relatively small companies, which do not have 
the size, financing capability or financial strength to finance power 
projects of this scale on their own, in the numbers required--
particularly since the same companies will also be investing in other 
forms of generating capacity, transmission and distribution, efficiency 
and demand response programs, and environmental controls. New nuclear 
projects will likely require financing support to offset the disparity 
in scale between project size and company size, and this is especially 
true for the plants that would be built by unregulated generation 
companies. For nuclear projects, like other capital-intensive baseload 
facilities, federal loan guarantees appear to be an effective financing 
technique. Loan guarantees allow the companies to use project-finance-
type structures, to employ higher leverage in the project's capital 
structure, and to fence off the project's credit risk from the project 
sponsor's balance sheet, in whole or in part.
---------------------------------------------------------------------------
    \7\ The largest U.S. investor-owned power company has a market 
value of approximately $40 billion and a book capitalization of about 
$10 billion. The other companies in the sector are significantly 
smaller. In comparison, the larger European electric companies are two 
or three times larger, and are better able to finance large-scale 
projects on balance sheet.
---------------------------------------------------------------------------
    It seems clear, therefore, that there is a critical need for an 
effective, long-term financing platform to ensure deployment of clean 
energy technologies in the numbers required and to accelerate the flow 
of private capital to achieve a sound energy and environmental policy. 
It also seems clear that this financing authority, whether it resides 
within the Department of Energy or is constituted as a separate entity, 
must have an array of tools at its disposal, given that different 
technologies present very different financing challenges and have very 
different needs.
    The loan guarantee program authorized by the 2005 Energy Policy Act 
was an important step in the right direction, but perhaps only a first 
step. Loan guarantees are a powerful tool and a highly efficient way to 
expand the availability of private capital, but an effective financing 
platform may also need the authority to make direct loans, to take an 
equity position, to provide insurance against certain project or 
technology risks, and to provide financing to bridge the gap between 
small-scale technology demonstration and large-scale technology 
deployment.
    The Title XVII Loan Guarantee Program.--Although tax stimulus--
either in the form of tax credits or more favorable depreciation 
terms--can play an important role in encouraging investment, loan 
guarantees can be a very efficient way to mobilize private capital. Tax 
benefits have a direct, dollar-for-dollar impact on the federal budget. 
Even if the credit subsidy cost associated with a loan guarantee is 
appropriated, loan guarantees provide substantial leverage. Tens of 
millions of dollars in appropriations to support a loan guarantee 
program can leverage tens of billions of dollars in private sector 
investment.
    For this reason, federal loan guarantees are widely used by the 
federal government to support financing of projects that have 
substantial public value, and would not otherwise be able to secure 
financing on reasonable terms. Federal loan guarantees are used for 
ongoing programs--to support rural electrification, development of 
transportation infrastructure, shipbuilding, low-income housing and, 
through agencies like the Export-Import Bank and the Overseas Private 
Investment Corporation, to support U.S. companies developing projects 
overseas. Federal loan guarantees are also periodically used in 
specific emergency situations--as they were after the September 11, 
2001, terrorist attacks to support the U.S. airline industry. Title 
XVII of the 2005 Energy Policy Act authorizes the Secretary of Energy 
to provide guarantees for up to 80 percent of project cost for projects 
that (i) avoid, reduce or sequester air pollutants or greenhouse gases, 
and (ii) employ new or significantly improved technologies.
    Under the Federal Credit Reform Act (FCRA) of 1990, loan guarantees 
are scored in the federal budget on a risk-adjusted basis, based on the 
budget subsidy cost methodology specified in FCRA. The budget subsidy 
cost represents the net present value of the risk-adjusted cost to the 
government of the loan guarantee at the time it is issued. In simple 
terms, that ``cost'' is the expected payments by the federal government 
less expected revenues received by the federal government. Federal 
agencies have considerable experience in calculating loan guarantee 
costs, and well-established protocols and analytical models for doing 
so.
    The Title XVII loan guarantee program is unique among federal loan 
guarantee programs in that project developers are expected to pay the 
budget subsidy cost of the loan guarantee. This ``self-pay'' or ``user-
financing'' feature offsets the risk-adjusted cost to the government of 
providing the guarantee. The self-pay amount is retained by the 
government regardless of whether the project defaults or not. If there 
is no default, the self-pay amount represents a financial return to the 
Treasury for agreeing to assume the risk during the period that the 
guarantee was in effect. Given a rational approach to implementation, 
in which projects are selected based on a high likelihood of commercial 
success with the loan guarantees, there should be minimal risk of 
default and therefore minimal risk to the taxpayer.
    As this Committee is aware from previous hearings, there have been 
some implementation difficulties with the Title XVII loan guarantee 
program, many of which predate the formation of the Loan Guarantee 
Program Office in 2007. For example, this Committee will no doubt 
remember, before the loan guarantee office was created, when the 
Department of Energy published the proposed rule governing the loan 
guarantee program, and the debate over whether DOE would guarantee 100 
percent of the debt obligation or only 80 percent. Going forward, given 
the importance of the loan guarantee program and the likely volume of 
guarantee requests for a wide range of qualifying projects, it will be 
important for the Loan Guarantee Program Office, whether it resides as 
an independent entity within the Department or as a new institution 
outside DOE, to have the dedicated resources it needs to operate 
effectively and efficiently. These resources should include its own 
legal and financial advisors, who would be better equipped through 
their experience and training to interpret the statute and develop 
workable regulations. This should reduce the implementation risk going 
forward.
                               conclusion
    In conclusion, it appears that the Title XVII program represents a 
sound starting point from which to design a broader financing platform, 
with additional financing tools, to support the large-scale deployment 
of the advanced technologies needed to maintain reliable levels of 
electric service and to meet the nation's environmental goals.
    Members of this committee deserve great credit for having already 
recognized this need. In 2008, Senator Bingaman introduced legislation 
to create a 21st Century Energy Deployment Corporation. Senator 
Domenici, formerly ranking member of this committee, introduced 
legislation to create a Clean Energy Bank. Both proposals have 
considerable merit and address various aspects of the financing 
challenge facing the United States and its electric power industry. The 
two proposals certainly serve as a good starting point to create the 
institutional capability needed to facilitate the financing of our new 
electricity infrastructure.
    Mr. Chairman, again thank you for the opportunity to testify, and 
this completes my testimony.

    The Chairman. Thank you very much. Thank you all for your 
excellent testimony. Let me start with 5 minutes of questions. 
Then I'm sure all members will have questions.
    One obvious question that arises hearing your testimony is 
whether we should see it as our job in this committee and here 
in this Congress to take on the problem of how we improve the 
effectiveness of the existing Loan Guarantee Program or whether 
we should pursue the creation of an entirely new lending 
authority, financing authority, along the lines that Andy 
Karsner was talking about in the nature of a clean energy bank 
or should we do both? Is it possible to do both? I think we've 
had some discussion about the subject.
    My own view is we do not want to be legislating in a way 
that impedes the functioning of what currently exists. At the 
same time we don't to pass up the opportunity to take on a 
broader objective. enact a broader solution if that's what 
required.
    So let me ask David Frantz and then Andy and any of the 
rest of you to comment on how you come down on that question.
    Mr. Frantz. Thank you very much, Mr. Chairman. It is 
probably the question to the core of the problem. I think your 
question really is in two parts.
    In terms of the first part there are clearly some things 
that Congress can do that would help us facilitate our activity 
as it now stands with frankly, very simple and small changes to 
the existing law. The first one Andy alluded to it in his 
comments. We are now aware that the self-pay feature for the 
credit subsidy cost is an enormous impediment, particularly to 
those medium sized and smaller company applicants that we are 
dealing with.
    So the first suggestion is that this probably should be 
removed and we should return to the credit subsidy mechanisms 
that are more universally applied to virtually all Federal 
programs. That is the credit subsidy cost is appropriated. 
Therefore, it is not punitive nor redundant.
    The second issue is that we have encountered in our initial 
negotiations, particularly with a larger projects in the 
nuclear field as well as the larger fossil fuels, that the 
superiority of liens in the current law precludes us from 
bringing to the table as participants in these projects for 
shared cost and shared risk. This includes the Export Credit 
agencies throughout the world who are supporting these projects 
and are willing to finance and be participants.
    Another issue concerns undivided interest which involves 
utility participation municipality participation in each of our 
projects. A simple fix can be to make the superiority of liens 
one of equal participation or what we call in the trade, pari-
passu. Rather than requiring the U.S. Government to have a 
superior lien which can preclude these other financing 
techniques.
    I certainly have not been a detailed student to the extent 
that Andy and some others have been in the initiatives for the 
much more independent approach. Let me make one important 
comment I think that you and I have discussed, Mr. Chairman, 
and that is that today, given the urgency of circumstances, I 
think it is very important that the existing program must 
remain in operation where it currently resides in the 
Department of Energy.
    Under the circumstances, it is with the number of the 
improvements that Andy has suggested in his testimony that we 
rely very heavily, particularly as it pertains to ascertaining 
risk associated with new and innovative technologies, on the 
technical expertise of the Department of Energy. This includes 
all the program offices of the Department of Energy. We rely on 
their technical advice and consult with them regularly as well 
because this is an enormous asset. It is decidedly different 
from normal project financings and in contradistinction to 
commercial applications. So in the immediate term, the access 
to that expertise is very important to us as we try to expedite 
this program.
    Now, that said, I do believe certainly, that there is room 
to consider a separate organization. As I am the only sitting 
U.S. Government officer on this panel, I have to be careful 
because I do not believe that either the previous 
administration or the current administration, as you suggest 
Mr. Chairman, has given attention to this consideration.
    As you alluded to, I am an alumni of the Overseas Private 
Investment Corporation which is probably a model for such a 
type of activity. The important aspect is it does indeed 
provide a great deal more flexibility and the ability to be 
more responsive, no question about it. But as you may be aware, 
the Overseas Private Investment Corporation (OPIC) and some of 
these other institutions, were founded as a part of the 
Marshall Plan of 1949. OPIC was not established as an 
independent agency until 1972.
    So there clearly is a logical progression. I certainly do 
not suggest it has to be that long in the cases that are under 
consideration. I do agree with you, to do something that would 
be an abrupt change at this point could be in fact, disruptive 
or counterproductive to the attention of the current office.
    The Chairman. Let me just ask. I know my time is expired 
here, but Andy why don't you just give us a short response to 
whether you think we should concentrate on improving what 
exists, starting something new or can we do both in your 
opinion?
    Mr. Karsner. Sir, I think you have to do both. I do not 
think that there is any amount of tweaks around the fringes 
around the current system and the status quo constraints that 
would enable it to ultimately mobilize capital and serve the 
function for which the statute is intended. Achieve the metrics 
that either the President is talking about or that have been 
put forward by Congress in terms of anti-projected greenhouse 
gas emissions.
    So Marshall Plan is an apt reference here. If we state out 
that these are what we must do. Now Congress has gone so far as 
to commit the National Treasury in unprecedented numbers. It is 
really a question of not how much do we spend, but how do we 
manage that which we are spending to achieve stated goals.
    It cannot be done in the current system. But you have to go 
with the tweaks with the mediacy. Whether that is statutory 
change, through an amendment. There may be some particularly 
with these questions of first leans that were put into title 17 
or things that imply the arguments that you may have heard 
about on stripping and some of the arguments about lack of 
clarity on what, 80 percent of total project.
    So clarity verses ambiguity is important. But I would think 
that there's a historic opportunity to convene on a bipartisan 
basis this committee with senior folks around Secretary Chu and 
involve OMB and Treasury to get them all talking together for a 
common purpose which is not been the record to date.
    The Chairman. Ok. Let me defer to Senator Murkowski. I'll 
come back on a future question if others want to comment on 
this.
    Senator Murkowski. I will follow up with your question, Mr. 
Chairman because I think this is what we really want to know. 
We recognize that there are flaws within the program. Mr. 
Karsner, you said it needs to be institutional reform.
    I agree with you. I am not quite sure if the clean energy 
bank is the way to go whether we have this quasi agency out 
there or not. But I'm concerned that if we just do some tweaks 
we will not be really providing what is needed out there to 
provide for the level of loan guarantees that we are all 
looking for here.
    Mr. Book and Mr. Asselstine, I would like for you both to 
address whether you feel we should be moving to a different 
approach in terms of a quasi agency, clean energy bank. If 
possible, to simultaneously make the necessary reforms within 
the Department of Energy.
    I will state the obvious. We have a stimulus package that 
is likely going to be agreed to this week that puts even 
greater demands on the Agency, even greater demands on the 30 
full-time employees that we have. What is the best path 
forward?
    Mr. Book, first. Then if we can come back to you at the 
end, Mr. Karsner, I would appreciate it.
    Mr. Book. Thank you, Senator Murkowski. There seems to be 
almost thundering agreement that doing both at once is 
possible. It seems like it's the best way to go.
    This is the situation where anything that gets the in 
process work done faster is good. Anything that slows it down 
is probably bad.
    Senator Murkowski. Right.
    Mr. Book. At the same time the long term strategy, the 
strategic framework has to be about solving a problem that 
you've defined. If the problem is just to do a little something 
around the edges of our clean energy goals than we should 
probably continue to keep this around the edges. Otherwise you 
may want to make it a central entity that has its own autonomy. 
Maybe doesn't have to keep thinking about the next 
appropriations line item and become self financing because then 
you actually will begin to see the sort of behaviors that begin 
to maximize the diffusion of capital.
    Senator Murkowski. Mr. Asselstine.
    Mr. Asselstine. Senator Murkowski, I'd have to agree that 
we should pursue both alternatives simultaneously. There are 
clearly some glaring problems with the existing program as it's 
being implemented. I would give great credit to Mr. Frantz and 
his colleagues in the Loan Guarantee Program Office.
    I think they're working diligently to try to move the 
program forward. But there are clearly have been some problems. 
He's highlighted several of them.
    The problem with superiority of leans. One of the companies 
that I follow has been very vocal in saying that they abandoned 
pursuing the Loan Guarantee Program because the Department 
would not be flexible around accommodating the lean that their 
existing mortgage bond holders had. So under the Department's 
approach, would basically have required that the utility 
refinance all of its existing debt in order to qualify for the 
Loan Guarantee Program. They threw up their hands. They 
basically abandoned the effort, clearly a problem that can be 
fixed consistent with protecting the interests of taxpayers in 
terms of the Loan Guarantee Program.
    The problem of undivided interest participation clearly 
something that can and should be fixed immediately. Again, 
another utility is contemplating pursuing a project with 
partners. Under the Department's interpretation or approach, if 
there were a problem for any partner the Department would then 
take the entire facility rather than just take the interest of 
the undivided interest of the defaulting partner.
    The utility looks at that and they basically say, we're now 
hostage to the performance of our partners. We could lose our 
investment in the project even though we would want to go 
forward with it. This kind of inflexibility is a problem I 
think, within the existing structure within the Department.
    I very much agree that the office itself ought to have its 
own legal and financial advisors to deal with some of these 
specific problems. But beyond that I do think that this program 
is sufficiently important. Will be critical enough given the 
magnitude of the investment that this industry has to make over 
time to look at the option or the alternative of a separate, 
independent entity that would have more flexibility and a 
greater ability to accommodate the needs of the industry going 
forward rather than leaving the entity within the Department of 
Energy.
    But by all means fix the immediate problems at the same 
time. So that we can try to move the existing program forward.
    Senator Murkowski. I have a question for you, Mr. Frantz. 
But my time is expired, so I will wait until we come back for a 
second round.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you all for 
being here. Mr. Frantz, you point out in your testimony that 
you're working on putting in process in place to evaluate and 
fund projects to ensure that taxpayer interests are protected 
and to expedite applications.
    As, I think, we all recognize there are a number of 
applicants who've been waiting for a very long time for the 
final outcome of the process. One of those companies is a New 
Hampshire company called Simichron. It subcontracts with Beacon 
Power in Massachusetts. It's one of 16 projects that has been 
deemed qualified.
    Could you talk a little more about how you expect the 
process to play out? Help me better understand what your office 
uses when considering applications to achieve the most 
objective and beneficial outcome both for the taxpayer and for 
technology development?
    Mr. Frantz. Certainly, thank you very much Senator for your 
question. Clearly what we do as expeditiously as possible, but 
very carefully, is to first evaluate the application for 
completeness against our Final rule. We actually, as I 
indicated or intimated in my comments, do in fact have an open 
consultative process so that the applicants are kept informed 
once their applications are filed.
    We first look at the applications for completeness. Then, 
of course, as you might expect, we have to ascertain whether 
there is innovative technology employed. That takes just a 
matter of a few weeks.
    Once that is completed, we condcut our financial and 
technical evaluations. I alluded to in my comments that we rely 
on the Department's National Laboratories, several of them are 
under Andy's former group as well as others, to evaluate the 
technology. They do an independent technical evaluation from 
us, and we do the financial evaluation.
    We try to accomplish that within just a matter of a couple 
months. Once that is completed, we go to our Credit Review 
Board for the recommendation to proceed to full due diligence. 
The due diligence process is very difficult to put a timeframe 
on it because it varies decidedly with the complexity of the 
project as well as the size of the projects. The due diligence 
process can run from a matter of just a couple of months for 
these smaller projects. For the larger projects involving 
Environmental Impact Statements, for example, the process can 
take 18 months to 2 years. The point is that at every step of 
the way, we proceed as carefully as possible to ultimately 
reach a conclusion.
    Now in the case that I alluded to in my comments, among the 
group of 11 projects you mentioned one of them, Senator. If in 
fact, a project is a manufacturing project and it does not 
require an Environment Impact Statement and it only requires an 
Environmental Assessment, it can move along much more quickly.
    The point is that we effectively just started this process, 
as I mentioned, at the end of November and the beginning of 
December of 2008 on these projects. The project you mentioned 
happens to be in that group of projects. I mentioned a handful 
of projects that we now have on a very fast track. These 
projects can, in a few months, go through the due diligence 
process to an ultimate approval and issuance of a loan 
guarantee. Those are projects that are more manufacturing 
oriented rather than a large greenfields or stand up projects.
    Senator Shaheen. Oh, good. So I can tell Simichron that 
they should expect to hear shortly.
    Mr. Frantz. We are working with them actually.
    Senator Shaheen. Good. Thank you.
    The Chairman. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman. Mr. 
Karsner, or Andy, I guess is the easier way to address it. You 
made reference to the effort that I made along with Senator 
Dorgan to try to get this amount of money available for this 
increased significantly in the stimulus. We were successful on 
the Senate side. It got dropped on in Conference.
    The interesting thing to me was that the only opposition 
that erupted publicly was that I had somehow gone into the tank 
with the nuclear industry. The whole purpose of trying to get 
this loan guarantee was because I wanted major new nuclear 
plants. Under no circumstances could we do that.
    I can deal with that. I don't want to raise that here. But 
simply the fact that the anti nuclear folks raised a 
significant political attack on the whole program comes into a 
discussion of what you're talking about here.
    If we had the independent funding agency that has been 
talked about here, that strikes me as a good idea. Would that 
be more or less subject to the kind of political pressure 
generated by these groups, the kinds of television ads that 
were produced around in Utah attacking me for the circumstances 
I've described? Would it isolate the decision from this kind of 
political pressure or would the group be more subjected to this 
kind of political pressure in your view, anyone who wants to 
respond?
    Mr. Karsner. Sir I can only speculate on that. But this is 
what I would say is it is certainly meant to be the benefit 
that you are de-politicizing the process. There is no question 
that political pressure is part and parcel to why the process 
has thus far been delayed.
    Had it been an objective task to interpret the statute by 
an independent quasi governmental agency, like OPEC or EX-IM, 
in a regularized fashion then they could have moved very 
quickly to establish the appropriate capital risk mechanisms. 
Rather it has been a political discussion on risk aversion and 
philosophical elements. So that would be one of the chief 
benefits of removing this from the political process.
    I would add and this is strictly personal opinion. But goes 
to what Kevin has said with respect to title 17. What was so 
transformative and what gives it such great potential is that 
title 17, of all the titles written in all the energy 
legislation that has come out of the U.S. Congress, uniquely in 
many ways is not interest driven.
    It is not for biofuels. It is not for nuclear. It is not 
for clean coal. It is attributes driven.
    Senator Bennett. Yes.
    Mr. Karsner. It is about reducing, avoiding and 
sequestering greenhouse gas emissions at a scale and at a rate 
that is consequential. So just alleviating all of the inputs 
and saying we are going to fund things that get us to the 
outcomes we seek is revolutionary. Now to give an independent 
objective, non-political institution the capacity to manage an 
attributes driven financing mechanism should achieve that 
purpose.
    Mr. Frantz. Senator, if I may add.
    Senator Bennett. Certainly.
    Mr. Frantz. Just based on my experience at the Overseas 
Private Investment Corporation (OPIC), and in no way 
contradicting Andy's comments, but having spent over 10\1/2\ 
years there, by being an independent agency of the U.S. 
Government in no way gives you any immunity from the 
distractions, as you might expect, from those who care to 
criticize or have some effect on what you are attempting to 
accomplish.
    Senator Bennett. I understand that. I'm just hoping that it 
would make it easier for the entity to make the decision on the 
basis of the science rather than the television ads.
    Mr. Karsner. There's a big difference between oversight and 
annualized appropriations that gate the decisions----
    Senator Bennett. Yes.
    Mr. Karsner [continuing]. Of the authority.
    Senator Bennett. Ok. Mr. Asselstine, you participated in 
many large financing and transactions during your career on 
Wall Street. How do you answer the critics who say that the 
loan guarantee, it's an inappropriate intervention of the 
Federal Government in financial markets and distorts the 
question of allocating capital?
    Mr. Asselstine. My answer Senator would be that given the 
magnitude of the investment that needs to be made we need to 
look at ways to make the most efficient use of private capital 
that's available. One thing that I think we all know today is 
that capital is going to be scarcer. It's going to be more 
expensive going forward than it certainly has been over the 
past 5 or 10 years.
    So if you're looking at an industry that has to double its 
size over the next 20 years and an industry that actually faces 
some institutional challenges because we have many smaller 
utilities. We don't have the few very large utilities that you 
find for example, in Europe or in Asia. Then the question is 
how are we going to allow these companies to do the financing 
they need to add the generation that they will need over that 
period of time.
    The Loan Guarantee Program, in my view, provides an 
effective way to enhance the availability of private capital. 
It does that because the government, being paid for the risk 
that the government is taking, provides credit support for 
these projects. Particularly new technologies where there are 
questions in investor's minds about the performance of those 
technologies at commercial scale or very large projects which 
an individual company has a great deal of difficulty financing 
on its own. Or for renewables where the companies are 
relatively small and don't have broad borrowing flexibility on 
their own as well.
    In all of those areas the Loan Guarantee Program can 
provide the ability to access broader pools of capital. The 
reason for that is by the U.S. Government providing credit 
support. You access a broader range of investors.
    The debt investors, for example in buying the securities 
with the loan guarantee are looking at a security that's backed 
by the full faith and credit of the Federal Government. That 
opens up an enormous pool of capital in terms of providing the 
debt financing for these projects. If you use project finance 
structures that are 80 percent debt and 20 percent equity it 
vastly enhances the ability of individual project sponsors to 
go forward with the kind of magnitude of investment that will 
be required.
    So my answer would be it doesn't really distort capital 
deployment. Rather, it enhances the ability to tap into as 
broader range of investment capital as possible remembering 
that the project's sponsors or owners still have their own 
capital at risk. They will put in their own equity investment 
into the project.
    Other lenders may also provide non-guaranteed debt for the 
project as well. So you tap into a broader range of available 
sources of capital.
    Senator Bennett. In other words it is the private investor 
who still makes the decision as to which technology gets backed 
rather than the government crowding that decision out.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman for 
this hearing. This is a very important issue both the Loan 
Guarantee Program and the other loan programs in energy. Also 
particularly interested in section 136, retooling, making sure 
those loans get out the door as quickly as possible as well.
    I've had the same concerns, Mr. Chairman that you have and 
our Ranking Member about loan guarantees verses separate 
entities verses loans. Right now in Michigan I've been working 
with some companies that are qualifying for USDA loan 
guarantees for advanced biofuel facilities. But banks won't 
participate. So we've just not been able to use the loan 
guarantees.
    Given the current situation, that we all know about in 
terms of capital the lack of availability it seems to me that 
we really do need to revisit both. Taking away the barriers on 
the Loan Guarantee Program but also focusing on direct loans. I 
find the idea of a clean energy bank very intriguing, very 
appealing to really look at how we can boldly move forward on 
all fronts because there's so many opportunities.
    I did have a question, Mr. Frantz, for you that related 
specifically to the loan program and manufacturing and how you 
view manufacturing. You had mentioned to Senator Shaheen that 
manufacturing projects move more quickly. I wanted to explore 
what you view as eligible under the Loan Guarantee Program.
    I've introduced a separate bill that would provide direct 
loans to DOE to administer for entities that invest in 
manufacturing facilities. The facilities would have to produce 
renewable energy products or invest in energy efficiency gains 
of 30 percent or more in their facilities. But it's focused on 
the actual manufacture, which where I believe so many of the 
jobs are for us in terms of economic boost.
    Do you believe that the term in the current statute 
employing technology is the same as manufacturing it? Is that 
how you're viewing this?
    Mr. Frantz. Senator, a very good question. The answer is 
perhaps no. When we are talking in the field of the title 17 
Loan Guarantee Program, we are really preoccupied with new and 
innovative technologies. That is a huge gate in which Andy 
alluded to in his comments.
    Our role really is bringing technologies from the Office of 
Science, for example, through Andy's previous group, through 
grants and startups, who have reached a pilot stage, but are 
moving into full-scale commercialization. We bridge the Valley 
of Death.
    There are, interestingly enough, among our first group of 
applicants that are the high priority for us, several 
manufacturing companies which is very reassuring to us. These 
companies are employing new or innovative technologies against 
existing technologies in a more improved way. So the point that 
you are alluding to, I think, is do we affect on a broader 
sense manufacturing employment? That, I think, was addressed in 
section 136 of the Energy Independence and Security Act of 2007 
which you mentioned the objective is just to refinance or help 
assist additional financing for commercially available 
technologies. So that, I think, is the big distinction between 
the two. Clearly, and I alluded to this in my comments too. One 
of the big impediments for us is in National Environmental 
Policy Act (NEPA) regulations. In that case, we are looking at 
such things as categorical exclusions. However, it is very 
difficult to obtain categorical exclusions for something that 
is an innovative technology.
    Senator Stabenow. I appreciate what you're saying. I really 
believe there's a gap here. Because as I was very involved in 
helping to write section 136 and understand this is about 
retooling existing plans and those kinds of things.
    But at the same time we have a whole set of new innovative 
technologies that we want made in America. I don't want to be 
helping to finance those plants or those facilities going 
overseas through import/export bank. We need those here.
    When we look at the new plug in electric vehicles----
    Mr. Frantz. Right.
    Senator Stabenow [continuing]. For instance or solar panels 
or wind turbines or whatever, we find that we are losing 
manufacturing, not to low wage countries, high wage countries 
with very specific manufacturing strategies. Germany, it's one 
of our major competitors. So I find that there is a hole here 
when we are deploying technologies, but somehow not counting 
the manufacturing of that new technology as part of it.
    Mr. Chairman, I look forward to working with you on that. 
Thank you.
    The Chairman. Very good. Thank you very much. I just note 
that we appreciate Locklar Seward who is here.
    He's in charge of the 136 program. He's here in the front 
row. Thank you very much for being here and your good work on 
that program.
    Let me ask a question. I think everybody who's here has had 
a chance to ask questions. So this will be a second round.
    We have the 136 program which is a direct loan program. We 
have the Loan Guarantee Program that Mr. Frantz is in charge 
of. What I believe, Andy, you're advocating for is a separate 
entity that would have authority, not just to make loans, not 
just to guarantee loans, but to do a variety of other things to 
underwrite the financing of energy projects that need to be 
constructed and developed.
    Could you elaborate a little bit on what are those other 
things that a so called clean energy bank or whatever, 
financing authority or whatever we called it? What are those 
other things that it's important somebody have the authority to 
do that the government needs to involve itself in? I'd ask Mr. 
Asselstine the same question, Mr. Book or any of the rest of 
you.
    Mr. Karsner. Senator, I'd almost refer back to Kevin's 
response a little bit when he really distinguished that the 
guts of what we do at the Department of Energy well is science 
and technology and R and D. We didn't actually commence that 
task 30 years ago with any anticipation of what we would do the 
day the things matured to the point of readiness for 
commercialization. So over time we have added on tools.
    You have given us authorities that allow us to use the 
Federal balance sheet for fundamentally financial transactions 
whether they are equity or debt. The biorefineries for example, 
where we cost shared equity, 50/50 or 40/60 with a series of 
plants. Well, that was a nonreplicable, commercial model.
    We did it to stand up and review the science and 
technology, but at great cost. There is great return for that, 
but it doesn't use that money efficiently or doesn't have the 
best oversight capabilities. Really you're dealing with a civil 
service agency that is handcuffed from everything outside of 
the realm that it does well which is science and technology.
    So that's an array of financial products. It would really 
be up to the committee. I think with further hearings from the 
financial community as to which ones most efficiently use 
capital.
    Because fundamentally all the use of the balance sheet 
comes down to the question of are you lowering the cost of 
capital? Are you offering access to the capital? Are you 
leveraging the capital enabling life cycle returns for new 
energy technologies that don't function on commodities, but 
instead function on capital cost and then the freedom of sun 
and wind and nuclear, you know, etcetera?
    So you're dealing with these new technologies and you need 
to have competent financial authorities. David, himself, put it 
very well when he said, I'm up to 29 people after 4 years. Now 
you consider the hundreds of people that work at EX-IM bank 
managing a fraction of the money for an agency that is net 
positive to Treasury.
    EX-IM bank and OPEC make money for the U.S. Treasury. They 
don't cost money. If you take them away you have to do 
something to fill that revenue.
    Here we're talking about how high can we raise the cost to 
try to get the program moving with credit rate subsidies. 
Instead of saying why don't we add them like we do for student 
loans as origination fees, at the end of the path? So we can't 
make those determinations internally.
    To be very specific about the problem we have about what we 
amend now verses what we ultimately want in a statute, so much 
that can be changed now is an interpretation of the rule. David 
and his shop are working under the constraints of a rule which 
is an interpretation of the statute. That rule took a long time 
to promulgate. You know, it took 30 days for Locke's rule to 
come out at the end of the administration. It took almost a 
year or more for the other rule.
    It was very contentious. The interpretations in that rule, 
for example, that exclude manufacturing, I personally disagree 
with and fought with. The new administration has to look at the 
rule and the constraints at which David had no part creating 
that rule. Determine whether it is the correct interpretation 
of the statute. I would say you could do that with all parties 
convening in a way that has occurred through sequential 
communication in the past.
    So it's not as arduous an exercise when you talk about the 
immediate things that could be done because the administration 
has a lot of power to interpret that statute and determine the 
rule set under which the Loan Guarantee Office would operate. 
But ultimately you need to have a lot more than 29 people hired 
over 4 years. That's going to remain a civil service 
bureaucracy problem whether you change the rules or not. He 
needs a lot more resources.
    The Chairman. Mr. Asselstine, did you have a comment?
    Mr. Asselstine. Just briefly, Mr. Chairman. I agree very 
much with Andy's comments. I think that from a financial 
perspective having the flexibility to look at a variety of 
different financing tools would be advantageous, not just loan 
guarantee. But the ability to make direct loans, the ability to 
take an equity position, perhaps the ability to ensure 
particular technology.
    If you look at the different greenhouse gas reducing 
technologies that clearly fit within the Loan Guarantee Program 
there are different financing challenges today for those 
different technologies. If you look at solar and wind, for 
example, right now there is an urgent problem in providing 
equity given the way that those projects have been financed. 
Those projects have typically been financed in tax advantage 
structures where financial investors participate to take 
advantage of the production tax credits and investment tax 
credits.
    Right now the group of investors who have formed the core 
of that financing capability don't have the capability to use 
those tax benefits. So there's an urgent need for equity. The 
bankers in my firm who bank that industry tell me you can 
extend the production tax credits and investment tax credits, 
but unless you solve the equity component problem, there's a 
real problem in getting those projects financed today.
    The same thing is true to a certain extent for wind 
projects. If you look at clean coal technology, I would argue 
the big issue there is the technology. Will it work reliably 
and on a commercial scale? That's the thing that investors are 
concerned about. It's the thing that the companies are 
concerned about as well.
    So the ability to provide perhaps an insurance around the 
technology would be very helpful. You'd get that broader 
flexibility, I would argue in an independent organization 
rather than in the existing program.
    The Chairman. Mr. Book, did you have a comment?
    Mr. Book. Yes, thank you, Mr. Chairman. I think there's a 
couple of things that I can say, very simply, very quickly in 
addition to that.
    First, there's a specialization of labor challenge here. I 
don't think anyone disputes that someone who spends 15 years in 
post graduate work to become a nuclear physicist or a molecular 
scientist is a specialist. You can't just have a rule for all 
those folks to suddenly become bankers. It would be a 
ridiculous thing to do.
    You certainly can't have the bankers become the scientists. 
When you start a project finance career I believe you spend 2 
years in a lot of the investment banks to begin to start your 
career. Two years just to get enough education to get started. 
It's a very specialized skill sets.
    Getting 30 people together in 4 years is no small feat. 
It's actually fairly large practice group. It's nowhere near 
the size of the challenge I think that Andy and James have 
mentioned today.
    The second thing is just that the difference in the 
financing challenge can be framed a little bit differently also 
than just the different types of financing. In terms of a very 
big, expensive project, clean coal, nuclear power, something 
that it requires billions of dollars potentially in deployment 
over the life of the project. The question is whether you do it 
at all.
    If you can't get financing because you can't get the loan, 
you may not actually be able to do it. You will change the cost 
profile. But for a while the companies would be project 
sponsors. There may not be access to credit without the Federal 
Government providing a swift and efficient way of assuring that 
credit's worthiness.
    Whereas for renewable fuels the promise of renewable fuel 
is that you don't have a lot of variable costs. You spend all 
the money up front. The wind and the sun and other natural 
forces give you energy for the rest of that equipment life.
    That means the cost of the money you spend up front is the 
cost of the fuel. So again, it's a different type of financial 
problem to solve. Both of them are solved by title 17.
    What I'm saying is what started out as visionary at a time 
of economic expansion has become vital at a time of economic 
contraction.
    The Chairman. Ok.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Mr. Frantz, 
just a very quick question. I have learned that contained 
within the Stimulus package CBO had inserted language that puts 
some pretty severe restrictions on the application or the 
granting of the loan guarantees that would require the use of 
Federal property services or personnel. In taking another look, 
that language was included in the conference package.
    I think this would very severely hamstring renewable 
projects that are cited on Federal lands or any project that 
required moving transmission across a Federal highway. To me, 
this is quite concerning. Within the department, have you 
talked about how we can work with CBO, OMB, and the general 
counsel to resolve this issue?
    Mr. Frantz. Senator, I think it's a very good question, and 
it is upon our desks.
    Senator Murkowski. Ok.
    Mr. Frantz. As you can well imagine and you alluded to the 
sectors, this would impact transmission projects.
    Senator Murkowski. Yes.
    Mr. Frantz. Many of our consolidated solar panel applicants 
are associated with the Bureau of Land Management. So this is a 
very severe constraint. It is not certain how you would draw 
the lines on what may or may not be some relationship to the 
Federal Government on a citing issue.
    It is clearly a very serious problem. I am not familiar 
with the specific language. But it is one we are aware of as it 
will be a very serious impediment to moving our program 
forward.
    In actuality, Andy may have more experience in dealing with 
this issue than I do.
    Senator Murkowski. Do you have any comments, Mr. Karsner?
    Mr. Karsner. Yes, Senator. I don't have to tell you coming 
from the West and the big spaces what it means to exclude all 
of the Federal lands for citing when in fact those have the 
highest probability. It's really a case of how many ways can we 
shoot ourselves in our foot?
    Senator Murkowski. Right. Do we really want this Loan 
Guarantee Program or not. Some people would say no.
    Mr. Karsner. In addition we have put in the most recent 
statute, the Energy Independence Security Act, codified the 
Executive Orders that I believe the Obama administration will 
enforce. Reductions of 30 percent greenhouse gas emissions, 30 
percent gains in efficiency, 7 percent mandate for renewables 
across the Federal Government. These are historic and 
unprecedented.
    Now we're going to handicap the private market's ability to 
even co-locate with a Federal facility that it's meant to 
service. So, you know, we have got to have the managers 
managing the accountants. Otherwise the accountants are 
managing the management. This has been a chronic problem.
    You know, I'm on the Board of Argon National Laboratory 
where, you know, we're just being informed that the National 
Laboratories who have done all of this critical, technical 
review work that David spoke of, and have been doing it for 
USDA with respect to clean energy projects. There's an 
interpretation that they may be conflicted out. They're no 
longer able to service the Department of Energy as a client 
because they do R and D research with the car companies or with 
the renewable energy companies.
    So we are in the land of the bizarre. It will take White 
House leadership at the NEC and OMB and Treasury level to 
engage with DOE and with this committee to identify these 
ambiguities and some of these bizarre accounting notions and 
say, what do we want to do with appropriated funds on what time 
table to empower David and his team to succeed? That 
conversation has not taken place in a holistic, integrated 
group method. If anything, I hopeful that this hearing can sort 
of induce that new behavior.
    Senator Murkowski. I would hope so. Unfortunately with this 
particular language there's nothing ambiguous about it.
    Mr. Karsner. Yes.
    Senator Murkowski. It just says you can't. Basically, it 
stops any opportunity that we are attempting to advance in 
terms of renewables. To inhibit access to public lands is just 
amazing to me.
    Mr. Frantz, I have one final question for you. Just about 
everyone has suggested that you have done well to get 30 full-
time people within the Department on this program. What do you 
really need in order to accomplish what we are expecting?
    How many people do you need? Do you have the flexibility to 
bring them on and the caliber of individuals that we are 
looking for? We are not just looking for someone who has 
received a degree in accounting.
    We need investment bankers. We need financial analysts. Are 
we able to get them? Do you have what you need to do the job?
    Mr. Frantz. Senator, a very good question that speaks right 
to the heart of what some of the dilemmas that we're really 
dealing with. As Andy and the others have alluded to, it is 
very difficult for us to move people into Federal service on a 
permanent basis. What we have been very successfully in is to 
bring necessary expertise on board through a contractor basis. 
These are individuals that represent my experience and years in 
the industry. They are willing to come on board on a 
contracting basis, and we can do that relatively quickly, 
perhaps in a matter of just 2 or 3 weeks.
    That is how we have been able to respond very quickly, 
particularly to the solicitations, especially the nuclear and 
large fossil solicitations, where we needed people with very 
detailed experience in those areas. But it is a real dilemma to 
get people into the Federal service because of the rules that 
apply. It takes a great deal of time, quite frankly in the 
magnitude of 4 to 6 months. The reason being primarily is the 
competitive nature of civil service employment. So you have put 
your finger on a major problem.
    Back to a point that you have all alluded to and I think it 
is an important distinction, these are certainly areas that are 
addressed when you have an independent organization. There are 
greater flexibilities in an independent agency than being in 
the constraint of one of the larger Federal agencies in terms 
of things that you can do, and the speed with which you can do 
them.
    In our case, I have had conversations with the chairman. 
Clearly, I think there is a very strong argument in the way of 
an immediate fix for us, would be to give us some independent 
integrity where we can have our own legal counsel at our 
disposal as well as our own human resources and procurement 
staff would probably expedite the process for us.
    But you have put your finger on a very serious impediment 
for speed and responsiveness.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Karsner. May I add something for the record that David 
can't say?
    The Chairman. Yes, go right ahead.
    [Laughter.]
    Mr. Karsner. The Department of Energy's human resource 
capacities are catastrophic. They are undermining every element 
of the Department's mission. I just finished a tenure of an 
excess of 30 months with 17 direct reports on a key portfolio 
with less than half of the managers in place. Constantly 
rotating heads to fill gaps because of an average, on best, 
reported 9-month process to bring someone in if you can believe 
there are people on the street that would wait 9 months to come 
into the Federal Government.
    When we had to go after New Orleans with urgency, we had 
government special employees bulk up the SBA and brought in 
lawyers and financiers and other people with the appropriate 
acumen for a specific purpose. We have got to have war like, 
Marshall Plan, serious hats on. There's never, ever been a 
shortage anywhere I've ever gone of students, of MBAs, of 
bankers. Said how can I help? What can I do to join this 
effort?
    We have devised more ways to keep them out and repel them 
along with the school of shooting ourselves in the foot. So 
that is what leads me to say, tweak what we can. But start with 
a clean slate. Ensure we have the flexible authorities to get 
it right.
    The Chairman. Mr. Asselstine, you wanted to make a comment? 
Then Senator Bennett has some questions.
    Mr. Asselstine. Just a very brief comment, Mr. Chairman. I 
think one positive note here. This, as Kevin said, a very 
specialized field and a very specialized area in terms of 
project finance capabilities.
    But given the challenges in my industry lots of those 
people are now available.
    [Laughter.]
    Mr. Asselstine. The contractor approach that Mr. Frantz 
described is one that I think could really work to the benefit 
of this program. There are very talented, very capable people 
out there who are immediately available. I know, who have an 
active interest in this area. Who would add greatly to the 
capabilities.
    Ideally longer term you'd like to move some of those people 
into the Federal Government and build this program because this 
program is going to have to be around for a long period of 
time. But there is an immediate solution to the staffing 
problem if we can get through the constraints.
    The Chairman. Alright. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman. Andy, having 
served, this is going to sound antediluvian, having served in 
the Nixon administration I can tell you that the HR problems 
has not changed very much.
    [Laughter.]
    Senator Bennett. Over 40 years. Mr. Frantz, I understand 
that the solicitations have overwhelmed the available 
authority. The requests are there even with all of the problems 
we've discussed here this morning. If we go ahead and get all 
of the things done that we've talked about here this morning so 
that it becomes efficient and we've got the right people in 
place. They can examine everything.
    You come back now to a fundamental decision that may be 
beyond the ability of the present office to deal with. That has 
to do with the allocation of where are we going to put our 
resources. Mr. Asselstine, you talked about the difficulties 
dealing with wind and solar. They survive only because of the 
tax credits.
    If I were on the board of a company that was going to 
invest there, I would want to know can they survive if the tax 
credits ultimately go away. I had a conversation with someone 
in the United Kingdom that was producing alternative renewable 
energy. I sat there and listened to the presentation, took off 
my Senator's hat, and put on my businessman's hat and thought 
if I were a member of the board of his company there's no way 
in the world I would vote to proceed with this.
    So finally I asked him, why are you doing this? He said, 
because we get paid for the carbon credits. It has little or 
nothing to do with the science. But we can make money off of 
the carbon credits. Now they have a cap and trade system over 
there that pays them the money. He said, that's why we're doing 
this.
    Now if you had an independent agency that had authority. We 
clean up all of the impediments. Now the decision is made, 
we've got x amount of money for which we can make a loan 
guarantee.
    We have an application from a wind farm. We have an 
application from solar. We have an application from a nuclear 
plant.
    We have to make the decision or do we have to make the 
decision of which one do we put our resources in on the basis 
of which one will produce the energy we need on the scale we 
need. Because you have reinforced the fact that we're going to 
have to have major, major increase in our capacity, not only 
because the economy will demand it, but because or present 
facilities are getting older and have to be replaced. That 
requires money.
    Now, Mr. Frantz, you are oversubscribed now. People want 
your money. Are you constricted by the statute from saying 
we're going to put some money here rather than there?
    As I look at the requests, overwhelmingly it's in the 
nuclear field. Nnuclear has the best possibility of getting the 
scale that we need, maybe not the speed that we need. But over 
time if we're going to have to increase the energy output in 
this country by 30 percent, something in the next number of 
years, we're not going to do it with solar panels.
    However much they may work, their addition to the overall 
energy demand is going to be in single digits. So we've given 
you everything you need. You're now the Tsar of this whole 
thing. Do you want a degree of flexibility to be able to say 
we're going to put a smaller amount into field A because we 
will get more energy if we allocate these loan guarantees in 
field B?
    Mr. Frantz. A very good question, Senator. Thank you very 
much. As you know the allocations themselves are in the report 
language in the Energy and Water Development and Related 
Agencies Appropriations Act, 2008. It is in the report 
language, not in the law. However, the Department took the 
position and I happen to personally think it was a good 
decision, to respect the allocations that were presented to us 
from Congress because it reflected the intent of how Congress 
wanted the money to be spent.
    Senator Bennett. As one who writes report language I like 
that.
    [Laughter.]
    Mr. Frantz. I think there are really not any surprises 
either on what ultimately happened. We all here are aware that 
the new nuclear power plants, and we are looking at five new 
innovative technologies to employ, represent at least $6 or $7 
billion a project or more. That is the range that they are 
requesting from us in the process.
    The other thing I think that is important, is maybe where 
serious consideration needs to be employed. That is the law 
requires the Department to evaluate those projects where there 
is a reasonable expectation that the Government will be repaid 
for the employed debt that the Government is provding a loan 
guarantee.
    So to answer your question, on the other side of the 
ledger, we are working with these utilities who are sponsoring 
the nuclear projects. These are all the way up even today, in A 
rated categories. So clearly they represent the best bet from a 
risk point of view on where money should ultimately be 
employed.
    Not only to Andy's point of what our overall objective is 
and that is purely clean technology, but also for the return on 
the invested capital and the most acceptable risk. So there are 
clearly elements here that from the standpoint of return that 
will drive you to specific sectors perhaps at the detriment of 
others. That is, where there is a much higher risk profile, 
particularly in Andy's former area of energy efficiency and 
renewable technologies, the risk is high compared to what we 
are looking at in fossil projects or some of the other 
technologies.
    I think this is at the heart of one of the real decisions 
that has to be addressed. Now what I think the ideal situation 
would be is to have it both ways. Then, I think it would be to 
have specific guidance from Congress, as you did, with these 
allocations. It is very helpful to us, and frankly, we have 
welcomed it. It has helped in the discipline of the selection 
process. I think it was in discussions in the Recovery Bill at 
one point, but I do not know where it ended up.
    Perhaps in cases where there would be an availability of a 
substantial amount of loan authority, the Secretary, at his 
discretion, could have the opportunity under certain 
circumstances, to actually move outside of each one of those 
allocations where there was a tremendous oversubscription 
versus another area where there might be an under subscription 
or a marginal break even subscription. I think it is at the 
heart of one of the big dilemmas we are dealing with.
    Clearly with respect to nuclear, I think I've shared it 
with the chairman, the actual numbers of our over 
subscriptions. In that area it is astronomical. As you know, at 
$18.5 billion we are probably looking, without the correction 
that I talked about in the law permitting Export Credit Agency 
participation and undivided participation, the most you are 
going to get are three nuclear power plants. It is changing a 
little bit, from the enormous cost escalations in that sector, 
however these projects are still very expensive to construct.
    Senator Bennett. Yes. Thank you.
    Mr. Karsner. Senator, I'd like to give you a little bit of 
variation on that. Let me premise it by saying I'm a believer 
that nuclear has to be a part of the portfolio. That if we 
continue to let aging plants go toward retirement without 
replacement solutions we're going to have a big hole to fill.
    But some of the commentary on the excessive risk of the 
renewable portfolio which is a constantly moving landscape. It 
is not very static. You know, I began my career as a 
conventional energy developer.
    I can tell you when you talk about boilers and diesel 
engines and things that have been around for 100 years or 
reactors that have been around for 50 years, you're talking 
about relatively static cost curves with a variation coming 
through the commoditized through put. As Kevin alluded to with 
the renewables you're talking almost exclusively about the 
capital cost of the equipment. Now since this loan guarantee 
started in 2005 I'm on the board of one of the companies that 
is active in Utah, applied materials. We've sold 15 gigawatt 
scaled lines of solar manufacturing capacity in China, in 
India, around the world.
    We can't do it because of a lack of predictability here in 
the United States with U.S. nano manufacturing technology. But 
the price of solar has plummeted. The trend is continuously 
pressurized downward based on scaling. That is not the case 
with conventional energy technologies.
    So again, we should be technology agnostic going for the 
attributes. If it's emission free. If it's secure, if it can be 
made affordable or abundant or accessible, we should welcome 
it. That's what title 17 does.
    But technical assessments by my Vin lab, the national 
renewable lab, for the Loan Guarantee Program by way of 
example, for the original 16 applicants, 3 or 4 years on are 
not current anymore. The technology is actually moving too 
fast. The commercial marketplace is changing too quickly.
    That's a sign of the success in what we fund in R and D. 
That's our goal, continuously pushing those costs down. So it's 
a moving landscape.
    The numbers in the marketplace of financed projects would 
indicate that. You know, wind has been 15, I think maybe 
approaching 20 gigawatts in the last decade. Or, sorry, that's 
just the last few years, whereas we've managed to fund about 11 
gigawatts of coal over 15 years.
    So there's a reason why these are coming into the 
marketplace faster because the costs are dramatically falling 
to cost competiveness. Now the associations won't say that 
cause they've got to come up here and tell you that they, you 
know, can't survive without a PTC. Because there's nothing else 
exists.
    There's no carbon policy. There's no other externalities. 
You know, there's no continuity.
    But the truth is when you start conforming to conventional 
project economics that the energy industry has known for years 
with conventional project finance with mechanisms like these 
loan guarantees. Some with pricing policy ultimately the tax 
credit policies should go away and be supplanted because these 
technologies are reaching maturity.
    Senator Bennett. Thank you.
    Mr. Asselstine. Senator Bennett.
    The Chairman. Yes, go ahead.
    Mr. Asselstine. One quick comment. I think the Congress was 
probably right initially to say we want some money allocated to 
each of the different technology types. I think that was 
prudent and it made sense. But at this point we're at a stage 
where certainly by this spring, we'll have a good sense for 
what potential projects are available across different 
technologies.
    Now I think the approach really needs to be, No. 1, provide 
sufficient resources to fund meritorious projects.
    Two, have the flexibility to be able to allocate the 
funding toward projects that are likely to provide the greatest 
benefit at moderate risk to the Federal Government.
    So having some flexibility to redirect those makes a lot of 
sense. I personally agree with you that I think the nuclear 
units do need to be part of the mix simply because the 
technology is relatively straight forward. Incremental 
development or change over what we have today. Those plants are 
likely to be built and operated by companies that are very 
creditworthy and it will do a good job in the process.
    But I also think we need the other components as well. 
You're absolutely right about the renewables. If you watch the 
cycle of projects in this country when we have the production 
tax credits, investment tax credits available, the projects get 
built.
    As soon as those expire then we don't build anymore until 
they're renewed. So you have that cyclicality for the 
renewables at the present time, as Andy said, without the 
support of a carbon trading program.
    Senator Bennett. Yes. Thank you very much.
    The Chairman. Senator Murkowski, do you have additional 
questions?
    Senator Murkowski. No, I do not.
    The Chairman. Mr. Bennett, do you have another?
    Senator Bennett. No.
    The Chairman. Mr. Book, did you have another comment you 
wanted to make?
    Mr. Book. Yes, very briefly.
    The Chairman. Go ahead.
    Mr. Book [continuing]. Between everyone and lunch. Just the 
part of the vision of title 17 that I most admire is the idea 
that innovation doesn't just include the first time you do 
something. It includes the first time you do something here. It 
can include the first time you use two somethings that you had 
before in a different way.
    Shortly after I appeared before this committee in December, 
I think during that appearance, I spoke about pairing coal with 
wind. You could hear the crickets chirp. Then people said, did 
you say coal?
    But actually the Department of Energy's National Energy 
Technology Laboratory or ENREL, one of the two, put out a 
recent analysis that said, this is a good way to do both 
things. That itself is an innovation. The idea that you have 
something as incrementally sequestering or reducing emissions, 
the idea that you're using resources that you have that are 
secure.
    These are the kinds of innovations that are available when 
you don't start earmarking things. When you start sort of 
deciding what the limits are, I think you need a buffer zone to 
protect the technologies that might not otherwise get funded 
which is absolutely vital. You cannot ignore the future. But 
you also want to make sure that you don't restrict yourself out 
of making better use of the present.
    The Chairman. Alright. I think this has been very useful 
testimony. We have a lot to try to understand here and 
hopefully act on.
    But thank you all very much for coming. That will conclude 
our hearing.
    [Whereupon, at 11:52 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of James K. Asselstine to Questions From Senator Bingaman
    Question 1. Your testimony gave a good sense of the scale of the 
challenge we face in this area and outlined the total investments that 
might be required. Assuming loan guarantees and other financial 
mechanisms were available to fill in the gaps and stimulate that 
investment, and assuming complementary regulatory policies like an RES 
can be enacted, do you have any thought as to the scale of the 
government investment that might be necessary to achieve what you 
outlined?
    Answer. I believe that federal loan and loan guarantee authority in 
the amount of $200 billion would be sufficient to support the 
development and deployment of innovative technologies to reduce 
greenhouse gas emissions and to implement a renewable energy standard. 
This amount would represent about 10 percent of the total capital 
expenditures that are likely to be needed by the industry over the next 
20 years to meet climate change and renewable energy objectives. I also 
believe that some thought should be given to alternative mechanisms 
that could permit this authority to be recycled into new projects over 
time, thus leveraging the effectiveness of the federal financial 
support. For example, it might make sense to use the federal loan 
guarantee during the critical construction period for a facility and 
then require that the guaranteed debt be refinanced using private 
financing after the project has completed an appropriate period of 
commercial operation. This would permit the redeployment of the loan 
guarantee capacity to multiple projects over time.
    Question 2. You stated that loan guarantees are a powerful tool but 
not necessarily the only tool that should be available to leverage 
private investment. Can you give us any examples of alternative 
financial tools that might be applied more effectively for some 
technologies? Take efficiency or distributed generation, for example.
    Answer. Other financial tools that might be appropriate for some 
investments would be the authority on the part of the federal 
government to make a preferred equity or a common equity investment in 
a particular venture. These tools might be particularly appropriate in 
the two areas you mention--energy efficiency and distributed 
generation. An equity investment may be more useful and effective than 
a loan guarantee to support the development of a new technology to 
improve energy efficiency or for a new distributed generation 
technology where the prototype equipment would not necessarily itself 
generate sufficient cash flow to repay the debt but where the 
development of the technology itself could lead to a viable and 
profitable business venture over the intermediate term. I believe this 
authority to use a variety of financial tools would be most appropriate 
if we move toward the concept of a clean energy investment fund 
approach.
  Responses of James K. Asselstine to Questions From Senator Murkowski
    Question 3. The industry and Congress have been waiting anxiously 
since 2005 for the current Title XVII Loan Guarantee Program to be 
stood up and to begin issuing guarantees. With the possible exception 
of Mr. Franz you have each argued for the establishment of some sort of 
new agency that would provide a broader array of financial tools to the 
clean energy industry. At the same time you have each underscored the 
need for government support for clean energy technology in the short 
term. While the idea of a new agency may have merit, how do we get from 
here to there? How do we avoid waiting another 3-4 years while the 
organization gets established? Are there ways that we can facilitate 
the current Title XVII program in the near term while working to 
establish a broader capability for the future?
    Answer. Senator Murkowski, I share your concern that the creation 
of a new and more flexible federal financing vehicle for clean energy 
technologies not delay either efforts to improve the existing Title 
XVII program or the much-needed award of loan guarantees under that 
program to worthy projects. To address this problem, I would make two 
suggestions. First, with respect to the existing DOE loan guarantee 
program, I believe that this Committee should continue its active 
oversight of the program to ensure that the Loan Guarantee Program 
Office works diligently to complete its reviews and execute term sheets 
to deploy its existing loan guarantee authority for renewable energy, 
clean coal, and advanced nuclear projects as soon as possible. This 
should include continued efforts to press DOE to correct the legal 
interpretations that have created conflicts with respect to utility 
mortgage bond indentures and joint ownership arrangements. Second, I 
would suggest that the Committee consider establishing the new federal 
financing vehicle within the Department of Energy, and folding the 
existing Loan Guarantee Program Office into the new entity. Creation of 
a clean energy investment fund within DOE that incorporates and builds 
upon the existing loan guarantee program but that has broader authority 
to use a variety of financial tools, the authority to hire its own 
internal financial experts and legal advisors, and autonomy from the 
rest of DOE would do much to correct the existing institutional 
barriers to an effective loan guarantee program without requiring years 
to set up a new agency.
    Question 4. Is it possible for the Department of Energy to partner 
with the private sector to provide an efficient loan guarantee service 
while retaining control, or is it necessary to establish a private 
entity to make this work?
    Answer. As I noted in my previous response, I do not believe it is 
necessary to establish a new, private entity to make this work. 
Instead, I believe that many of the problems of the existing structure 
could be corrected by creating a new financing vehicle within the 
Department with greater autonomy than the existing Loan Guarantee 
Program Office and with the authority to use a broader array of 
financial tools. This would allow the federal government to retain 
control of the program. But by creating a more autonomous and flexible 
funding vehicle, there may be somewhat greater opportunities for the 
government to partner with private lenders on a project-by-project 
basis.
    Question 5. What legislative fixes are needed to the Title XVII 
program to make it function more smoothly? What fixes can be done 
administratively?
    Answer. I believe that most, if not all, of the changes needed to 
make the loan guarantee program function more smoothly can be 
accomplished administratively. Thus, I believe that the Secretary of 
Energy has ample authority to ensure that the Loan Guarantee Program 
Office is staffed adequately, with a mix of full-time employees and 
consultants having the requisite project finance expertise, to hold the 
Office accountable for completing its reviews in a timely manner, and 
to allow the Office to retain its own financial and legal advisors. If 
these steps are not taken administratively to correct the existing 
problems with the program, then the Committee should consider 
addressing the problems legislatively.
    Question 6. Is it more important to get the loan guarantee funds 
out to a multitude of projects that could be successful, or concentrate 
the money on a handful of the best projects that have a high likelihood 
of success?
    Answer. I would allocate the majority (perhaps 75 percent) of the 
available funds to the larger, higher quality projects that have a high 
probability of success. By doing this, the Program Office will ensure 
the highest return on the government's financial investment while 
keeping the risk of default and financial loss to the government as low 
as possible. At the same time, I believe that some of the funding 
(perhaps 25 percent) should be allocated to smaller, higher risk 
renewable energy projects that may offer the opportunity for more 
significant technology breakthroughs in developing new clean energy 
technologies. In these cases, the higher potential rewards in 
developing new technologies to supplement more established technologies 
may justify a higher risk of default.
    Question 7. Assuming a maximum contingent liability of $100 billion 
and that such an expansion were to be enacted by Congress, what do you 
believe is an acceptable rate of default for projects participating in 
a program of not just loan guarantees, but direct loans and other 
financial instruments?
    Answer. In general, I believe that the program should be 
administered to achieve a default rate of on the order of 5-10 percent. 
To achieve this objective, as noted in my previous response, I would 
weight the funding in favor of larger, lower risk projects with a lower 
default rate, but I would consider some smaller, higher risk 
investments in projects that offer the potential for greater technology 
advances.
    Question 8. I appreciated your description of the array of 
technologies needed to establish a 21st Century energy system and the 
unique financial challenges faced by each of these technologies. Your 
written testimony certainly gives a sobering perspective on the 
challenges facing the electric power sector and the need to expand the 
current loan guarantee authority. Unfortunately, the expanded loan 
guarantee authority included in the Stimulus Package does not include 
all of the clean energy technologies in the portfolio you described. 
Provided we can resolve the deployment issues with the current Title 
XVII program, do you agree that the program's guaranteed loan volume 
authority should be increased given the substantial number of requests 
the program has already received?
    Answer. Yes, I would support an increase in loan volume authority 
to $200 billion, and I would remove restrictions limiting the amount of 
the available loan volume that can be applied to projects employing 
particular technologies. It is clear that the Department has received 
qualified applications for loan guarantees from attractive projects 
well in excess of the current authorized loan volume, and many of these 
projects will be needed if we are to meet the ambitious greenhouse gas 
emissions reduction targets now being considered by the Congress. In my 
judgment, having a workable, efficient, and adequately funded loan 
guarantee program is essential in meeting our climate change objectives 
and in substantially increasing the contribution of renewable energy 
resources to our energy mix.
   Responses of James K. Asselstine to Questions From Senator Corker
    Question 9. How have rising ECP (engineering, construction and 
procurement) costs affected the DOE management of the program? Does DOE 
see a need for Round 1 loan volume increases? If so, how much? How 
should mismatched project costs to loan volume problems be handled in 
the future?
    Answer. Project costs have been increasing, in large part due to 
rising commodity and labor costs. Despite the recession, thus far we 
have not seen substantial reductions in these project costs. As 
indicated in my previous responses, I would favor increasing the 
available loan guarantee volume to $200 billion. In addition, I would 
suggest that DOE be directed to report periodically to the Congress on 
the adequacy of available loan guarantee volumes to meet the 
requirements of qualified guarantee applications.
    Question 10. In the absence of credit at reasonable commercial 
rates, what are the process and resource issues that need to be 
addressed to allow ancillary but essential project elements (e.g., CO2 
Off-takers in a Carbon Capture and Sequestration project (CCS) to 
participate in the core project but under a separate loan guarantee?
    Answer. If financing capacity from private sources is not available 
at reasonable rates and on reasonable terms for important project 
components such as CO2 off-takers for a CCS project, it may be 
necessary to expand the scope and authority of the loan guarantee 
program to allow such project components to be included in the loan 
guarantee or to be assigned a separate loan guarantee.
    Question 11. How has the credit crisis affected the DOE loan 
guarantee program in general? How has the credit crisis affected the 
``credit assessment'' of projects faced with applications under due 
diligence this year (2009)?
    Answer. If anything, the credit crisis has made the DOE loan 
guarantee program even more essential. Because the greenhouse gas 
reducing technologies that qualify for funding under the loan guarantee 
program use advanced and innovative, rather than well-established, 
existing, technologies, traditional private funding for these projects 
has become even more difficult and costly with the credit crisis. Thus, 
the credit crisis has increased the urgent need for this Committee to 
ensure that we have an efficient, effective, and appropriately funded 
loan guarantee program to move these projects forward.
    Question 12. What does the DOE see as necessary changes to 
accommodate the Round 1 applicants under these relatively new economic 
circumstances? Does the full self-pay concept or rationale hold up?
    Answer. I would suggest two changes to the program to ease the 
financial burden on applicants for the loan guarantee program. First, I 
would consider postponing the requirement for substantial fee payments 
by loan guarantee applicants until the applicant has executed a final, 
binding term sheet with DOE. This is consistent with private lending 
practice. Second, although I support the requirement to have the loan 
guarantee recipient pay the cost of the credit subsidy for the loan 
guarantee, I would recommend spreading the subsidy payment over the 
term of the loan guarantee rather than requiring an up-front payment as 
is currently the case.
    Question 13. How can the NEPA process be expedited and accountable?
    Answer. I believe that appropriate supervision by the Secretary of 
Energy and active oversight by this Committee should be sufficient to 
ensure that the Department fulfills its NEPA responsibilities without 
delaying the timely award of loan guarantees to well qualified 
projects.
                                 ______
                                 
       Responses of Kevin Book to Questions From Senator Bingaman
    Question 1. In your testimony you present a compelling case that 
simply pushing down the debt costs of a project can have significant 
effects on the final costs to the consumer. It seems like the 
implication of this, at least to some extent, is that to gain these 
benefits beyond what the private market will yield, the lender must be 
willing to absorb some of the risk of failure without passing that cost 
on to the borrower. Given the constraints of federal budgeting and 
appropriations do you believe it is reasonably likely that the loan 
guarantee program as it currently exists can take on this risk and 
provide sufficient inexpensive debt support at the speed the industries 
require?
    Answer. Mr. Chairman, the Title XVII program is currently 
constrained by the amount of funding appropriated by Congress and 
governed by technology-specific limits articulated within the December 
2007 appropriations language. Recipients of loan guarantees within 
those constraints should be able to generate energy at lower cost and 
pass some or all of those savings along to end-users. The current 
structure of the program, however, does not appear likely to provide 
adequate debt coverage to meet the needs articulated by sponsors of the 
most capital-intensive projects (e.g. nuclear power and clean coal), 
nor the theoretical demand for renewable projects characterized by 
lower overall capital costs but higher generating costs, especially 
farm-scale solar power. It seems unfair to evaluate turnaround time for 
loan guarantees with only one guarantee issued since the enactment of 
the Energy Policy Act of 2005. That said, if the current latency 
between initial solicitation and final awards were to continue, it 
seems likely that it could further compound the financing challenges 
confronting energy project sponsors as a result of tight credit markets 
and/or short operating histories.
    Question 2. You talk a bit about the core competencies of the 
Department and how that might be a mismatch with the necessary skills 
in lending and risk management that are the fundamentals of 
commercialization. In your opinion, is this an issue of compensation 
and personnel, or is there some more fundamental constraint on the 
Department that might keep it from developing this competency?
    Answer. At its inception, the Department of Energy was chartered to 
facilitate the ``integration of major Federal energy functions into a 
single department in the executive branch'' [42 U.S.C 7111(5)], 
essentially to defragment and focus the nation's research and 
development efforts towards greater energy security. Just as the shape 
of diamond crystals mirrors the latticework of the underlying carbon 
molecules, I would suggest that the Department may organizationally 
resemble the methodical and patient practices of thephysical and social 
scientists who work within it. While it is possible to anchor a 
separately-chartered financing organization within the Department, it 
seems unlikely that existing organizational structures will facilitate 
the customer focus and risk tolerance typical of modern finance 
institutions. In this context, building a freestanding financing body 
within the Department is likely to require hiring from outside the 
Federal Government and may require compensation in line with industry 
norms.
      Responses of Kevin Book to Questions From Senator Murkowski
    Question 3. The industry and Congress have been waiting anxiously 
since 2005 for the current Title XVII Loan Guarantee Program to be 
stood up and to begin issuing guarantees. With the possible exception 
of Mr. Frantz you have each argued for the establishment of some sort 
of new agency that would provide a broader array of financial tools to 
the clean energy industry. At the same time you have each underscored 
the need for government support for clean energy technology in the 
short term. While the idea of a new agency may have merit, how do we 
get from here to there? How do we avoid waiting another 3-4 years while 
that organization gets established? Are there ways that we can 
facilitate the current Title XVII program in the near term while 
working to establish a broader capability for the future?
    Answer. Senator Murkowski, I see no reason why ongoing Title XVII 
activities should not continue on a parallel track with the creation of 
a new agency or organizational capability within the Department of 
Energy, provided that the transition occurs sooner rather than later. 
The more work that continues under the existing program, the harder it 
may be for the agency heads performing the transition to coordinate 
their due diligence practices, their portfolio-based assessments of 
project risk and their ongoing communications regarding new and ongoing 
project matters.
    Question 4. Is it possible for the Department of Energy to partner 
with the private sector to provide an efficient loan guarantee service 
while retaining control, or is it necessary to establish a private 
entity to make this work?
    Answer. The notion of a federally-backed commercial loan is, by 
definition, a public-private partnership. The question you ask appears 
to be whether or not the lending and the risk assessment and credit 
enhancement functions could be performed by the private sector.
    In theory, the answer is yes, but with some important caveats. Any 
outside guarantor could provide the risk assessment and credit 
enhancement functions associated with loan guarantees, but not 
necessarily at a cost of capital competitive with loans backed by the 
full faith and credit of the United States. Private players might also 
wish to form a new special-purpose entity to syndicate default risk, 
particularly in light of the challenges facing many of the primary 
providers of credit assurance and reinsurance services, potentially 
diluting accountability.
    Every privately-sponsored ``wrapper'' around a Title XVII loan will 
come at a cost that reflects a combination of the lender's financial 
reality and the lender's assessment of the borrower's creditworthiness. 
Even a well-functioning credit market might not deliver debt costs as 
low as those possible under Title XVII or a successor entity/program.
    Question 5. What legislative fixes are needed to the Title XVII 
program to make it function more smoothly? What fixes can be done 
administratively?
    Answer. In my view, the most valuable improvement to current 
program--whether it be done legislatively or under administrative 
authority--might be to decouple the appropriation of funds from 
specific technologies and reinforce the technology-agnostic vision 
articulated in the original Title XVII program.
    A legislative change might be more likely to produce results, in my 
view, given the considerable influence over technology choices the 
Congress and this Committee, to say nothing of executive branch 
appointees--are likely to possess. The most robust way to decouple 
politics from technology choice could be to give the Title XVII program 
or a successor agency/program the ability to manage its portfolio of 
assets as banks and investment funds manage theirs, including the 
ability to purchase mission-specificdebt, equity and derivatives to 
balance (or rebalance) risks as well as the capability to securitize 
and sell debt to ``recycle'' funds into future projects.
    Question 6. Is it more important to get the loan guarantee funds 
out to a multitude of projects that could be successful, or concentrate 
the money on a handful of the best projects that have a high likelihood 
of success?
    Answer. Senator Murkowski, if we hope to increase energy security, 
environmental stewardship and economic growth, we must do everything we 
can to encourage the diffusion of technologies that can make a 
difference. Commercial-scale, high-cost technologies likely to provide 
secure sources of clean energy might well consume the lion's share of 
the project portfolio because big projects are expensive, but they also 
can make a big difference.
    Question 7. Assuming a maximum contingent liability of $100 billion 
and that such an expansion were to be enacted by Congress, what do you 
believe is an acceptable rate of default for projects participating in 
a program of not just loan guarantees, but direct loans and other 
financial instruments?
    Answer. In my view, a properly allocated portfolio that includes 
mature, high-cost projects and innovative, smaller-scale projects 
should exhibit project-specific default risk in inverse proportion to 
project size. In English, we shouldn't be making big, stupid bets; we 
should be making big, smart bets and small, stupid bets that are likely 
to lead to big, smart bets later on. Taking your $100 billion baseline 
and the notion of ``other financial instruments'' into account, the 
overall portfolio need not lose money at all, even if, bycharter, its 
managers pursued innovative technologies that exhibited a 10-25% 
default risk.
    Question 8. I am impressed by your statement regarding the 
importance of the loan guarantee program to clean energy technology 
projects. I am also glad that you mentioned the need for infrastructure 
investment to support these projects. I would imagine that the 
suppliers that manufacture the equipment and components needed for 
clean energy projects might look to the issuance of loan guarantees to 
time their own investments in expanded capacity and human resources 
required to meet future demands. Is it reasonable to expect the loan 
guarantee program to have a broader impact than just the individual 
projects and for that impact to be felt even before the projects begin? 
Are there changes that can be made to the program, or included in 
future legislation, that could further leverage the impact of the 
program?
    Answer. Senator, many of projects that might receive loan 
guarantees under Title XVII or a successor program involve long lead 
times precisely because their complex value chains include intermediate 
goods suppliers that must ramp up specialized manufacturing processes 
and undertake considerable investments in training and productive 
capital. The expectation of stable funding and rapid turnaround for 
eligible projects is likely to induce related and supporting players 
further up the value chain to accelerate their own investments. This 
could be particularly true in the cases of high-efficiency vehicles, 
clean coal power plants, photovoltaic technologies and nuclear power.
    Question 9. From your perspective looking at domestic and global 
economic and policy trends there has been some discussion about the 
similarities between what we are seeing today and the 1980s, where the 
still fresh in the mind oil embargoes, and higher prices of oil led to 
greater interest in alternative and renewable energy development, but 
eventually lower oil prices reduced investor enthusiasm. After the 
recent sky high oil prices refocused our interest, do you see today's 
lower oil prices putting these energy sources on the backburner again, 
or will there be a sustainable interest in thecontinuation of the loan 
guarantee program, and possible a Clean Energy Investment bank 
typeentity?
    Answer. A well-functioning market that that incorporates non-
commercial traders to provide sufficient liquidity is, in its own 
right, a powerful force to encourage future investment. Although it is 
impossible to ignore the tremendous social and economic costs of oil 
price fluctuations, I would suggest that sound energy policy should be 
like any other long-term investment: focused on the trend line, not on 
day-to-day fluctuations. We should not day-trade our energy 
infrastructure any more than we should day-trade our retirement 
portfolios.
    The inflation-adjusted oil price trend since the dawn of the 
industry 150 years ago exhibits a gentle upward slope on a cumulative 
average basis, which should tell us two things. First, that gentle 
upward trend disguises the thousands of innovative supply-side 
improvements and end-user efficiency gains that have kept the world 
well-supplied despite hundreds of interruptions, disruptions and 
dislocations; ongoing investment is the only reason we are doing as 
well as we are. Second, the trend line still slopes upward in spite of 
our technological prowess, which means that the real costs of our most 
abundantprimary energy source are rising, a reminder that we will 
eventually need to transition to a ``next fuel''.
    Technology-agnostic, low-cost loans for innovative technologies 
seem a good idea at any oil price.
        Responses of Kevin Book to Questions From Senator Corker
    Question 10. How have rising ECP (engineering, construction and 
procurement) costs affected the DOE management of the program? Does DOE 
see a need for Round 1 loan volume increases? If so how much? How 
should mismatched project costs to loan volume problems be handled in 
the future?
    Answer. Senator, I do not feel qualified to speculate on how rising 
ECP costs have influenced internal DOE decision-making. My own opinion, 
however, is that technology-specific funding constraints that prevent 
DOE from responding to industry demands for debt coverage are likely to 
distort the hoped-for outcomes envisioned by this Committee in the 2005 
Act. Nuclear power provides an example. ``Overnight'' costs for new 
nuclear power plants rose from an estimated $2,500/kW to an estimated 
$5,000-7,000kW since the Act was enacted. Other incentives in the Act 
converge towards an incremental 6,000 MW of capacity (6,000 MW of 
production tax credits and standby support for six new reactors). $18.5 
billion in debt coverage might have covered as many as nine reactors at 
the low end of the ECP range, but might be sufficient to cover only 
three to four reactors at the high end of the range.
    Question 11. In the absence of credit at reasonable commercial 
rates, what are the process and resource issues that need to be 
addressed to allow ancillary but essential project elements (e.g., CO2 
Off-takers in a Carbon Capture and Sequestration project (CCS)) to 
participate in the core project but under a separate loan guarantee?
    Answer. Credit terms notwithstanding, the widespread diffusion of 
CCS offtake agreements for permanent geological storage may require a 
clear framework that defines project sponsors' long-term liability at 
injection sites. This has recently become an insurable risk, but 
insurance adds yet another operating cost and greater uncertainty for 
players downstream from emissions sources. Policy tools like tax 
deductibility, publicly traded partnership status (which has been 
conferred to CO2 pipelines) and loan guarantees could potentially 
mitigate these additional operating costs.
    Question 12. How has the credit crisis affected the DOE loan 
guarantee program in general? How has the credit crisis affected the 
``credit assessment'' of projects faced with applications under due 
diligence this year (2009)?
    Answer. I would hypothesize that the credit crisis has diminished 
the willingness of commercial lenders to underwrite DOE-backed loans 
due to concerns about their own capital adequacy. Likewise, many 
project sponsors in a variety of capital-intensive industries, 
including energy and manufacturing, were downgraded by debt ratings 
agencies on the basis of their challenges meeting working capital needs 
in a frozen commercial paper market.
    Question 13. What does the DOE see as necessary changes to 
accommodate the Round 1 applicants under these relatively new economic 
circumstances? Does the full self-pay concept or rationale hold-up?
    Answer. Senator, I cannot speculate as to DOE's position regarding 
changes to the program, but I am happy to offer my view that full self-
pay may prove more challenging to innovative and financially mature 
applicants alike given straitened credit terms.
    Question 14. How can the NEPA process be expedited and accountable?
    Answer. Senator, I interpret your question to reflect concerns that 
streamlining the DOE's low-cost lending processes may do little to 
encourage the evolution of capture and storage technologies for 
commercial scale fossil energy producers as long as these projects face 
delays under NEPA review. I would suggest, if I have properly assessed 
your intent, that the existence of ``delay risk'' mitigation programs 
like ``standby support''--while a key component of encouraging project 
sponsors to undertake high-risk endeavors,may also be one of the 
signals that lawmakers may wish to review the unanticipated 
consequences of the environmental regulations governing energy 
projects. This might be a particularly useful counterpoint to a 
streamlined Title XVII or successor program.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

            Questions for Andy Karsner From Senator Bingaman
    Question 1. You express some frustration in your testimony with how 
the loan guarantee program took shape under the last Administration. I 
expect you might agree that at least some of the implementation 
problems were attributable to a certain ambivalence towards the program 
at other levels within the Administration. Given the priority and 
attention that the President and Secretary are giving this issue, do 
you think the program can meet the needs as it is currently 
constructed?
    Question 2. You have advocated for a quasi-governmental ``Clean 
Energy Bank'' to take over the functions of the loan guarantee program. 
Beyond the advantage in focus or additional resources that such an 
approach might bring, are there specific structural advantages an 
independent entity would hold over a similarly focused and strengthened 
program within DOE?
            Question for Andy Karsner From Senator Stabenow
    Question 3. The idea of a clean energy bank sounds promising. I 
agree that to make the leap that is required to commercialize and 
deploy the next generation of technology to produce energy and create 
jobs we need to have an array of financing options at our disposal to 
take the necessary risks with the private sector. Can you explain in 
more detail how a potential quasi-governmental agency can work with the 
traditional structure of DOE to mix new financing expertise with the 
extant technological expertise at DOE? Also please describe the 
characteristics of the different models that you mentioned in regards 
to the EX-IM Bank and the Overseas Private Investment Corporation and 
explain which ones are most important for success. Finally, is the 
Carbon Trust in the United Kingdom an example of a energy financing 
entity that lawmakers should examine as a model for a new clean energy 
bank and why or why not?
           Questions for Andy Karsner From Senator Murkowski
    Question 4. The industry and Congress have been waiting anxiously 
since 2005 for the current Title XVII Loan Guarantee Program to be 
stood up and to begin issuing guarantees. With the possible exception 
of Mr. Frantz you have each argued for the establishment of some sort 
of new agency that would provide a broader array of financial tools to 
the clean energy industry. At the same time you have each underscored 
the need for government support for clean energy technology in the 
short term. While the idea of a new agency may have merit, how do we 
get from here to there? How do we avoid waiting another 3-4 years while 
that organization gets established? Are there ways that we can 
facilitate the current Title XVII program in the near term while 
working to establish a broader capability for the future?
    Question 5. Is it possible for the Department of Energy to partner 
with the private sector to provide an efficient loan guarantee service 
while retaining control, or is it necessary to establish a private 
entity to make this work?
    Question 6. What legislative fixes are needed to the Title XVII 
program to make it function more smoothly? What fixes can be done 
administratively?
    Question 7. Is it more important to get the loan guarantee funds 
out to a multitude of projects that could be successful, or concentrate 
the money on a handful of the best projects that have a high likelihood 
of success?
    Question 8. Assuming a maximum contingent liability of $100 billion 
and that such an expansion were to be enacted by Congress, what do you 
believe is an acceptable rate of default for projects participating in 
a program of not just loan guarantees, but direct loans and other 
financial instruments?
    Question 9. In your written testimony you describe the endorsements 
of the Council on Competitiveness and the Energy Security Leadership 
Council for the creation of quasi-governmental organizations that can 
provide financial services for clean energy technology projects beyond 
what the Title XVII program can. I am concerned though that your own 
description of clean energy investments including ``... sun, wind, 
biomass, and geothermal heat ...'' does not seem to include nuclear 
energy which already avoids the emission of nearly 700 million metric 
tons of carbon dioxide annually. Even in the stimulus package we have 
seen the introduction of new loan guarantee authority specifically 
targeted to renewable energy while an amendment supporting the broader 
portfolio of clean energy technologies under the existing Title XVII 
program was removed. Do you agree that nuclear energy and clean coal 
technologies also have a place in the clean energy portfolio? And if 
so, how can we ensure that the type of quasi-governmental agency you 
advocate is equipped to handle the unique financial challenges faced by 
each of these technologies?
             Questions for Andy Karsner From Senator Corker
    Question 10. How have rising ECP (engineering, construction and 
procurement) costs affected the DOE management of the program? Does DOE 
see a need for Round 1 loan volume increases? If so how much? How 
should mismatched project costs to loan volume problems be handled in 
the future?
    Question 11. In the absence of credit at reasonable commercial 
rates, what are the process and resource issues that need to be 
addressed to allow ancillary but essential project elements (e.g., CO2 
Off-takers in a Carbon Capture and Sequestration project (CCS)) to 
participate in the core project but under a separate loan guarantee?
    Question 12. How has the credit crisis affected the DOE loan 
guarantee program in general? How has the credit crisis affected the 
``credit assessment'' of projects faced with applications under due 
diligence this year (2009)?
    Question 13. What does the DOE see as necessary changes to 
accommodate the Round 1 applicants under these relatively new economic 
circumstances? Does the full self-pay concept or rationale hold-up?
    Question 14. How can the NEPA process be expedited and accountable?
                                 ______
                                 
          Questions for David G. Frantz From Senator Bingaman
    Question 1. You have extensive experience in project financing from 
your former days at the Overseas Private Investment Corporation. Can 
you compare for us the different tools that were available to you there 
to support deployment that may have some applicability here?
    Question 2. In addition to the loan guarantee program authorized in 
the 2005 bill, the 2007 energy bill authorized a sizable new direct 
loan program for advanced automotive manufacturing to help push forward 
domestic production of fuel efficient vehicles. A significant 
difference in that program is that is it was provided with advanced 
funding for subsidy costs in October of last year. What advantages or 
challenges does this different funding structure present? Are there 
lessons we can draw from that program's implementation?
            Question for David G. Frantz From Senator Dorgan
    Question 3. The Energy Policy Act of 2005 authorized a Title V 
Indian Energy Loan Guarantee Program in addition to the Title 17 
Program. At last report, the Indian Energy Program was included by DOE 
in the Title XVII. However, the Title 17 program was authorized for 
innovative technologies, while the Title 5 program was broadly 
authorized for any energy development by Indian tribes. What steps have 
to taken to ensure that DOE's Loan Guarantee Program includes the 
purposes authorized for the Indian Energy Loan Guarantee Program? What 
steps have you taken to ensure that Indian tribes have knowledge of the 
loan guarantee program and can compete fairly for funding? Would the 
Indian Energy Loan Guarantee Program be better served if it was run 
separately from the general program, and supervised by the Director for 
Indian Energy Policy and Programs?
          Questions for David G. Frantz From Senator Stabenow
    Question 4. It is not apparent under either the statute or the 
Department of Energy (DOE) regulations whether pipelines for carbon 
capture would be eligible for a guarantee. As it stands the law seems 
broad as it allows ``Carbon capture and sequestration practices and 
technologies''. Without CO2 pipelines, the citing and construction of 
which involve significant costs, transporting the CO2 to sequestration 
sites will be very cost prohibitive. And as you all are aware, carbon 
capture will be vital to meeting future greenhouse gas obligations. 
Would a project to construct a pipeline to transport CO2 from an 
emissions source to a sequestration site (in connection with CO2 EOR), 
separate and distinct from the installation of carbon capture equipment 
at the emissions source, be eligible for a guarantee under the Title 
XVII Loan Guarantee Program (as defined ``Carbon capture and 
sequestration practices and technologies,'' EPAct 1703 (b)(5))?
    Question 5. In the small town of Morenci, Michigan, there is a 
plant called Palm Plastics. Palm Plastics has the distinction of being 
one of two sites in America that manufacture plastic shipping pallets 
for a company called Intelligent Global Pooling Systems or iGPS. These 
iGPS pallets are unique from other pallets in that they are 30% lighter 
than conventional pallets, which mean less weight to ship and therefore 
result in significant fuel savings and reduced pollution. These pallets 
are 100% recyclable, and therefore will never clog landfills. The 
growth of plastic shipping pallets throughout our supply chain will go 
a long way to save fuel and reduce greenhouse gases. I am proud to have 
these green jobs in my state making these pallets and would in fact 
like to see these precious manufacturing jobs grow. However, the credit 
crisis means that companies like iGPS cannot grow and they, like other 
companies, are turning to the federal government for capital. The text 
of Title XVII states that these loan guarantees are for projects that--
``avoid, reduce, or sequester air pollutants or anthropogenic emissions 
of greenhouse gases: and employ new or significantly improved 
technologies as opposed to commercial technologies in service in the US 
at the time the guarantee is issued. Commercial technology is defined 
as a technology in general use in the marketplace.'' Clearly, the 
lighter weight of an all-plastic pallet significantly reduces 
pollutants and greenhouse gases. Among the types of ``efficient end-use 
energy technologies'' to which the loan guarantee program applies, 
would those also include new technologies applicable to the nation's 
supply chain, including material transport and pallets, which 
significantly reduce pollutants and greenhouse gases?
          Questions for David G. Frantz From Senator Murkowski
    Question 6. The industry and Congress have been waiting anxiously 
since 2005 for the current Title XVII Loan Guarantee Program to be 
stood up and to begin issuing guarantees. With the possible exception 
of Mr. Frantz you have each argued for the establishment of some sort 
of new agency that would provide a broader array of financial tools to 
the clean energy industry. At the same time you have each underscored 
the need for government support for clean energy technology in the 
short term. While the idea of a new agency may have merit, how do we 
get from here to there? How do we avoid waiting another 3-4 years while 
that organization gets established? Are there ways that we can 
facilitate the current Title XVII program in the near term while 
working to establish a broader capability for the future?
    Question 7. Is it possible for the Department of Energy to partner 
with the private sector to provide an efficient loan guarantee service 
while retaining control, or is it necessary to establish a private 
entity to make this work?
    Question 8. What legislative fixes are needed to the Title XVII 
program to make it function more smoothly? What fixes can be done 
administratively?
    Question 9. Is it more important to get the loan guarantee funds 
out to a multitude of projects that could be successful, or concentrate 
the money on a handful of the best projects that have a high likelihood 
of success?
    Question 10. Assuming a maximum contingent liability of $100 
billion and that such an expansion were to be enacted by Congress, what 
do you believe is an acceptable rate of default for projects 
participating in a program of not just loan guarantees, but direct 
loans and other financial instruments?
    Question 11. One criticism of the Loan Guarantee Program has been 
that it operates more like a government procurement process rather than 
a commercial banking program. This leads to a time consuming 
solicitation followed by a lengthy comparative evaluation process 
before loan guarantees are issued. With the substantial interest shown 
by industry in this program combined by the economy's need for new 
investment it seems a more efficient process would be worth pursuing. 
Given the broad discretion granted to the Department of Energy under 
Title XVII to establish the most efficient process, could the 
Department implement a rolling review process similar to that used in 
other Federal loan guarantee programs? How do you think this would 
impact the Loan Guarantee Program?
    Question 12. Would a project to construct a pipeline to transport 
CO2 from an emissions source to a sequestration site (in connection 
with CO2 EOR), separate and distinct from the installation of carbon 
capture equipment at the emissions source, be eligible for a guarantee 
under the Title XVII Loan Guarantee Program (as "Carbon capture and 
sequestration practices and technologies," EPAct 1703 (b)(5))?
    Question 13. When can a decision be expected regarding the 
applications to the front end nuclear fuel cycle solicitation?
            Questions for David G. Frantz From Senator Burr
    Question 14. I understand that DOE has been notifying applicants 
for the loan guarantee program about the status of their applications, 
in particular whether the applicants are being considered in the 
``first tier'' for project structures that ``Accelerate Deployment of 
New Nuclear Capacity.''
    Question 15. Can you tell us how many applications the Application 
Evaluations and Rankings process determined to be first tier and how 
many represent ``viable alternatives?''
    Question 16. I noted that in one of your responses to an applicant, 
you stated, ``We will inform you promptly should this occur (should any 
other, more ready project be disqualified or withdraw) or if we receive 
additional authority to provide loan guarantees.''
    Question 17. What exactly does this mean? Does this mean the DOE is 
currently limited in the number of loan guarantees it can provide, not 
because of the viability of certain projects, but because Congress has 
arbitrarily capped the number of projects that can be provided with 
loan guarantees?
           Questions for David G. Frantz From Senator Corker
    Question 18. Do you believe that DOE should give priority to 
eligible and viable projects that are ``shovel ready'' to immediately 
address U.S. economic recovery? What specific actions are you taking to 
award loan guarantees to project applicants that can achieve rapid 
creation of new domestic jobs?
    Question 19. If the Department changed the current process of 
solicitations to a rolling review process, project applications could 
be considered as they are received and decisions could be expedited. Is 
there any statutory impediment as to why DOE cannot employ the rolling 
review process that has been successfully deployed elsewhere in 
business and government? Would you agree that there are projects that 
could move more quickly if the Department had such a business model in 
place?
    Question 20. How have rising ECP (engineering, construction and 
procurement) costs affected the DOE management of the program? Does DOE 
see a need for Round 1 loan volume increases? If so how much? How 
should mismatched project costs to loan volume problems be handled in 
the future?
    Question 21. In the absence of credit at reasonable commercial 
rates, what are the process and resource issues that need to be 
addressed to allow ancillary but essential project elements (e.g., CO2 
Off-takers in a Carbon Capture and Sequestration project (CCS)) to 
participate in the core project but under a separate loan guarantee?
    Question 22. How has the credit crisis affected the DOE loan 
guarantee program in general? How has the credit crisis affected the 
``credit assessment'' of projects faced with applications under due 
diligence this year (2009)?
    Question 23. What does the DOE see as necessary changes to 
accommodate the Round 1 applicants under these relatively new economic 
circumstances? Does the full self-pay concept or rationale hold-up?
    Question 24. How can the NEPA process be expedited and accountable?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Statement of Chris Devers, Chairman, Pauma Band of Mission Indians and 
              Chairman, Council of Energy Resource Tribes
                              introduction
    Good morning Chairman Bingaman, Ranking Member Murkowski, and 
distinguished members of the Committee on Energy and Natural Resources. 
My name is Chris Devers and I am the Chairman of the Pauma Band of 
Mission Indians. I am also Chairman of the Council of Energy Resource 
Tribes (``CERT'').
    On behalf of CERT's member tribes I am pleased to submit this 
statement for the Committee's consideration relating to the Department 
of Energy's Guaranteed Loan Program and matters related to Indian 
tribal energy development.
    Founded in 1975 during what was then known as the ``Arab Oil 
Embargo'', CERT is headquartered in Denver, CO, and boasts 57 member 
Indian tribes. CERT's member tribes are actively engaged in the 
development and production of renewable and non-renewable sources of 
energy from coast to coast. CERT's mission is to support member tribes 
in the development of their management capabilities and the use of 
their energy resources to foster tribal economic development and 
political self-governance. CERT is governed by a Board of Directors 
comprised of the principal elected leadership of CERT's member Indian 
tribes.
                the unfulfilled promise of indian energy
    American Indian tribes and their energy resources hold enormous 
potential to create jobs, generate revenues, and aid in the American 
economy's need for a stable energy supply. Three factors contribute to 
this scenario:

  <bullet> The significant reserves of tradition sources of energy such 
        as oil, gas, and coal, as well as the unleashed potential of 
        renewable resources owned by Indian tribes;
  <bullet> The pricing environment for energy products; and
  <bullet> The enactment in 2005 of a classically liberal, pro-
        production energy policy.
A. Indian Tribal Energy Resources and the Pricing Environment
    Indian tribes in the lower 48 states--especially those in the Rocky 
Mountain west--own an enormous amount of energy resources. With the 
current Federal restrictions on exploring for energy in the Great 
Lakes, the eastern portion of the Gulf of Mexico, the California 
coastline, and ANWR, Indian tribal resources and lands in the Rockies 
present one of the most significant opportunities for domestic 
production in the United States.
    In what is now a dated analysis, in 2001 the U.S. Department of the 
Interior (the Department) estimated the total dollar value of energy 
produced from Indian tribal lands for the period 1934-2001 to be $34 
billion. These revenues derived from 743 million tons of coal, 6.5 
billion cubic feet of natural gas, and 1.6 million barrels of oil. In 
terms of undeveloped reserves and undiscovered resources, the 
Department also projected that tribal lands could prospectively 
generate $875 billion, derived from 53 billion tons of coal, 37 billion 
cubic feet of natural gas, and 5.3 million barrels of oil. These 
projections were made in 2001 and in the intervening 7 years, the price 
of energy products has increased significantly.
    If the Department conducted an updated analysis using current 
pricing data, the total revenue projection would be increased by 
hundreds of billions dollars.
B. The New Indian Tribal Energy Laws
    On August 8, 2005, President Bush signed into law the Energy Policy 
Act of 2005 (Pub.L. 109-58) which included as title V the Indian Tribal 
Energy Development and Self Determination Act. The new law authorizes a 
variety of Federal technical and financial assistance to participating 
tribes and seeks to reduce administrative obstacles at the Federal 
level to greater levels of energy development on tribal lands.
    Unlike some congressional enactments, the new Indian tribal energy 
law does not discriminate in terms of renewable versus non-renewable 
resources. Instead, the law leaves to the Indian tribe and the market 
the decision on whether and under what circumstances to develop energy 
on tribal lands. The centerpiece of the new law is the authority 
provided to the Secretary of the Interior to negotiate and enter 
agreements with willing tribes that would govern energy and related 
environmental activities on tribal lands.
    These agreements, known as Tribal Energy Resource Agreements or 
``TERAs'', posit a reduced role for the Secretary and an enhanced role 
for the tribe but only if the tribe has the requisite financial, 
regulatory, and technical expertise (called ``capacity'' in the new 
law) to develop their resources, and regulate the physical environment 
in a responsible manner. Once a tribe has an approved TERA, it (and not 
the Secretary) may negotiate and enter agreements with outside parties 
without the review or approval of the Federal government.
C. The Federal Apparatus is Complete, Next Step Project Development
    The new Indian tribal energy law was signed into law in 2005 and 
the regulations to implement it went into effect in April 2008. The 
Congress has seen fit to appropriate money to fund both the Department 
of Interior's Office of Indian Energy and Economic Development, and the 
Department of Energy's Office of Indian Policy and Programs.
    The Federal side of the equation has been completed, then, and the 
next steps involve Indian tribes inventorying their energy resources, 
identifying potential projects, and working with energy and financial 
partners to bring these projects to completion.
       financial assistance for indian energy project development
    In the past several years, CERT has been very active on the 
legislative and policy front and was instrumental in the development 
and passage of the Indian Tribal Energy Development and Self 
Determination Act of 2005 as well as the passage of the Energy 
Independence and Security Act of 2007.
    The 2005 law is particularly important in that it seeks to maximize 
tribal decision-making authority and authorizes a comprehensive set of 
assistance programs housed in both the Department of Energy and the 
Department of the Interior to design, develop, and manage energy 
development projects on tribal lands. One of the programs designed to 
assist tribes in this regard is the ``Department of Energy Guaranteed 
Loan Program'' contained in 25 U.S.C. Sec. 3502(c).
    Section 3502 authorizes the Secretary of the Energy to provide loan 
guarantees for an amount equal to not more than 90 percent of the 
unpaid principal and interest due on any loan made to an Indian tribe 
``for energy development.'' The total outstanding amount of loans 
guaranteed by the Secretary may not exceed $2 billion.
    The loans which are eligible for the guarantee are loans made by 
financial institutions subject to examination by the Secretary or loans 
made by an Indian tribe, using funds of that tribe.
    Sadly, since the enactment of this provision in 2005, the 
Department has failed to implement the Indian loan guarantee program. 
The Department has also failed to submit to Congress a report on the 
financing requirements of Indian tribes for energy development on 
Indian land, as required by section 3502(c)(7). These failures have 
occurred despite the large number of renewable and non-renewable energy 
projects that are poised for development on tribal lands.
                    observations and recommendations
    Section 17 of the Energy Policy Act of 2005 (``Incentives for 
Innovative Technologies'') directs the Secretary to issue loan 
guarantees in an amount equal to 80 percent of the project cost of the 
facility that is subject to the guarantee. Section 1703 lists two 
general categories of eligible projects including those that would (1) 
avoid, reduce, or sequester greenhouse gas emissions and (2) employ new 
or significantly improved technologies as compared to commercial 
technologies.
    Specific types of projects that would be eligible include the 
following:

          1. Renewable energy systems;
          2. Advanced fossil energy technology;
          3. Hydrogen fuel cell technology;
          4. Advanced nuclear energy facilities;
          5. Carbon capture and sequestration including agricultural 
        and forestry practices that store and capture carbon;
          6. Efficient electrical generation, transmission, and 
        distribution technologies;
          7. Efficient end-use technologies;
          8. Production facilities for fuel-efficient vehicles, 
        including hybrid and advanced diesel vehicles;
          9. Pollution control equipment; and
          10. Refineries, meaning facilities at which crude oil is 
        refined into gasoline.

    Section 3502's Indian Guaranteed Loan Program has never been 
implemented and yet there are scores of projects on tribal lands not 
being undertaken delayed because of a lack of financing. At the same 
time, there is nothing in the language of Title 17's loan guarantee 
appears to suggest that Indian tribes or tribal projects are ineligible 
for guarantees issued by the Secretary under the authority of Section 
1702.
    Accordingly, CERT encourages the Committee to urge the Department 
to consult with Indian tribes on the issue of loan guarantees and 
project financing on tribal lands.
                               conclusion
    I thank the Chairman and the Committee for this opportunity and 
your ongoing support of tribal energy development and the needs of 
Indian communities nationwide.
                                 ______
                                 
                         Magellan Midstream Partners, L.P.,
                                      Tulsa, OK, February 12, 2009.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resource, U.S. Senate, 
        304 Dirksen Senate Office Building, Washington, DC.
RE: Hearing to examine the Department of Energy Loan Guarantee Program, 
authorized under Title 17 of the Energy Policy Act of 2005, and how the 
delivery of services to support the deployment of clean energy 
technologies might be improved

    Dear Chairman Bingaman and Ranking Member Murkowski: Magellan 
Midstream Partners, L.P. owns and operates the longest refined 
petroleum pipeline in the United States, which crosses thirteen states 
and over 8,500 miles of pipeline. We have partnered with Buckeye 
Partners, LP, which owns and operates nearly 5,400 miles of refined 
petroleum pipeline. Our collective goal is to develop the first ever 
``dedicated ethanol pipeline,'' which we call the ``Independence 
Pipeline.'' The Independence project is a 1,700 mile, $3.5 billion 
renewable fuel pipeline project, which currently originates in 
Minnesota and Iowa, travels through seven states, and ends in the New 
York Harbor.
    The project would create 25,000 jobs per year during construction 
of the project, would decrease the cost of delivered ethanol to the 
east coast, and would safely and efficiently deliver more than 10 
million gallons of ethanol per day to millions of northeastern 
motorists.
    This large-scale renewable fuel pipeline project is dependent on 
expanding the loan guarantee program authorized under Title 17 of the 
Energy Policy Act of 2005. This is a huge project and expansion of the 
loan guarantee program is necessary if Congress intends to support this 
Administration's goal to dramatically increase the utilization of 
renewable fuels throughout the United States. There is no doubt, 
pipelines offer the safest, most reliable and cost effective method of 
transporting the volumes required under the federal renewable fuels 
program.
    We are pursuing a 90% loan guarantee, which in our view, is 
necessary to complete the project.
    Throughout the past year, we have met with the Department of Energy 
a number of times to better understand whether it is possible to expand 
the current loan guarantee program. We believe it is. Although we are 
concerned the Department of Energy is reluctant to provide any loan 
guarantee higher than 60% of the total cost of a project. In these 
difficult economic times, we think it is necessary for Congress and the 
Administration to assist industry in building the infrastructure that 
will allow our Nation to increase its dependence on domestic energy 
supplies. In most cases, a 60% loan guarantee program is not sufficient 
to meet the needs of industry.
    Secondly, prepayment of the credit subsidy will prove to be 
prohibitive for some companies, especially, as in our case, if the size 
of the project is $3.5 billion. In order to encourage projects of this 
size to move forward, we would encourage you to consider allowing the 
credit subsidy to be waived in certain cases. Specifically, Congress 
could allow the Secretary of Energy to waive the credit subsidy if 
certain priorities that benefit consumers are met.
    Congress has indicated renewable fuels will have an increasingly 
important role in our domestic energy policy and the growing national 
demand for renewable fuels will create potential opportunities to 
construct more efficient transportation infrastructure across the 
United States. We believe the necessary long-term solution for 
efficient renewable fuel transportation is a large-scale pipeline 
system. Therefore, we urge you to expand the loan guarantee program to 
include funding for renewable fuel pipeline projects.
    I look forward to discussing this issue with you and other Senators 
in greater detail.
            Sincerely,
                                            Bruce W. Heine,
                          Director of Government and Media Affairs.
                                 ______
                                 
  Statement of Glenn English, Chief Executive Officer, National Rural 
            Electric Cooperative Association, Arlington, VA
            the department of energy loan guarantee program
    I am pleased to provide information about a program of great 
importance to the members of the National Rural Electric Cooperative 
Association--the Department of Energy's (DOE) Loan Guarantee Program. 
The Loan Guarantee Program provides a much needed commitment from the 
federal government to join with the electric utility industry in 
updating the nation's electric generation infrastructure with 
technologies that avoid greenhouse gas emissions, including nuclear, 
carbon capture and sequestration (CCS) and renewable technologies. I 
commend the Committee for their examination of the status of this vital 
program, and will comment on a specific aspect that is limiting the 
ability of electric cooperatives to participate. Specifically, the DOE 
loan guarantee program currently discriminates against joint ownership 
structures commonly utilized by electric cooperative, municipal and 
investor-owned utilities.
                  background on electric cooperatives
    NRECA is the national service organization representing the 
interests of electric cooperative utilities and their consumers. In 
addition to advocating consensus views on legislative and regulatory 
issues, NRECA provides health care, pension, financial investment and 
many other programs for its members.
    Electric cooperatives are not-for-profit, private businesses 
governed by their consumers (known as ``member-owners''). Today, 930 
electric cooperatives serve 42 million consumers in 47 states. 
Cooperatives are a unique sector of the electric utility industry, 
serving an average of only 7 consumers per mile compared with the 35 
customers per mile served by investor-owned utilities (IOUs) and 47 
customers per mile served by municipal utilities. To put this in 
greater perspective, electric cooperatives serve only 12% of the 
population--but maintain 42% of the nation's electricity distribution 
lines covering three quarters of the land mass.
    electric cooperatives balance increased demand with greenhouse 
                             gas reductions
    The electric cooperative sector is growing at twice the rate of the 
other utility sectors because people are moving to co-op service areas. 
The U.S. Energy Information Administration forecasts that by 2030, 
demand for electricity will be 28 percent higher, the equivalent of 
adding four Californias to the power grid. In some regions, demand will 
soon outstrip supply, according to the North America Electric 
Reliability Corporation.
    At the same time electric cooperatives are meeting these demands, 
co-ops are deploying technologies that will help to meet environmental 
goals. Renewable resources, efficiency investments, technologies to 
capture and store carbon from coal plants and nuclear energy are all 
equally important to meeting demand and reducing greenhouse gas 
emissions. These technologies must all be made available in order to 
fulfill our mission of providing affordable and reliable electricity, 
and to modernize the nation's infrastructure.
    The DOE Loan Guarantee program is more important than ever in this 
time of scarce lending. Despite the fact that the program has been 
severely underfunded, electric cooperatives have pending applications 
in partnership with others to finance nuclear projects. Those projects 
are already creating jobs that will ramp up in the near term. Electric 
cooperatives have also initiated millions of dollars in renewable 
electricity projects under the Clean Renewable Energy Bond program, 
have been recognized by the Federal Energy Regulatory Commission as 
national leaders in deploying ``smart meters'' and are demonstrating 
carbon capture technologies. Cooperatives are working in all of these 
areas because no stone can be left unturned to both meet increasing 
demand for electricity and achieve environmental goals.
  the doe loan guarantee program discriminates against joint ownership
    Electric cooperatives were pleased to see that the Senate-passed 
stimulus bill includes an additional $50 billion in loan guarantee 
authority for DOE. This additional authority appropriately reflects the 
magnitude of anticipated electricity demand, and I urge conferees to 
maintain the Senate authority level. But there is an equally critical 
issue yet to be addressed that I would like to bring to the attention 
of this Committee. Under DOE's current interpretation of the program, 
electric cooperatives and other utilities are severely hampered in 
their ability to tap the program, whether it be for nuclear, clean coal 
or renewable technologies.
    By way of example, one electric cooperative and one public power 
system that distributes power to electric cooperative consumers have 
applications pending before the Department of Energy for loan 
guarantees for nuclear projects, and more electric cooperatives are 
expected to seek to tap this program in the near future. Yet, late in 
2008, DOE effectively disqualified loan guarantee applicants with 
traditional ``undivided ownership'' interest structures (i.e., those 
entities jointly owning a project, but financing each ownership 
interest independently). The traditional undivided ownership interest 
structure is used commonly for large, capital intensive projects such 
as base load power plants in order to effect joint ownership of a 
single plant among investor-owned, municipal and cooperative utilities. 
Such arrangements permit utilities with adjacent service territories to 
share risks and size generation resources appropriately to current and 
future demand. DOE's interpretation of the loan guarantee statute to 
disallow this structure is unnecessarily restrictive and will 
disqualify many utilities, including electric cooperatives, municipal 
utilities and investor-owned utilities from seeking loan guarantees for 
nuclear or other generation resources under this very common structure.
    DOE's current interpretation of the statute severely limits the 
effectiveness of the guarantee program in a manner that was not 
intended by Congress. The federal government, through the U.S 
Department of Agriculture Rural Utilities Service has been accepting 
``undivided ownership'' structures for decades. As a practical matter, 
DOE's interpretation will make the DOE loan guarantee program 
unavailable for many new power plants. If these projects are to move 
forward without a DOE loan and with today's scarce private lending at 
high rates, the price tag for the new power projects--and thus their 
costs to ratepayers--could nearly double.
    Electric cooperatives submitted preliminary applications in 
September of 2008 seeking loan guarantees under a traditional undivided 
ownership interest structure, and paid a non-refundable $200,000 fee. 
DOE initially informed these applicants that they were highly ranked in 
the queue for funds, but surprised them in December of 2008 by 
asserting that traditional undivided ownership interest structures were 
unacceptable. This assertion came just four days prior to the deadline 
for final applications. Co-ops and other applicants, with much time and 
money already invested in joint venture projects, had little choice but 
to move ahead and pay an additional, non-refundable $600,000 fee for 
submitting the final application. The applications have been submitted 
in hopes that DOE's interpretation can be corrected to accommodate 
undivided ownership interest structures.
    The payment of this fee demonstrates that co-ops are committed to 
critical new capacity with low or zero greenhouse gas emissions. I urge 
Congress and DOE to demonstrate that they share this commitment and to 
develop a solution as soon as possible this year that will prevent 
discrimination against joint ownership structures, keep projects moving 
forward and limit the need for private financing that will be costly 
for ratepayers. Time is of the essence in resolving the issue, as 
applicants are responding to an unanticipated, adverse decision by DOE 
despite being far along in project spending and commitments.
                               conclusion
    I commend the Senate Energy and Natural Resources Committee for 
this hearing examining the DOE Loan Guarantee program. The program is 
increasingly important to electric cooperatives as we take on the 
challenge of meeting increased demand while doing our part to reduce 
greenhouse gas emissions. I look forward to the opportunity to work 
with this Committee to overcome the obstacles to participation by 
undivided ownership interest structures in the DOE loan guarantee 
program.
                                 ______
                                 
    Statement of David Arfin, Vice President of Customer Financing 
                            SolarCity, Inc.
    Chairman Bingaman, Senator Murkowski and Honored Committee Members:
    Thank you for the opportunity to share SolarCity's perspective on 
opportunities for the Department of Energy's Title XVII Loan Guarantee 
Program to help drive a robust, domestic renewable energy industry. 
This hearing is both timely and important, given the program's 
challenges to date and the possibility it may expand dramatically as 
part of the pending economic recovery legislation.
    SolarCity is a young company with some notable achievements driven 
by a vision for helping to create a clean, renewable energy society. In 
our first two and a half years, SolarCity has grown into the largest 
residential solar installer in the United States, by reservation 
volume. We directly employ more than 300 workers in three states 
(California, Arizona and Oregon) and estimate that we have helped to 
create 2,000 indirect American jobs. We are actively planning for rapid 
national expansion by partnering with local contractors and hope to 
more than triple these numbers in the next three years. All of the 
solar panels we install are manufactured in the U.S. Our efforts have 
been recognized by the Aspen Institute's Energy and Environment Award, 
and our growth has received national media attention, featured by PBS, 
NPR, Fox Business News, CNBC, the Wall Street Journal, the New York 
Times and hundreds of other media outlets.
    The key drivers of SolarCity's growth have been three-fold: a) a 
business model that combines private investment and public incentives 
and doesn't overburden either resource ; b) a scalable operations model 
and technology innovations that have driven down the cost of 
installations while delivering consistently reliable performance; and 
c) our ability to provide turn-key solar energy solutions for 
homeowners and businesses who want to go solar, simplifying a maze of 
financial and regulatory issues and enabling our customers to lower 
their electricity costs. By touching so many homes and businesses with 
relatively small systems, we create construction jobs that can't be 
outsourced, and allow more citizens to reduce greenhouse gas pollution 
and alleviate dependence on foreign energy sources.
    Given the current state of the capital markets, we are delighted 
that Congress is considering ways to expand the Title XVII loan 
guarantee program to include a broader universe of commercial renewable 
energy technologies. When coupled with the pending changes allowing for 
a grant in lieu of the Investment Tax Credit, the result can be a very 
effective means of revitalizing a critical domestic industry that has 
become crippled by the current credit crisis and recent collapse of the 
tax equity markets.
    As you consider ways to ensure the most effective implementation of 
this program, we believe there are four overarching areas that are 
important for Congress to consider in its deliberations, with a view 
toward the Department of Energy's administration of Title XVII:

          The new loan guarantee program envisioned under Section 1705 
        of the pending House and Senate economic recovery proposals 
        should allow small renewable energy installations to be 
        aggregated into larger portfolios and efficiently processed by 
        the Department of Energy.--Residential installations are 
        generally small, averaging four to five kilowatts per home. 
        These installations result in consumer savings, reduce 
        homeowners' carbon footprint and create green jobs in the 
        process--consistent with the President's policy goals for the 
        economic recovery package. We do not wish to overburden the 
        program office with many applications for small projects. Thus, 
        in order for companies like SolarCity to make efficient use of 
        the new renewable energy loan guarantee program, the Department 
        of Energy should allow aggregation of these smaller projects 
        into larger ``buckets'' in the administration process; we 
        suggest that the minimum ``bucket'' for submission to the 
        program be $2 million.
          Prioritize near-term projects that are vital to timely job 
        retention and creation.--Administration of the renewable loan 
        guarantee program must quickly prioritize shovel-ready projects 
        that can create jobs in the first half of 2009. SolarCity, for 
        example, has hundreds of projects ready to be installed at 
        customer sites. Our ``green collar'' jobs are not limited to 
        the installation sector; SolarCity employs two workers in the 
        customer service, sales and finance areas for every pair of 
        ``boots on the roof''. To guarantee maximum impact of the new 
        loan guarantee program, we suggest the Department of Energy 
        prioritize projects that can be permitted, built and placed in 
        service now. As these projects begin to move forward, it will 
        help boost confidence and thaw frozen credit markets.
          Encourage certainty, throughput and visibility.--It is 
        critical that the new loan guarantee program be both credible 
        and creditable to the public and to renewable developers alike. 
        Once certain viability thresholds have been met, sponsors for 
        those renewable energy projects of less than $5 million should 
        be guaranteed a ``place in the queue,'' prior to construction 
        and the placed-in-service date. Similar to the ratemaking 
        practice of ``construction work in progress''--which allows 
        utilities to get recovery of their expenses prior to the actual 
        start date of construction--renewable energy developers need 
        capital to enable them to move forward.
          Another important factor is the need for a fast response, 
        particularly for smaller projects. We need a short, 
        standardized form and predictable outcomes with reasonable 
        processing times. Certainty and simplicity are critical if the 
        program is to have the intended impact on renewable energy 
        project development during these difficult economic times. 
        Reliable loan support will be a key factor in attracting 
        private project capital.
          In addition, it will be extremely difficult for the program 
        to move at a predictable, acceptable pace if we add additional 
        agency approval processes, such as one whereby the Office of 
        Management and Budget must approve each transaction already 
        reviewed by the Department of Energy. This program needs to 
        move forward expeditiously to adopt rules that will allow money 
        to flow to developers, and not get bogged down in overlapping 
        and duplicative inter-agency administrative reviews.
          Allow flexibility for projects that receive federal 
        guarantees.--The solar industry needs flexibility in financing 
        mechanisms at this critical time, when private capital remains 
        difficult to find despite the proven nature of existing 
        technologies and business models. Receiving a cash grant for 30 
        percent of a project's cost (or a bundle of projects' cost) 
        should not preclude developers from receiving a federally-
        guaranteed loan through the new DOE program for the balance of 
        the project costs. Similarly, solar assets have an expected 
        life of 30 years; as such, loan guarantees with a minimum term 
        of 20 years would be most useful in the current fiscal climate.

    Thank you for the opportunity to submit this testimony. SolarCity 
has a proven track record of delivering solar solutions, and we are 
eager to continue making these benefits accessible to consumers and 
workers across the nation. As Congress and the new Administration look 
for ways to ensure continued growth of the renewable energy sector in 
these challenging economic times, we stand ready to assist you by 
providing the perspectives of an innovative start-up company navigating 
the current capital market realities.
    Thank you for your consideration.
                                 ______
                                 
    Dear Senator Bingaman and members of the committee: The undersigned 
companies offer this testimony for inclusion in the record of your 
February 12th hearing on the Department of Energy's Loan Guarantee 
Program. We appreciate your interest in and leadership on this issue.
    In 2006, the Department of Energy issued its first round 
solicitation (``Round 1'') inviting pre-applications for loan 
guarantees under the EPAct 2005 Loan Guarantee Program. Out of a 
reported 143 responses to its Round 1 loan guarantee solicitation, DOE 
selected 16 projects in late 2007 and invited those projects to submit 
formal applications in November 2008. In late 2008 DOE apparently 
accepted completed Round 1 applications from 11 different clean energy 
projects. Each of the undersigned companies has participated in Round 1 
and expended substantial time and resources over the past three years 
to become one of the 11 projects farthest along in the loan guarantee 
process. Given our status as selected Loan Guarantee Program 
beneficiaries with the most advanced projects in the country, we 
believe we are uniquely positioned to offer these comments for your 
consideration as you explore how the EPAct 2005 Loan Guarantee Program 
can be improved.
    The Round 1 projects, given their advanced stage of development, 
are uniquely positioned to advance critical national energy policy 
goals while also providing significant near-term stimulus to our 
economy. The near term deployment of the innovative clean energy 
technologies represented by the Round 1 projects is threatened by the 
broader financial and credit crises. With targeted fixes, the Round 1 
solicitation is ready to provide timely economic stimulus while 
commercializing clean energy technologies. We respectfully observe that 
with the following few modifications to the current loan guarantee 
program, the Round 1 projects will be able to move forward quickly to 
achieve the goals of the loan guarantee program while adding thousands 
of good jobs around the country.
    Fully fund all pending Round 1 guarantees.--It is essential that 
the volume allocation for the first round solicitation be sufficient 
for the selected projects. The existing appropriation of a volume 
allocation of $4 billion is far short of what would be needed to fund 
the Round 1 projects. Applicants have been notified that inadequate 
funding has been provided for Round 1. This jeopardizes the 
implementation of the most advanced projects in the loan guarantee 
program and the substantial job creation associated with those projects 
unless the Round 1 allocation is increased. Increasing the authorized 
volume of guarantees for Round 1, or re-allocating a portion of the 
volume previously authorized for later round solicitations to Round 1, 
would ensure that all Round 1 projects are fully funded and can proceed 
in a timely way.
    Further, the increased volume should also provide levels and access 
to capital for essential projects directly related to the core Round 1 
project. For example, the credit crisis has destroyed pre-credit crisis 
project assumptions about separately and commercially financed CO2 off-
taker investments. Off-takers should be allowed access to capital in 
amounts, at rates and with Federal processes that are aligned with the 
core project FLG process.
    Appropriate the credit subsidy cost of Round 1 projects.--In the 
absence of an appropriation to cover the credit subsidy cost of 
projects under section 1702(b) of EPAct, each of the projects 
participating in the loan guarantee program will be required to provide 
funding to cover the credit subsidy cost determined by the loan 
guarantee office. Private funding of the credit subsidy cost impedes 
the ability to rapidly commercialize the cutting edge technologies 
represented by the Round 1 projects, defeating one of the core purposes 
of the loan guarantee program. The credit subsidy cost will materially 
increase the cost of projects, and will be particularly difficult for 
projects that might include participation by non-profit public 
entities, such as municipal or cooperative utilities. Appropriating the 
credit subsidy cost for the Round 1 projects will ensure that they move 
forward quickly.
    Require fees to be paid only upon issuance of the guarantee.--The 
current program rules require a Facility Fee, which can be substantial, 
to be paid upon credit board approval, far in advance of the closing of 
a transaction and actual issuance of the loan guarantee. Instead, the 
rules should provide that such fees are to be collected upon actual 
issuance of the loan guarantee, and that issuance of the final loan 
guarantee is conditioned on payment in full of such fees.
    Ensure that the currently pending Round 1 projects proceed through 
the existing loan guarantee program process.--Current Round 1 
applications have been in process since 2006 and have made substantial 
progress working through all of the requirements necessary for any loan 
guarantee program recipient. To the extent any separate or parallel 
loan guarantee program might be established it is imperative that 
current applications in process not be undermined since the Round 1 
projects will be the first to achieve the EPAct 2005 loan guarantee 
program goals and can create jobs now.
    We believe these enhancements to the program will ensure 
implementation of a successful loan guarantee program. It appears that 
DOE's loan guarantee office is now appropriately staffed to move the 
Round 1 projects through the process efficiently provided that 
sufficient volume is appropriated to cover all of the Round 1 projects. 
While the rulemaking and office staffing processes may have taken 
longer than hoped, they were essential to setting up a program that 
will work.
    Thank you very much for the opportunity to provide comments and 
help ensure the loan guarantee program achieves its vital goals.
                                         BrightSource Energy, Inc.,
  The Mesaba Energy Project, a subsidiary of Excelsior Energy Inc.,
                              TX Energy (Eastman Chemical Company),
                                        SAGE Electrochromics, Inc.,
             Westbank Biofuels Project (Endicott Biofuels II, LLC).
                                 ______
                                 
  Statement of Marvin S. Fertel, Acting President and Chief Executive 
                   Officer, Nuclear Energy Institute
    The Nuclear Energy Institute appreciates the opportunity to provide 
this testimony for the record of the committee's hearing on the loan 
guarantee program authorized by the Energy Policy Act of 2005, 
administered by the Department of Energy (DOE).
    The Nuclear Energy Institute (NEI) is responsible for establishing 
unified nuclear industry policy on regulatory, financial, technical and 
legislative issues affecting the industry. NEI members include all 
companies licensed to operate commercial nuclear power plants in the 
United States, nuclear plant designers, major architect/engineering 
firms, fuel fabrication facilities, materials licensees, and other 
organizations and individuals involved in the nuclear energy industry.
    In this statement, NEI will discuss:

          1. the importance of the Title XVII loan guarantee program in 
        supporting the financing of new nuclear power plants and other 
        technologies
          2. some of the difficulties encountered during implementation 
        of the loan guarantee program, and
          3. suggestions on how to improve implementation and 
        restructure the program for long-term success.

            i. the importance of the loan guarantee program
    The loan guarantee program created by Title XVII of the Energy 
Policy Act is an essential and appropriate mechanism to enable 
financing of clean energy technologies. In fact, an effective and 
workable loan guarantee program is significantly more important today 
than it was when the Energy Policy Act was enacted in 2005.
    Loan guarantees are a powerful tool and an efficient way to 
mobilize private capital. The federal government manages a loan 
guarantee portfolio of approximately $1.1 trillion, to ensure necessary 
investment in critical national needs, including shipbuilding, 
transportation infrastructure, exports of U.S. goods and services, 
affordable housing, and many other purposes. Supporting investment in 
critical energy infrastructure (including new nuclear power plants) is 
a national imperative, and there is no reason that the energy loan 
guarantee program cannot be as successful as the Export-Import Bank and 
other federal loan guarantee programs.
    The Title XVII loan guarantee program includes 10 technologies that 
are eligible for loan guarantees. They include renewable energy 
systems, advanced fossil energy technology (including coal 
gasification), hydrogen fuel cell technology for residential, 
industrial, or transportation applications, advanced nuclear energy 
facilities, efficient electrical generation, transmission, and 
distribution technologies, efficient end-use energy technologies, 
production facilities for fuel efficient vehicles, including hybrid and 
advanced diesel vehicles, and pollution control equipment. Each of 
these technologies presents different financing challenges.
    Nuclear power is a capital-intensive technology. NEI estimates a 
new nuclear power plant could cost $6-8 billion, including financing 
costs. This large capital investment does not mean that new nuclear 
plants will not be competitive. Capital cost is certainly an important 
factor in financing, but it is not the sole determinant of a plant's 
competitive position. What matters is the cost of electricity from the 
plant at the time it starts commercial operation relative to the other 
alternatives available at that time. Based on NEI's own modeling, on 
the financial analysis performed by companies developing new nuclear 
projects, and on independent analysis by others, NEI believes that new 
nuclear capacity will be competitive and profitable.
    For new nuclear power plants, the financing challenge is 
structural. The U.S. electric power sector consists of many relatively 
small companies, which do not have the size, financing capability or 
financial strength to finance power projects of this scale on their 
own, in the numbers required. Loan guarantees offset the disparity in 
scale between project size and company size. Loan guarantees allow the 
companies to use project-finance-type structures, to employ higher 
leverage in the project's capital structure, and to insulate the 
project sponsor's balance sheet from the project's credit risk, in 
whole or in part. Absent the loan guarantee, financing one of these 
projects on balance sheet could have negative consequences: stress on 
cash flow, stress on credit quality, earnings-per-share dilution from 
issuance of new equity.
    The financing challenges are, of course, somewhat different for the 
regulated integrated utilities than for the merchant generating 
companies in those states that have restructured. But these challenges 
can be managed, with appropriate rate treatment from state regulators 
or credit support from the federal government's loan guarantee program, 
or a combination of both.
    Supportive state policies include recovery of development costs as 
they are incurred, and Construction Work in Progress or CWIP, which 
allows recovery of financing costs during construction. Many of the 
states where new nuclear plants are planned--including Florida, 
Virginia, Texas, Louisiana, Mississippi, North Carolina and South 
Carolina--have passed legislation or implemented new regulations to 
encourage construction of new nuclear power plants by providing 
financing support and assurance of investment recovery. By itself, 
however, this state support is not sufficient. The federal government 
must also provide financing support for deployment of clean energy 
technologies in the numbers necessary to address growing U.S. 
electricity needs and reduce carbon emissions.
    The Title XVII loan guarantee program also represents an innovative 
departure from other federal loan guarantee programs. It is structured 
to be self-financing, so that companies receiving loan guarantees pay 
the cost to the government of providing the guarantee, and all 
administrative costs. For this reason, a Title XVII loan guarantee 
program is not a subsidy. In a well-managed program, in which projects 
are selected based on creditworthiness, extensive due diligence and 
strong credit metrics, there is minimal risk of default, and minimal 
risk to the taxpayer. In fact, the federal government will receive 
substantial payments from project sponsors.
      ii. difficulties with implementation of the title xvii loan 
                           guarantee program
    Since enactment of the Energy Policy Act in August 2005, achieving 
workable implementation of the Title XVII loan guarantee program has 
been a challenge. In part, this reflects the previous Administration's 
initial skepticism about the program. The previous Administration's 
reluctance to implement an effective and workable program is evident 
from the amount of time--two years after enactment of the Energy Policy 
Act--before it established a Loan Guarantee Program Office and 
announced the appointment of a permanent director in August 2007. Many 
of NEI's concerns about implementation, including major disagreements 
over interpretation of the statutory language by the Department of 
Energy, are amply documented in NEI's comments on the Notice of 
Proposed Rulemaking, filed with DOE in July 2007. Many of those 
concerns were not addressed in the Final Rule promulgated later that 
year.
    The implementation difficulties encountered by NEI member companies 
developing new nuclear projects thus predate formation of the Loan 
Guarantee Program Office. In fact, NEI is impressed with what a 
relatively small staff, operating under chronic budgetary constraints, 
have been able to accomplish in the time--slightly more than a year--
that they have been at work. In that short period of time, the Loan 
Guarantee Program Office has developed internal management procedures 
and protocols; developed criteria to evaluate the creditworthiness and 
merit of loan guarantee applications; reviewed 143 applications 
received pursuant to an August 2006 solicitation and down-selected to 
16 projects for further negotiation; prepared and issued three major 
solicitations; issued a request for proposals for the legal advisers, 
financial advisers and technical experts needed to assist with due 
diligence in reviewing loan guarantee applications; and developed the 
analytical model necessary to calculate the credit subsidy cost that 
will be paid by project sponsors.
    Despite this significant progress, implementation of the program by 
the Executive Branch continues to be difficult, for reasons outside the 
control of the Loan Guarantee Program Office. One of the major 
difficulties stems from an unnecessarily narrow and restrictive reading 
of the original statutory language by the DOE Office of General 
Counsel. Section 1702(g)(2)(B) of Title XVII asserts that ``[t]he 
rights of the Secretary, with respect to any property acquired pursuant 
to a guarantee or related agreements, shall be superior to the rights 
of any other person with respect to the property.'' The DOE Office of 
General Counsel has consistently misinterpreted this section as a 
prohibition on pari passu financing structures, and a requirement that 
the Secretary must have a first lien position on the entire project. 
Counsel for NEI and many of the project sponsors, with substantial 
experience in project finance, believe that Section 1702(g)(2)(B) gives 
the Secretary a ``superior right'' to the property he guarantees, not 
to the entire project.
    If a nuclear project has multiple co-owners, each holding an 
undivided interest in the project, DOE insists that a default by any 
co-owner (such as abandoning the project during construction, or 
failing to meet its share of debt service during commercial operation) 
would constitute a default under every co-owner's obligations, allowing 
DOE to foreclose on all project collateral. The effect is to make each 
co-owner responsible for the others' obligations or to risk loss of its 
own interests. Aside from any business concerns such terms might raise, 
state law, federal tax law or both prohibit such cross-collateral or 
cross-default arrangements. This legal interpretation--which flows from 
the misinterpretation of the ``superior right'' provision discussed 
above--impacts four of the five top-ranked nuclear power projects now 
pursuing Title XVII loan guarantees.
    The DOE's position is thus a major obstacle to co-financing of 
nuclear projects. Projects financed as undivided interests cannot 
proceed if this interpretation stands. Financing from export credit 
agencies in other countries like France and Japan, would be equally 
difficult. This result makes little sense since such co-financing will 
leverage the existing loan volume of $18.5 billion, and reduce the risk 
to which the Department of Energy is exposed.
    One company developing a new nuclear project was sufficiently 
frustrated by its discussions with DOE on these matters that, after 
investing significant capital in developing a Part I application and 
paying the $200,000 filing fee, it elected not to file a a Part II 
application.
Insufficient Loan Volume
    The omnibus appropriations legislation for FY2008 authorized $38.5 
billion in loan volume for the loan guarantee program--$18.5 billion 
for nuclear power projects, $2 billion for uranium enrichment projects, 
and the balance for advanced coal, renewable energy and energy 
efficiency projects. The authority in the FY2008 omnibus expires at the 
end of the 2009 fiscal year.
    This loan volume is clearly inadequate. DOE has issued 
solicitations inviting loan guarantee applications for all these 
technologies and, in all cases, it appears that the available loan 
volume is significantly oversubscribed. For example, the initial 
nuclear power solicitation resulted in requests from 14 projects 
seeking $122 billion in loan guarantees, with only $18.5 billion 
available. NEI understands that 10 nuclear power projects submitted 
Part II loan guarantee applications, which represented $93.2 billion in 
loan volume. Two enrichment projects submitted Part II applications, 
seeking $4.8 billion in loan guarantees, with only $2 billion 
available. NEI also understands that the solicitation for innovative 
coal projects resulted in requests for $17.4 billion in loan volume, 
more than twice the $8 billion available. The solicitation for 
renewable energy, energy efficiency and transmission projects is still 
open (the deadline for applications is February 25), but the 
expectation is that demand will exceed available loan volume, partly 
because traditional sources of financing for renewable energy projects 
are seriously constrained by the banking crisis.
    It is, therefore, essential that limitations on loan volume--if 
necessary at all in a program where project sponsors pay the credit 
subsidy cost--should be commensurate with the size, number and 
financing needs of the projects. In the case of nuclear power, with 
projects costs in the $6-8 billion range, $18.5 billion is not 
sufficient.
            iii. improvements to the loan guarantee program
    The Title XVII loan guarantee program authorized by the 2005 Energy 
Policy Act was an important step in the right direction. That program 
was designed to jump-start construction of the first few innovative 
clean energy projects that use ``technologies that are new or 
significantly improved as compared to commercial technologies in 
service in the United States at the time the guarantee is issued.''\1\
---------------------------------------------------------------------------
    \1\ Energy Policy Act of 2005, Section 1703(a)(2)
---------------------------------------------------------------------------
    That goal remains as valid now as it was in 2005, but today the 
United States faces a larger, additional challenge--financing large-
scale deployment of clean energy technologies, modernizing the U.S. 
electric power supply and delivery system, and reducing carbon 
emissions. This is estimated to require investment of $1.5-2.0 trillion 
between 2010 and 2030.
    In NEI's view, the scale of the challenge requires a broader 
financing platform than the program established by Title XVII. An 
effective, long-term financing platform is necessary to ensure 
deployment of clean energy technologies in the numbers required, and to 
accelerate the flow of private capital to clean technology deployment.
    During the 110th Congress, Senator Bingaman introduced legislation 
to create a 21st Century Energy Deployment Corporation. Senator 
Domenici, ranking member of this committee during the last Congress, 
introduced legislation to create a Clean Energy Bank. Both proposals 
address aspects of the financing challenge facing the United States and 
its electric power industry.
    Establishing an entirely new institution is a heroic undertaking, 
however, and it is not clear that such an initiative is necessary. NEI 
sees no reason why the existing Title XVII program and the DOE Loan 
Guarantee Program Office could not serve as a foundation on which to 
build a larger, independent institution within the Department of 
Energy. There is precedent for such independent entities, equipped with 
all the resources necessary to accomplish their missions, in the 
Federal Energy Regulatory Commission and the Energy Information 
Administration. This approach could have significant advantages:

          1. An independent clean energy financing authority within DOE 
        could take advantage of technical resources available within 
        the Department, to supplement its due diligence on prospective 
        projects and to identify promising technologies emerging from 
        the research, development and demonstration pipeline that might 
        be candidates for loan guarantee support to enable and speed 
        deployment.
          2. An independent entity within DOE would have the resources 
        necessary to implement its mission effectively, including its 
        own legal and financial advisers with the training and 
        experience necessary for a financing organization. Providing 
        the independent entity with its own resources would eliminate 
        the difficulties encountered during implementation of the Title 
        XVII program.
          3. Programmatic oversight in Congress would remain with the 
        Energy Committees, which have significantly more experience 
        with energy policy challenges, and in structuring the 
        institutions necessary to address those challenges.
                             iv. conclusion
    In conclusion, NEI believes that the energy loan guarantee program 
created by the 2005 Energy Policy Act is as essential today as it was 
in 2005. NEI also believes that U.S. energy and environmental 
challenges justify a significant expansion of the program.
                                 ______
                                 
  Statement of Laura Miller, Director of Projects, Texas, the Summit 
                              Power Group
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to testify regarding the Federal loan guarantee program for 
carbon-sparing, advanced-technology energy projects. My name is Laura 
Miller. I joined the Summit Power Group after serving as the Mayor of 
Dallas, Texas, and leading a coalition of Texas mayors who two years 
ago fought the construction of new pulverized-coal-fired power plants 
with no carbon capture.
    By contrast, Summit is developing a coal gasification project in 
Texas with such a high carbon capture rate that the project's resulting 
CO<INF>2</INF> emissions will be even lower than those of a state-of-
the-art combined cycle natural gas-fired power plant. That's why I 
joined up. Our Texas project will include two warranted and 
commercially proven Siemens gasifiers, each 500 MWth, and a 1-on-1 F-
class Siemens combined cycle power plant. In addition to power, the 
project will produce commercial quantities of ammonia/urea for 
fertilizer, argon gas, sulfuric acid--and three million tons per year 
of captured, pipeline quality CO<INF>2</INF>. Unlike the first 
generation of IGCC (integrated gasification combined cycle) projects 
proposed years earlier, Summit's Texas Clean Energy Project will have 
very high warranted levels of performance, availability, and 
reliability--and a long-term operations and maintenance agreement with 
Siemens to assure that these high levels of performance, availability, 
and reliability continue.
    Summit develops power projects for utilities, independent power 
producers, and other project owners. Donald Paul Hodel, our Chairman, 
and Earl Gjelde, our CEO, founded Summit after Mr. Hodel served as 
Secretary of Energy and Secretary of the Interior for President Reagan, 
with Mr. Gjelde as his second in command at both posts. Obviously, 
others who have a different political persuasion have since joined 
Summit--me included--but one thing we share completely is a 
determination to provide electricity in the most clean and efficient 
manner possible. All Summit projects are highly efficient, climate 
friendly, and helpful to America's energy independence and national 
security. We develop wind energy projects. We develop low-emission 
natural gas-fired projects. And we have just launched a new business 
line--utility-scale photovoltaic (PV) solar energy projects. None of 
these Summit projects has needed or applied for a Federal loan 
guarantee.
    I am testifying today about the Texas Clean Energy Project (TCEP), 
the project I mentioned earlier, which we are developing at the former 
FutureGen site near Midland-Odessa. It is the first Summit project that 
uses coal, and it is one of several gasification projects Summit is 
developing with carbon capture. With a Federal loan guarantee, this 
plant can be built as a commercial project--not as a science 
experiment. It will capture more carbon than any commercial power plant 
yet built anywhere in the world. It will have lower carbon emissions 
per megawatthour of useful power produced than any commercial plant yet 
operating on fossil fuels anywhere else in the world. People will flock 
to see it, and they should, since it will represent a true milestone in 
carbon management.
    Summit planned this project in a way that would not require a 
Federal loan guarantee. But in today's unexpected and unprecedented 
financial market conditions, without a Federal loan guarantee this 
project will not get built--at least not in the foreseeable future. 
Capital is simply not available: The capital exists, but there is no 
market access to it. Not only will carbon capture be delayed as a 
result, but thousands of construction jobs and hundreds of permanent 
jobs--and the entire economic stimulus created by a project costing 
nearly two billion dollars--will be foregone on a project that we 
consider ``shovel ready,'' thanks to the hard work of many Texans and 
past efforts at the site by the FutureGen Alliance.
    Representatives of other projects will testify on specific issues 
with the existing Federal loan guarantee (FLG) program--the application 
fees, the risk premium payment, and so forth. Those are important 
matters. But Summit's message here today is simple: The single most 
important feature of the FLG program is simply that it exists. It needs 
to continue to exist, and with increased support--not reduced support. 
And it needs to continue to be available for carbon capture projects 
like this--not just for nuclear and renewable energy. Without it, and 
despite everything Summit and others do to promote renewable energy, 
any realistic hope of meeting current carbon reduction and energy 
independence goals for the U.S. and the world will simply disappear, 
swallowed up by today's global financial crisis. In terms of climate 
policy and national security alike, that would be a tragedy--in my 
view, a catastrophe.
    Speaking for myself, one old-technology, pulverized coal plant--
with few pollution controls and zero carbon capture--is currently being 
built in China every week. India is not far behind. In 2006, China 
surpassed the United States in the amount of carbon dioxide it produces 
for the first time in history. Since coal is plentiful and cheap, coal-
fired power plants will continue to be built around the globe--
including the United States where, despite strong opposition from 
environmental groups, business leaders and elected officials, a number 
are currently under construction, including three in Texas. The 
international technology bar must, and can be, raised. Each week that 
passes without a coal gasification plant with carbon capture and 
sequestration breaking ground allows yet another sub-par coal plant to 
be built that will needlessly foul the world's air, soil and water as 
it operates 24 hours a day, 365 days a year, for up to five decades. 
The time to build clean-coal plants with carbon capture is not today. 
It was yesterday.
    For Summit, the key issue our large-scale carbon capture project 
faces is not technological. The technology is commercially proven and 
warranted. Nor is the issue the cost of capital, at least not 
primarily. The issue is simply access to capital. For large, new, 
carbon-sparing energy projects, the necessary capital--particularly the 
necessary project debt--will simply not be available while the global 
financial crisis persists.
    Summit set out to develop TCEP as a project financed in 
conventional private capital markets, taking advantage of Federal 
carbon-reduction incentives but without relying on major Federal 
subsidies. Then the outside world delivered major blows to the 
project's economics. First, we saw huge increases in construction and 
raw materials costs. That made TCEP more expensive. Then the price of 
natural gas plunged. That made power produced from natural gas less 
expensive by comparison. The price of oil also plunged, and that 
reduced projected prices for captured carbon dioxide. In today's pre-
cap and trade world, using captured CO<INF>2</INF> for enhanced oil 
recovery is the only significant and commercially-available way to both 
sequester carbon and help cover the costs of doing so--including the 
costs of independent monitoring, measurement, and verification (MMV) to 
assure that CO<INF>2</INF>, once injected into the ground, will stay 
there.
    All those outside problems made state tax relief and other local 
incentives vital to our project economics. The State of Texas has been 
very responsive, and seems poised to grant all reasonable incentives 
within the State's power for high carbon capture projects such as TCEP. 
These same problems also made other Federal incentive programs more 
important, too. These include Section 48A investment tax credits, 
Section 45Q credits for carbon dioxide that is actually captured and 
sequestered, and clarification of depreciation rules, so that that 
gasification projects with high carbon capture rates will be 
depreciated properly, like chemical plants and refineries, not like 
conventional natural gas-fired power plants.
    But none of these problems--rising construction and materials 
costs, falling natural gas prices, and falling prices for captured 
CO<INF>2</INF>--required Summit to seek a Federal loan guarantee. 
Indeed, we did not apply for one. What requires Summit to do so now is 
a related but different problem, the national--and indeed global--
financial market collapse. Conventional financing for projects with 
such large capital costs is simply unavailable now from the private 
sector. It is unrealistic, and much too expensive, to try to build such 
projects on an all-equity, no-debt basis. But the debt is not 
available; lenders are not lending. People who still have good jobs 
can't borrow money even to buy a house. No one can borrow a billion 
dollars or more to build a carbon capture project, even where--as 
here--the project's components are each commercially proven and 
warranted.
    So it is vital that the FLG program continue, that it be expanded, 
and that it be available for carbon capture projects such as Summit's 
Texas Clean Energy Project--not just for nuclear plants and renewable 
energy projects, as important and useful as those technologies may be. 
The U.S. and the Western World will not provide the leadership needed 
to reduce carbon emissions from coal-fired power projects in China and 
India, or elsewhere in the world, by building more nuclear plants and 
wind farms, whatever their virtues. But if we capture and sequester 
carbon produced in the responsible use of coal, with new power 
generation technology not yet in worldwide use, then our leadership may 
make a difference. That is Summit's hope, and my personal hope.
    Yet you have heard it said--repeatedly--that no plant such as 
Summit's has yet been built. And, therefore, clean coal does not exist. 
That's thoroughly misleading--and not an argument that should be made 
in a discussion about increasing Federal loan guarantees for clean-coal 
projects. To declare that ``no such plant has yet been built'' is 
equivalent to having declared, in July 1969, ``No human has ever set 
foot on the moon.'' By that date, humans had been lofted into space and 
returned safely. Spacecraft had orbited and landed on the moon. Most 
important, years of effort to string these successes together, and 
actually land a human on the moon, were then on the verge of success. 
No human had ever set foot on the moon. But that was about to change.
    Here, the gasification of coal has been carried out successfully 
for decades--actually, for more than a century. In horse and buggy 
days, ``town gas'' from gasified coal fueled our nation's street lamps. 
Power generation equipment has also been operated smoothly, 
successfully, and cleanly on the much cleaner synthesis gas, or 
``syngas,'' produced today. Carbon capture from gasification facilities 
has also been carried out successfully for decades, including in the 
United States--specifically North Dakota, as the good Senator and 
Committee member from that state knows best. Senator Dorgan can also 
tell you about the transportation of liquefied carbon dioxide by 
pipeline, which his state does as well, along with the geological 
injection of large volumes of carbon dioxide, including CO<INF>2</INF> 
from gasification. In the Permian Basin of Texas alone, many million 
tons of CO<INF>2</INF> have been injected, over more than thirty years. 
In fact, CO<INF>2</INF> injection is the only method of enhanced oil 
recovery that results in CO<INF>2</INF> being geologically sequestered.
    What is now ready to happen--and that has not yet happened--is to 
string these successes together into a single large integrated project 
that gasifies coal, generates electric power, produces other commercial 
products from syngas, and captures carbon that is ultimately 
sequestered. Projects that do this are finally ready to be built, and 
to begin capturing and sequestering carbon. Summit's Texas Clean Energy 
Project is just such a project. We are ready to proceed with it. Rather 
than say, ``no such project has yet been built,'' people should instead 
recognize that such projects are imminent and should help them get 
built.
    We will need a Federal loan guarantee--which is not what we had 
hoped. Properly administered, however, the FLG program is one response 
to the current financial crisis that should not cost the Federal 
government money. A borrower under the FLG program receives a loan, not 
a grant. The borrower must repay the loan, at a higher interest rate 
than the government's own borrowing rate. The government should make 
money on the loan. This is entirely appropriate. Again, the issue 
preventing these projects from being built today is not the borrowing 
rate--the issue is the lack of any borrowing being available, at all, 
in the private capital markets. I can't speak for every potential 
project. But if Summit's TCEP project can gain a Federal loan 
guarantee, the interest rate we anticipate being required to pay will 
not stand as a major impediment to successful completion and operation 
of the project.
    Thank you for this opportunity to testify. My Summit colleagues and 
I welcome your questions, and we appreciate your thoughtful 
policymaking and support on this vital matter.
                                 ______
                                 
                                                 OptiSolar,
                                    Hayward, CA, February 11, 2009.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, 304 Dirksen 
        Senate Building, Washington, DC.
Re: OptiSolar Inc.'s Written Testimony Regarding the Department of 
Energy Loan Guarantee Program for the February 12, 2009 Senate Energy 
and Natural Resources Committee Meeting

    Dear Senator Bingaman, Please accept this as OptiSolar Inc.'s 
written testimony regarding the current state of the Department of 
Energy Loan Guarantee Program and how the delivery of services to 
support the deployment of clean energy technologies might be improved.
    The Department of Energy's program for Loan Guarantees for Projects 
that Employ Innovative Energy Efficiency, Renewable Energy, and 
Advanced Transmission and Distribution Technologies (``Innovative 
Energy Program'') supports the commercialization of new, clean energy 
technologies and the resulting environmental benefits. The program has 
the potential to stimulate employment growth as well as improve the 
nation's energy independence. But the program's goals are undermined by 
the imposition of extraordinarily high up-front program costs on 
program applicants, potentially totaling tens of millions of dollars, 
and the indeterminate time frame for consideration of applications. If 
the Department of Energy funded the program's costs, as it does for 
other similar programs, more applicants could participate in the 
Innovative Energy Program. If there were a specific schedule for 
expedited review of the applications, applicants could depend on the 
program for shovel-ready projects, such as OptiSolar Inc.'s solar panel 
manufacturing project, described below. Each of these improvements 
would make the program more effective in achieving its goals.
  (i) about optisolar's solar photovoltaic panel manufacturing project
    OptiSolar Inc. (``OptiSolar'') is a vertically integrated utility 
scale solar electricity generation company that manufactures solar 
panels using amorphous silicon thin film photovoltaic technology. 
OptiSolar plans to submit an application for a Department of Energy 
(``DOE'') loan guarantee under the Innovative Energy Program in 
response to Solicitation Reference Number: DE-FOA-0000005, issued 
pursuant to the Code of Federal Regulations, Title 10, Chapter II, 
Section 609 (the ``Final Rule'').
    OptiSolar will use the guaranteed loan to complete construction of 
its photovoltaic panel manufacturing facility and the acquisition of 
solar panel manufacturing equipment for the facility (the ``Project''). 
OptiSolar has already invested approximately $75 million in the 
Project, which is located in Sacramento County, California. Once the 
proceeds of the guaranteed loan are disbursed, OptiSolar will 
immediately reinstate hundreds of construction jobs for work that it 
suspended due to the financial crisis, and will ultimately create over 
1,000 permanent manufacturing jobs.
    OptiSolar has been operating photovoltaic solar module development 
equipment in Hayward, CA since 2006. OptiSolar successfully completed 
construction of its manufacturing facility in Hayward in the first 
quarter of 2008. It began installing photovoltaic solar module 
manufacturing lines, the first of which began its operating ramp in 
March, 2008. The second manufacturing line was installed and began its 
operating ramp in August, 2008. Both lines are currently producing 
photovoltaic solar panels which were used to construct OptiSolar's 
first solar farm in Sacramento, California, and are being used to 
construct OptiSolar's first commercial solar farm. in Ontario, Canada.
    OptiSolar began construction work on the Project in March 2008. 
OptiSolar has largely completed the first phase of construction to 
prepare the Project to receive its first photovoltaic module 
manufacturing line, including site demolition, earthwork and exterior 
improvements, concrete pours, masonry work, steel installation, 
architectural interior finishes, process piping, fire protection, 
underground utilities, HVAC and mechanical equipment, gas and equipment 
pads, interior electrical work, electrical work in support of a planned 
69 kV substation, fire alarm system installation, facility monitoring 
system installation, and gas monitoring system installation. Much of 
the manufacturing equipment for the first photovoltaic module 
production line has already been received at the Project site.
    OptiSolar was in the process of raising additional equity for the 
development of the Project when the financial crisis struck. Despite 
the low risk of investing in OptiSolar's proven manufacturing process, 
financing parties have been forced to scale back their commitments 
dramatically or withdraw them completely. In December 2008, in response 
to the general financial crisis, OptiSolar suspended construction on 
the Project. On Friday, January 9, 2009, OptiSolar gave termination 
notices to almost 300 employees, approximately 50% of its workforce, a 
great many of whom were working on the Project. OptiSolar reluctantly 
took this drastic step in an effort to preserve its core business and 
ability to ultimately execute on its business plan for the large-scale 
manufacture of photovoltaic solar panels and the development of large-
scale solar fauns. OptiSolar is prepared to immediately recommence 
construction and begin installation of its first photovoltaic module 
manufacturing line upon the first disbursement of the guaranteed loan, 
immediately rescuing hundreds of construction jobs.
 (ii) improvements to the doe innovative energy loan guarantee program
    The Innovative Energy Program, as it exists today, offers a distant 
promise of a solution to the financial crisis and the deployment of 
new, innovative clean energy technologies, and places several nearly-
insurmountable hurdles in the way of that promise. With some changes. 
the Innovative Energy Program within the DOE Loan Guarantee Program 
could become a key solution in both the economic recovery and the 
development of a renewable energy infrastructure in the United States.
(A) Innovative Enemy ProLiram Applicants Should Not Be Subject to High 
        Application Costs
    Congress should appropriate funds to reduce the application fee for 
the Innovative Energy Program and to conduct the credit analysis 
necessary to determine the viability of applicants' projects.
    Section 609.6(b)(21) of the Final Rule and Section F(12) of 
Attachment A of the Innovative Energy Program solicitation requires 
applicants to submit a preliminary credit assessment with their 
application for a loan guarantee.\1\ Together, the cost for the 
services of a rating agency to provide a credit assessment and the 
application fee total approximately S300,000, in OptiSolar's case. 
Applicants are expected to incur about half of these expenses, in 
OptiSolar's case, approximately $150,000, before even knowing whether 
DOE will select their applications for due diligence and project 
underwriting. The Final Rule asks applicants to gamble cash that they 
urgently need for other uses in a high-stakes wager for government 
assistance. This part of the Final Rule will inhibit worthy applicants 
from seeking guarantees through the program, and thus hinder the 
ability of the program to achieve its goals.
---------------------------------------------------------------------------
    \1\ ``An Application must include, at a minimum, the following 
information and materials:... A preliminary credit assessment for the 
project without a loan guarantee from a nationally recognized rating 
agency for projects where the estimated total Project Costs exceed $25 
million.'' Final Rule Section 609.6(b)(21).
---------------------------------------------------------------------------
(B) Innovative Energy Program Applicants Should Not Bear DOE 
        Administrative Fees and Costs or Credit Subsidy Costs
    Congress should appropriate funds to cover the costs of 
administering the Innovative Energy Program and the credit subsidy cost 
for borrowers under the Innovative Energy Program.
    Sections 609.8(d) and (e) of the Final Rule require applicants to 
pay for DOE's administrative costs and, when no Congressional 
appropriation has been made, for the credit subsidy cost (which is 
essentially a cash reserve for the DOE to cover potential program 
defaults). In OptiSolar's case, those fees and costs that can be easily 
estimated--a 1% facility fee and the cost of DOE's lawyers and 
consultants--alone will approach $4 million even before OptiSolar 
receives a firm commitment from the DOE for a loan guarantee. The 
credit subsidy cost remains unknown to an applicant until immediately 
before the loan is disbursed--after the applicant has incurred millions 
of dollars in other fees and expenses. This unknown credit subsidy cost 
could, in certain scenarios, reach into the tens of millions of 
dollars. These parts of the Final Rule will inhibit worthy applicants 
from seeking guarantees and hinder the ability of the program to 
achieve its goals.
(C) DOE Should Expedite the Disbursement of Loans
    Congress should require DOE to expedite the review of applications 
under the Innovative Energy Program. Currently, the Innovative Energy 
Program does not impose any timeline for DOE to evaluate applications, 
select applicants to receive loan guarantees, and close on the relevant 
financings. Applicants such as OptiSolar cannot rely on the program to 
execute projects in the near term. because a decision on the guarantee 
could take months or years. Given the current effort in Congress to 
quickly inject capital into the markets to create jobs, build renewable 
energy capacity, and generate economic growth, the Innovative Energy 
Program should expedite the review of loan guarantee applications.
(D) An Existing DOE Program Has Similar Characteristics to the Proposed 
        Improvements
    DOE already administers a program which has the improvements 
proposed above for the Innovative Energy Program. It is the DOE's 
Advanced Technology Vehicles Manufacturing Incentive Program (the 
``ATVM Program''), The ATVM Program authorizes the DOE to make direct 
loans for the purpose of re-equipping, expanding, or establishing 
manufacturing facilities for advanced technology vehicles and 
components.\2\ In September, 2008, Congress modified the ATVM Program 
so that applicants are not required to pay any application fee, nor are 
they required to submit a rating agency credit assessment at any point 
in the application process.\3\ ATVM Program borrowers only pay a 0.1% 
fee on their loan and do not pay for the credit subsidy cost, because 
Congress has appropriated funds to cover the cost.\4\ The ATVM Program 
demonstrates how the Innovative Energy Program would work with the 
improvements proposed above.
---------------------------------------------------------------------------
    \2\ As authorized by Section 136 of the Energy Security Act of 
2007, Pub. L. 110-140 (December 19, 2007).
    \3\ See 10 CFR Part 611 Subpart B. Section 611.101: Federal 
Register. Vol. 73. No. 219. pp. 66733-34 (Wednesday, Nov. 12, 2008). 
See also Federal Register, Vol. 73, No. 219. pp. 66729, paragraph H.
    \4\ Section 129(a) and 129(c) of the Consolidated Security. 
Disaster Assistance, and Continuing Appropriations Act. 2009. Pub. L. 
110-329 (September 30. 2008). See also Federal Register Vol. 73, No. 
219. pp. 66721-66722 and 66729. paragraph H (November 12. 2008).
---------------------------------------------------------------------------
III. The Financial Crisis and the Goals of the Economic Stimulus Weigh 
          in Favor of Improving the Innovative Energy Program
    The world has changed since the Final Rule was issued in June of 
2008, and the renewable energy industry has been impacted just as 
severely as the automotive industry. On January 8, 2009, President 
Obama, in a speech to the nation as President-elect, noted that 
``Manufacturing has hit a twenty-eight year low. Many businesses cannot 
borrow or make payroll.'' Solid companies face cash shortages due to 
malfunctioning capital markets, and the nation recognizes that, as 
President Obama said in his January 8th speech. ``. . . doing too 
little or nothing at all . . . will lead to an even greater deficit of 
jobs, incomes, and confidence in our economy. It is true that we cannot 
depend on government alone to create jobs or long-term growth. but at 
this particular moment, only government can provide the short-term 
boost necessary . . .'' OptiSolar is not alone in facing a financial 
contraction of extraordinary duration that inhibits its ability to 
expand its manufacturing capacity for renewable energy technology.
    The DOE created the Innovative Energy Program pursuant to Title 
XVII of the Energy Policy Act of 2005 (the ``Act'') in order ``to 
encourage commercial use in the United States of new or significantly 
improved energy related technologies and to achieve substantial 
environmental benefits. DOE believes that commercial use of these 
technologies will help sustain and promote economic growth, produce a 
more stable and secure energy supply and economy for the United States, 
and improve the environment.'' (Federal Register Vol. 72, No. 204, p. 
60116 (Tuesday, October 23, 2007).)
    Imposing the current fees and costs of the Innovative Energy 
Program on applicants and the absence of a timeline for the award of 
guaranteed loans undercut the program's goals. First, the Innovative 
Energy Program is designed to ``enable project developers to bridge the 
financing gap between pilot and demonstration projects to full 
commercially viable projects that employ new or significantly improved 
energy technologies.'' (Press Release by the Department of Energy, June 
30, 2008.) These projects could otherwise have difficulty making it 
from the demonstration stage to the commercialization stage of 
development fast enough to benefit from economies of scale, due to 
perceived risk. Penalizing applicants with a credit subsidy cost that 
increases with the level of perceived risk undercuts this goal. Second, 
even absent the current financial crisis that has sapped the cash 
reserves of even the most established companies, new companies are 
hard-pressed to come up with millions of dollars to cover fees and 
costs on a speculative basis, before they have a commitment from DOE to 
guarantee a loan and before their (by definition) pre-commercial 
technologies have started generating revenues. Finally, near-term, 
shovel-ready projects, such as OptiSolar's solar panel manufacturing 
project, will languish due to the current financial crisis, unless the 
review of program applications is expedited.
    The nation has an interest in improving the renewable energy 
infrastructure in the United States, creating jobs, diversifying the 
nation's energy mix, and increasing the manufacturing base of clean 
energy technologies. The proposed changes to the Innovative Energy 
Program would help achieve these goals. For these reasons, OptiSolar 
encourages the adoption of the proposed changes. Thank you for your 
consideration.
            Sincerely,
                                         Randall Goldstein,
                                           Chief Executive Officer.
                                 ______
                                 
       Statement of Edward J. Driscoll, Chief Executive Officer, 
                           Rational Energies
    Mr. Chairman, Ranking Member Murkowski, and Members of the 
Committee:
    We appreciate the opportunity to share our thoughts and concerns 
regarding the Department of Energy's (DOE) Title XVII Loan Guarantee 
Program (Program) with the Committee. We believe the Program has the 
potential to accelerate significantly the commercialization of new 
technologies that will create new jobs; reduce our nation's dependence 
on foreign oil; improve the environment; and create sustainable 
alternative energy businesses. However, as currently structured, the 
Program makes it extremely difficult for early stage companies to 
utilize the program effectively as a means to achieve its intended 
purpose.
                 rational energies clean diesel project
    Rational Energies LLC is a Minnesota based company that has 
designed a process for converting municipal solid waste (MSW) into 
renewable clean diesel (RC diesel) that meets the ASTM D975 fuel 
quality specification. We are currently engaged in a project to 
construct a $300M MSW to RC diesel plant to be located in Empire 
Township, Minnesota. The plant will produce just over 28M gallons per 
year of RC diesel; enough to supply the municipal bus fleet in the Twin 
Cities and many of the school buses with a fully compatible diesel 
product that provides up to 80% reduction in greenhouse gas emissions. 
Additionally, the plant will prevent almost 700,000 tons of garbage per 
year from being dumped in landfills, which would equate to a 
substantial reduction in the formation of methane (a high GWP 
greenhouse gas). This project will result immediately in an estimated 
40 jobs for design and engineering, 250 jobs during construction, and 
90 mostly ``head of household'' jobs when operational. Major elements 
of the project, including feedstock, technology, product sales, plant 
design engineering, EPC contractor and land, are all in place. The 
Minnesota State environmental permitting process has been initiated, 
and construction can begin when permitting is complete in 12 to 18 
months. Our project has the support of Empire Township, local counties, 
the State of Minnesota, local garbage haulers, one of our local bus 
companies, and the University Of Minnesota.
    The Program has the potential to be a good fit for Rational 
Energies, LLC, because we are proposing the construction of a plant 
based on technologies that have never before been integrated into a 
commercial scale operating plant. Private financial institutions are 
normally reluctant to invest in new technologies, and the current 
financial crisis has restricted private capital even further.
    We have considered applying to the Program as it currently exists 
but have not because several of the program elements make it difficult 
to utilize:

          First, the credit subsidy costs require a significant capital 
        expenditure for which we can demonstrate no return on 
        investment to our investors. Private equity sources funding 
        early stage companies generally will not tolerate this use of 
        capital.
          Second, the fixed solicitation deadline forces technology 
        development efforts into a limited timeframe that can restrict 
        applicants from being able to provide the best possible data 
        for a given application.
          Third, there is no mechanism in the Program that provides 
        early stage companies financial support or incentives to employ 
        the due diligence efforts of outside experts needed to ``bridge 
        the gap'' between applicant claims and bankable expectations. 
        This is a cost that private investors are usually unwilling to 
        cover. If the federal government were willing to provide these 
        funds in the form of grants or loans, we believe it would have 
        the effect of accelerating the development of many projects.
                            recommendations
    We recommend to the Committee and to the Department of Energy that 
the Title XVII Loan Guarantee Program be modified to make it more 
accessible to development stage companies in the following ways:

          First, end the requirement for the applicant to fund the 
        credit subsidy payment. This will ease the financial burden of 
        early stage companies in applying for the program. This appears 
        to have been incorporated in the American Reinvestment and 
        Recovery Act's (ARRA) temporary program to incentivize the 
        development of renewable energy systems and electronic 
        transmission systems, as well as leading edge biofuels that 
        have been demonstrated and have commercial promise to 
        substantially reduce greenhouse gas emissions. Additionally, 
        Secretary Chu has recently indicated that, in an effort to 
        reduce up-front costs, the DOE will seek to restructure credit 
        subsidies so that they are paid for over the life of the loan.
          Second, modify the solicitation format to provide for a more 
        natural technology and business cycle. We believe this would 
        have two benefits: (1) it would allow the DOE a more even flow 
        of applications to process and ease the burden on staff; and 
        (2) it would allow companies to complete applications as their 
        development schedules permit, easing the need to rush data or 
        information into reviewers' hands just to meet an arbitrary 
        deadline. Secretary Chu recently announced the rolling 
        appraisal of applications as one of the DOE's proposed reforms 
        to the program.
          Third, provide a means to pre-screen applicants and provide 
        some assistance in the form of grants to complete financial and 
        technical due diligence validation to those that appear worthy 
        of financial support. Grants up to $5M should be adequate for 
        the majority of alternative energy projects.
                               conclusion
    If the United States is to retain its economic and technological 
competitiveness, while at the same time making a significant 
contribution to reducing its overall greenhouse gas emissions, it is 
essential that a more robust deployment of clean energy technologies 
occur at an accelerated pace. Along those lines, we believe the DOE can 
be an effective force in stimulating the economy, particularly as it 
relates to the development of alternative fuels. The DOE has the 
capacity to provide capital where the private equity markets are 
unwilling or unable. If properly modified, we believe that the existing 
DOE Program could quickly move to fund projects like the Rational 
Energies Clean Diesel Project that will provide immediate, sustainable 
``head of household'' jobs that cannot be exported outside the U.S.
    Thank you for your time and consideration.
                                 ______
                                 
     Statement of Michael J. McInnis, Managing Director, the Erora 
                             Group, L.L.C.
    Mr. Chairman, Ranking Member Murkowski, and Members of the 
Committee:
    We appreciate the opportunity to share our suggestions about how to 
encourage the rapid deployment of clean energy technologies. We believe 
it is essential for Congress and the Department of Energy to reform 
existing loan guarantee and grant programs. If reformed correctly, 
these programs can serve to accomplish broader objectives, including 
economic stimulus, and will encourage the growth of a new industry, 
creating green jobs, reducing our dependence on foreign sources of 
energy, and addressing issues respecting greenhouse gases. Unless 
Congress and the Department of Energy act, the construction of new 
projects and the anticipated economic stimulus to local economies 
across the country will continue to be delayed, or may be permanently 
shelved, as a consequence of the frozen capital markets.
                    cash creek gasification project
    We are in the final stages of developing the Cash Creek 
Gasification Project in Henderson County, Kentucky. The project will 
create 1,000-1,500 construction jobs and 200-300 new permanent 
employment positions, while supporting thousands of manufacturing jobs 
related to equipment purchases. When operational, the project will 
gasify 2.8 million tons of coal per year, producing natural gas and 
generating electricity in a natural gas combined cycle plant. Once 
built, the plant will be the cleanest coal-fueled facility in the 
country, with a greenhouse gas emissions profile similar to that of a 
natural gas combined cycle facility. In fact, the facility will capture 
nearly 100% of the carbon dioxide resulting from the gasification 
process and greater than 75% on a plant-wide basis. The captured carbon 
dioxide can then be transported by pipeline to support enhanced oil 
recovery in other parts of the country or could be geologically 
sequestered as that opportunity arises.
    Our facility has in hand, or soon will have secured, all the 
necessary permits to commence construction, including all required 
water use and air quality permits. By working with local chapters of 
the AFL-CIO and executing a project labor agreement, we have ensured 
that a trained workforce will be ready to commence construction.
    During the course of developing the Cash Creek project, we 
contemplated applying for a loan guarantee under the existing title 17 
program. We determined, perhaps to our detriment, that such an 
application was not warranted due to the extraordinary costs of 
preparing the application coupled with uncertainties in the application 
process. It is against this backdrop that we respectfully offer the 
following recommendations.
                            recommendations
    We recommend that the Department revise the regulations that 
implement title 17 of the Energy Policy Act of 2005 to address two 
important issues. First and foremost, we believe that the Secretary 
should issue an additional project solicitation and prioritize the 
award of loan guarantees based on a project's greenhouse gas emissions 
profile and how soon the project will have all permits necessary to 
commence construction. Implemented in this way, the title 17 loan 
guarantee program not only would serve as a catalyst to stimulate the 
economy by supporting shovel-ready projects, but also would encourage 
applicants to develop the cleanest possible projects. Second, the 
Department should revise the implementing regulations to streamline the 
application process and to address the implementation problems that 
discouraged us and other companies from seeking loan guarantees as a 
tool to bring commercially available technology to market.
    In addition, by making modest changes to section 703 of the Energy 
Independence and Security Act of 2007, Congress not only would 
encourage the development of technologies for the large-scale capture 
of carbon dioxide from industrial sources, but also would speed their 
deployment.
    Given current and foreseeable credit market conditions, federal 
loan guarantees and grants will be essential to developing and 
deploying large-scale gasification and carbon capture and storage (CCS) 
projects. We believe it is essential for Congress to increase funding 
for the loan guarantee and grant programs, and to encourage the 
Secretary of Energy to issue an additional project solicitation and 
move quickly to support projects that offer a great deal of promise in 
reducing our dependence on foreign sources of oil and moving us towards 
a less carbon-intensive future. We set forth below, in further detail, 
suggestions about how current law and regulations could be improved to 
encourage the rapid deployment of clean energy technologies, such as 
those embodied in the Cash Creek Gasification Project.
                    title 17 loan guarantee program
    We have considered but so far have not sought loan guarantees for 
the Cash Creek Gasification Project in part because we would have to 
invest millions of dollars in preparing our submission without any 
clear sense of the amount of the credit subsidy cost we would have to 
bear in return for receiving a loan guarantee. Under the agency's 
implementing regulations, to comply with the Federal Credit Reform Act, 
an applicant must agree to make a non-refundable payment to the 
Department to cover the credit subsidy cost of a guarantee (in the 
absence of an appropriation that otherwise would cover it). 
Unfortunately, there is no way to discern this cost in advance of 
making an application. Moreover, an applicant will only receive a non-
binding estimate from the Department when it issues a term sheet, which 
will occur only after an applicant has spent several million dollars 
preparing an application for a project of the size and scope of the 
Cash Creek Gasification Project. Even when we had access to adequate 
sources of project funding, we decided not to file an application 
because we faced too much economic uncertainty about whether the credit 
subsidy cost would make our project either uneconomic or significantly 
less economic. In the current economic environment, the risks 
associated with the credit subsidy cost process are too great to bear.
    In order to help bring new projects with the greatest potential 
benefits to fruition quickly, we have three suggestions.
    First, in awarding loan guarantees, the Secretary should give 
priority to those that have the cleanest greenhouse gas emissions 
profiles and are shovel-ready, irrespective of when an application was 
or is filed. As noted above, by implementing the title 17 loan 
guarantee program in this way the Department not only will stimulate 
the economy by supporting shovel-ready projects, but also will 
encourage applicants to develop the cleanest possible projects.
    Second, the application process should be streamlined and the 
amount of information that must be submitted should be scaled back so 
that the application process will not be unreasonably expensive and 
burdensome. In addition, some application requirements ignore the 
realities of the marketplace. For example, an application 
prioritization process that requires that the applicant proffer a power 
sales agreement ignores the fact that there is a liquid and transparent 
market for power in which utilities and others participate. 
Prioritization based on power sales potentially precludes the 
development of these technologies by limiting the flexibility of 
utilities in how they procure their power supplies. Finally, as part of 
this effort, the Department should provide potential applicants with 
more precise information about the likely credit subsidy payment that 
will be required for proposed projects. Alternatively, Congress should 
appropriate sufficient funds to cover the credit subsidy cost (as it 
did with respect to the advanced technology vehicles manufacturing 
program last year). By providing greater certainty and reducing the 
paperwork burden, the Department will have eliminated barriers to 
applicants that otherwise would bring forward good projects.
    Third, with these changes and given the current state of the 
economy, we believe that it is appropriate that there be an additional 
solicitation (round of applications) to encourage participation by 
applicants that meet the revised criteria.
                      carbon capture grant program
    As drafted, section 703 of EISA is focused principally on 
demonstration projects, rather than deployable projects, that would 
capture ``a high percentage'' of carbon dioxide. Thanks to the promise 
of carbon capture and sequestration, the prospect of coal gasification 
plants with the emissions profile of natural gas plants is no longer a 
distant reality. In fact, shovel-ready projects that would fulfill this 
promise, such as the Cash Creek Gasification Project, would be going 
forward, but for the absence of liquidity in the project finance 
markets. The stimulative effect of rapidly deploying CCS technology 
(and coal gasification technology) will spur economic growth and create 
thousands of jobs as new facilities come on-line and existing 
facilities are retrofitted to use commercially available technology to 
substantially reduce greenhouse gas emissions.
    We recommend two changes to section 703 to encourage not only 
research and development projects, but also deployable projects that 
are using state-of-the art technology: Revise section 703(a)(1) to make 
clear that the Secretary should carry out a program to ``demonstrate 
and deploy commercially available technologies'' for the large-scale 
capture of carbon dioxide from industrial sources; and revise section 
703(B) to provide priority in the award of grants to projects for which 
all applicable permits have been issued or soon will be issued and for 
which at least 75% of the carbon dioxide will be captured and 
sequestered. With these changes, the law (and implementing regulations) 
would complement a recalibrated title 17 loan guarantee program by 
encouraging the award of grants to shovel-ready projects with the best 
greenhouse gas emissions profiles.
                               conclusion
    If the United States is to retain its economic and technological 
competitiveness, while at the same time making a significant 
contribution to reducing its overall greenhouse gas emissions, it is 
essential that large scale commercially viable CCS and coal 
gasification technologies be deployed. By improving the loan guarantee 
program, amending section 703, and enacting new legislation, including 
Chairman Bingaman's proposed 21st Century Energy Technology Deployment 
Act, Congress can address the problems caused by the current credit 
crisis and meet the twin goals of creating new green energy jobs and 
placing a down payment on technology that will make the United States 
more energy efficient and energy independent.




                                  <all>


</pre></body></html>
